<html>
<title> - RELIGIOUS FREEDOM IN EUROPE</title>
<body><pre>[Senate Hearing 107-44]
[From the U.S. Government Printing Office]





                                                         S. Hrg. 107-44

            RELIGIOUS FREEDOM IN EUROPE AND AROUND THE WORLD

=======================================================================

                                HEARINGS

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                AND THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         MAY 1 AND JUNE 5, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                   U.S. GOVERNMENT PRINTING OFFICE
72-558                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
                                     PAUL D. WELLSTONE, Minnesota

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

                      Religious Freedom in Europe
                              May 1, 2001

                                                                   Page

Baker, Rabbi Andrew, director, International Jewish Affairs, The 
  American Jewish Committee, Washington, DC......................    29
    Prepared statement...........................................    34
Clark, Elizabeth A., associate director, BYU International Center 
  for Law and Religious Studies, Provo, UT; representing Dr. W. 
  Cole Durham, Jr., Gates University Professor of Law, director, 
  BYU International Center for Law and Religious Studies, Provo, 
  UT.............................................................    14
    Prepared statement...........................................    17
Parmly, Michael E., Acting Assistant Secretary of State for 
  Democracy, Human Rights, and Labor, Department of State, 
  Washington, DC.................................................     3
    Prepared statement...........................................     7

         Annual Report of the U.S. Commission on International
                           Religious Freedom
                              June 5, 2001

The following witnesses appeared together as a panel:

Kazemzadeh, Dr. Firuz, former Vice Chairman, U.S. Commission on 
  International Religious Freedom, and senior advisor, National 
  Spiritual Assembly of the Baha'is, Alta Loma, CA
Saperstein, Rabbi David, former Commissioner and Chair, U.S. 
  Commission on International Religious Freedom, and director, 
  Religious Action Center for Reform Judaism, Washington, DC
Shea, Nina, Commissioner, U.S. Commission on International 
  Religious Freedom, and director, Center for Religious Freedom, 
  Freedom House, Washington, DC
Young, Michael K., Commissioner, U.S. Commission on International 
  Religious Freedom, and dean, George Washington University 
  School of Law, Washington, DC..................................    41
    Prepared statement of the Commission and the Executive 
      Summary of the Commission's report.........................    47

                                 (iii)

  

 
                      RELIGIOUS FREEDOM IN EUROPE

                              ----------                              


                          TUESDAY, MAY 1, 2001

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:24 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith (chairman of the subcommittee) presiding.
    Present: Senator Smith.
    Senator Smith. Ladies and gentlemen, we'll convene this 
hearing of the Senate Foreign Relations Subcommittee on 
European Affairs. We thank all of you for your presence. We're 
here on a topic I think that goes to the fundamental values 
that we hold in the United States and about which we remain 
concerned.
    Let me just say parts of my opening statement that I don't 
read I'll include them in the record, but I know we need to be 
careful in this hearing in the sense that we recognize our 
European allies as in many ways the parents of this nation. 
They are sovereign countries. They are our friends, and from 
them the American nation has drawn much of its law and its 
traditions, its values, its customs, and we in no way want to 
suggest in any of our testimony today that we condone under the 
cloak of religion that which would be criminal. But we do want 
to express clearly how concerned we are about some recent cases 
that we find cropping up around Europe that certainly don't 
square with the Western democratic traditions in human rights 
that Europe has fostered in so many ways for so many centuries.
    So we are going to hold this hearing on a rather general 
topic of religious freedom in Europe. I've asked our witnesses 
to focus on what we see as a disturbing trend in a few European 
countries who actually target religious organizations through 
the establishment of official government lists and whose 
official government departments do keep tabs on different 
churches.
    In addition, we've also asked Rabbi Baker to speak briefly 
about anti-semitism in Europe in conjunction with the ongoing 
problems with religious freedom. Rabbi Baker will be joined 
with David Harris at a later hearing that will specifically 
focus on anti-semitism, specifically as we see it manifest 
abroad in so many ways. It will be a more in-depth hearing on 
that more narrowed issue, a very critical one.
    This last January Senator Hatch and I traveled to Europe to 
participate in the Davos Conference. We stopped off in Paris 
for a series of meetings with French officials regarding 
pending legislation in the French Senate that would criminalize 
so-called ``mental manipulation'' a term so broad that it would 
allow authorities to convict Sunday School teachers in a number 
of churches. It also authorizes the dissolution of religious 
groups if one of their leaders has committed two or more 
crimes, and it penalizes attempts to reconstitute these 
religious organizations or cults as they're termed under 
another name.
    There has been a huge outcry from countless human rights 
groups since the introduction of this legislation last year, 
and I have joined in that outcry. That legislation last year 
passed the National Assembly, its lower house, and I'm told 
that the French Senate may vote on it as early as this 
Thursday, May 3.
    Again, our concern about this legislation has nothing to do 
with the legitimacy of any government, particularly France's 
Government, to go after criminality, such that we witnessed in 
the 1995 Solar Temple suicides, but our concern is how this 
could spill over into the human right of worshiping God.
    Unfortunately, this sentiment that we see in France is 
being manifest in other countries as well. It was interesting 
in our meetings with the French officials they indicated the 
difference of our tradition versus theirs. In France the 
government's duty has always been to protect their citizens 
against religion. That was how they described it. In our 
country, which was in part built by French Huguenots, the duty 
of our Constitution is to protect religions from government, 
and so we do come at this issue from a different perspective.
    But clearly France's status and standing among--and stature 
among the family of nations is one of enormous influence, and 
neighboring Belgium recently established a list of dangerous 
sects or churches and the list would shock Americans if they 
knew what churches were regarded as dangerous in Belgium. I 
want to first acknowledge that since this came out and 
criticism arose the Belgians have made some progress on this 
score and are treating a number of these churches better in 
their visa policies than was the case in the not to recent 
past.
    So I thank the Belgians for improvements they've made, but 
the list of these dangerous churches includes the Amish 
amazingly, the Seventh-Day Adventists, the Assemblies of God, 
the B'ahais, the Calvary Christian Center, the Church of Jesus 
Christ of Latter-Day Saints, aqnd the Pentecostals, the 
Jehovah's Witnesses. I can't imagine such a list existing in 
any Western country. Many of these faiths have been in this 
country for a century and more. They contribute dramatically to 
our society in America and they have existed peacefully in 
Belgium for centuries as well.
    This difficulty, targeting religions, extends to Austria 
and Germany, who've set up quasi-governmental bodies to deal 
with religious movements. In Austria there is a Federal office 
on sects, and in Germany a parliamentary commission was set up 
to investigate these sects. We look forward to hearing from our 
witnesses about this trend.
    I'd first like to welcome Mr. Michael Parmly, Acting 
Aassistant Secretary of State for Democracy, Human Rights, and 
Labor, and then after Mr. Parmly we'll hear from Elizabeth 
Clark. She is the associate director of the BYU International 
Center for Law and Religion Studies. Ms. Clark is an expert in 
the field of religious freedom and works with Professor Cole 
Durham, director of the same BYU center.
    Ms. Clark, we welcome you, and I understand that both you 
and Professor Durham have collaborated on your testimony.
    And on this panel also we'll have Rabbi Andrew Baker, 
director of International Jewish Affairs from the American 
Jewish Committee. Rabbi Baker, I thank you for coming and 
giving your perspective on religious freedom in Europe.
    So we'll start with our first panelist, Michael Parmly. 
Thank you for coming here and representing our Government in 
this important area.

STATEMENT OF MICHAEL PARMLY, ACTING ASSISTANT SECRETARY, BUREAU 
  OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Parmly. Thank you, Senator. Thank you very much, and 
let me start by thanking you and your committee, but especially 
you personally for your active involvement in this issue. You 
may want to ask questions about this. I don't address it in my 
testimony, but you have made an enormous difference in the 
situation on the ground in Europe by the concern that you have 
shown, and I can list out a number of instances where I've seen 
that effect.
    So thank you----
    Senator Smith. Thank you for that comment. I would also 
note--well, Senator Biden isn't here because he's been detained 
by other Senate duties. He has also been an absolute stalwart 
in support of my efforts and in support of his efforts on 
this--what I regard as the first human right, and that's the 
right of conscience.
    And so I note his absence but thank him for his support and 
offer that apology that he's not here, but he has other things 
that hold him away from us today.
    Mr. Parmly. I understand.
    If I could start with some of my prepared remarks--I won't 
go through the full statement but I'd like to highlight some 
points in it.
    It is my privilege to appear before you today to testify on 
this issue. I was just in a meeting with the Secretary, by the 
way, with the International Religious Freedom Commission, which 
presented its annual report to him, and we talked about the 
issue of religious freedom in Europe, and the Secretary 
expressed his concern as well.
    It's important to note that it is not our differences with 
European democracies regarding religious freedom that we wish 
to highlight, but rather to bring the discussion to what we 
share: a demonstrated commitment to protecting the dignity of 
all human beings. Our respective historical and cultural 
backgrounds have produced however, as you highlighted, Senator, 
different path ways to the goal of freedom of conscience and 
religion.
    We must keep these differences in mind as we review the 
status of religious freedom in Western Europe and as we engage 
with the Europeans as you have done so effectively, Senator.
    I do want to be clear, and I who have spent much of my 
career in Europe, it must be said religious minorities are 
treated better in Western Europe than in most other regions of 
the world. In relative terms the citizens of Western Europe 
enjoy a measure of freedom that is the envy of aspiring 
democracies around the globe. Persecution on the basis of 
religion in the form of brutal activities by governments, 
things such as prolonged detention without charge, torture, 
slavery simply do not exist there as tragically they do 
elsewhere in the world.
    Our differences can be seen at both the institutional and 
societal levels. Pluralism within our culture and diversity 
within religions has marked American society since its origin. 
The search for religious liberty compelled the very first 
migrant groups to America from Europe, whose religious history 
was often dominated by the monopoly of one faith in each 
national context. Less mobile societies with a far more 
homogeneous tradition and culture have influenced the evolution 
of attitudes of European countries toward religion.
    There are distinctly different attitudes among European 
countries toward religion, some almost non-practicing, others 
deeply religious, others you've got both traditions, and I 
think it's important to highlight that in France you have both 
traditions.
    In most European countries, however, neither religious 
expression nor minority religions have played the same positive 
role and there's not a recognition of the positive role in 
civil society that we recognize in our country. The relative 
recent increase of minority religions in Europe and their 
emergence into the public arena has been viewed as a source of 
disruption and a cause for alarm.
    All too often the initial reaction of public officials, 
which is generally supported by most European populations, is 
that minority religions need to be regulated and controlled 
rather than welcomed and encouraged. It is the difference of 
perspective that you highlighted, Senator.
    The recognition of religious communities by the state as 
demonstrated in for example Belgium, Germany, Spain, and Italy 
means that the state determines what is officially a religion. 
If the criteria set by the state are met a legal recognition of 
the new religion is granted and its relationship with society 
at large is regulated. This regulation may evidence itself in 
such areas as prayer permits, tax benefits, right to perform 
marriages, and chaplains in the military.
    We are concerned, we in the State Department--but I think 
we in America--are concerned that in some European countries 
the regulatory tradition is being expanded and is increasingly 
subject to abuse. Whether the Western European countries have 
state religions as in Denmark or the United Kingdom, or 
alternatively have a so-called strict separation of church and 
state as in France and the Netherlands--and perhaps in the 
questioning we can talk about why I say so-called--the same 
basic approach is taken.
    It appears to reflect a belief that religious expression 
should either be compatible with commonly accepted social 
traditions or remain totally in the private sphere of the 
believer. As Europe's population becomes more culturally and 
religiously diverse this so-called privatization of belief is 
coming under challenge, not only from new religions but from 
traditional religions as well.
    Senator, you did pay special attention to France and as you 
may know from my background I was the Political Minister 
Counselor at our embassy in France 3 years up until last year 
so I might be able to address that in even more detail perhaps 
than you would actually want. But I do want to call your 
attention to pending legislation in France that you're aware of 
that we believe has the potential to adversely affect religious 
freedom.
    The About-Picard bill provides for the dissolution of 
associations, including religious associations, whose leaders 
have two or more convictions on any of a variety of offenses. 
Among applicable offenses elaborated under the current French 
law are two or more convictions for fraudulent abuse as the 
result of a state of ignorance or of a situation of weakness, 
for example, abuse of a minor. Although the proposed bill does 
not apply exclusively to religious groups it is clearly 
intended to target the new and less familiar religions in 
France.
    We are concerned that the language in this context is 
dangerously ambiguous and could be used against legitimate 
religious endeavors such as religious schools, seminaries, 
monasteries, or retreats.
    It's important to note here that many in France have spoken 
out about the About-Picard bill, including leaders of 
recognized religions who have had a significant impact I think 
on the legislation, as well as a number of senior French 
political leaders. We understand that the bill will be 
considered, as you indicated, on May 3 by the French Senate, 
and that there is still an opportunity for substantial 
alterations. I don't want to overplay that, but there is a 
chance.
    We will be watching very closely. I was on the phone with 
the embassy this morning. Even though it's May 1 and therefore 
a holiday I had colleagues in the embassy and they're working 
on this issue as we speak.
    We understand that the Council of Europe issued a 
declaration on April 26 calling on the French Senate to delay 
its May 3 vote, and citing its concern that the legislation 
could be discriminatory and violate human rights standards.
    Unfortunately, Mr. Chairman, the example in France is not 
an isolated one. We're equally concerned about the other 
phenomena that you mentioned regarding religious sects in 
Austria and Belgium as well as in France, and perhaps more 
importantly, because Europe does have this attraction quality, 
the fact that countries that are applying to join the European 
Union are considering similar legislation. Europe does have a 
special responsibility, especially as it is moving to expand, 
and that is a special responsibility that I hope they are fully 
conscious of.
    In some cases European officials are actively promoting the 
``French model'' of regulating religious activity. Typically 
these policies involve the creation of a government agency as 
you indicated to protect citizens against dangerous cults. 
Under the proposed French legislation as it currently stands 
definitions of dangerous--of quote ``dangerous'' extend to 
ambiguous categories such as mental subjection.
    I've had a hard time coming up with a legal definition of 
what mental subjection is, but I don't think I like the 
implications. Few if any religions could withstand prosecution 
under such a charge. The French Interministerial Commission to 
Combat Sects investigates suspected cults after receiving 
public complaints, and there are a few dangerous organizations, 
as you indicated, such as the Solar Temple that have been 
identified, but other mainstream religious groups such as 
Jehovah's Witnesses have learned that they too are included on 
the list, a list of some 168 organizations.
    At the direction of the Belgian Parliament, the Belgian 
Government has established a Center for Information and Advice 
on Harmful Sectarian Organizations in October of last year. The 
center collects and disseminates information on so-called 
harmful sectarian groups, including some mainstream religious 
groups and lay organizations--and you cited a number of them. 
It really does curl the hair.
    It also devises evaluative criteria for the groups in order 
to assess the risk for activities such as brainwashing, 
financial exploitation, and isolation from the family. A 
separate coordination cell in which various law enforcement 
agencies are represented has been established.
    I don't want to go on too long. I think I'd rather let my 
statement speak for itself. There are other details in there. 
You might ask legitimately what are we doing about it? We are 
concerned that such policies are becoming institutionalized in 
some parts of Europe and have the effect of appearing to 
justify restrictive laws elsewhere, such as Russia, Central 
Asia, and China.
    You're doubtless aware that in late September the House 
passed unanimously Resolution 588, which expresses grave 
concern about these developments and calls upon the President 
and the Ambassador-at-Large for International Religious Freedom 
to press the issue with the OSCE countries. In response the 
head of the U.S. delegation to the OSCE implementation review 
meeting in Warsaw in October of last year detailed U.S. 
concerns regarding religious freedom in Austria, France, 
Belgium, and called upon those governments to close their sect 
offices.
    In addition, the Director of the State Department's Office 
of International Religious Freedom, Tom Farr, who is 
accompanying me here, and who is as valiant a spokesman on this 
issue as I think the U.S. Government could ever have, has 
traveled to Europe to express U.S. concerns directly to the 
government's concerned. But I think really, Senator, nothing 
can replace the effect that your trip to Europe had earlier 
this year. The effect I think was profound.
    That doesn't mean that on May 3 in the Senate it will come 
out exactly as we want, but I think we've already started to 
see an effect, and I'm extremely grateful to you for it.
    We have concerns regarding more targeted discrimination in 
Germany toward the Church of Scientology, the use of sect 
filters. I will say the German courts have made recent rulings 
critical of this practice. That is important, and it also 
underlines the importance of us taking the right approach in 
order to get the right result. My bureau has a motto, what's 
the effect on the ground? That's what matters to us the most, 
because those are the people who are suffering religious 
persecution.
    Let me say in summary we believe that a government that 
fails to honor religious freedom--and this echos your words, 
Senator--and freedom of conscience is a government in danger of 
not fully recognizing the priority of the individual over the 
state but rather that the state exists to serve society and not 
vice versa. Let me close as I began.
    The United States and the countries of Western Europe share 
a strong commitment to universal human rights, including 
religious liberty. We work together very closely in a number of 
spheres, including in the human rights sphere, and I'd like to 
draw on that tradition of working together.
    We have a relationship of cooperation in many areas, 
including defense and trade. When we have disagreements we have 
developed over recent decades a habit of cooperation which has 
stood us in good stead and enabled us to overcome our 
differences.
    Last week I participated in a symposium that Tom Farr 
organized as well as others, very outspoken and courageous 
people in the private sector, sponsored in part by the 
Institute of Religion and Public Policy. The purpose of the 
symposium was to place on the table our differences with 
respect to religious freedom and to begin a transatlantic 
dialog that can lead to better understanding and in due course 
create the same habit of cooperation that we have in other 
fields.
    I hope that my testimony today will serve the same purpose. 
At the end of the day it's not our differences with the Europe 
democracies but our deep respect for them and their traditions 
that leads us to express our concerns.
    In closing, thank you again, Mr. Chairman, for your active 
involvement on this issue. We couldn't do it without you.
    [The prepared statement of Mr. Parmly follows:]

                PREPARED STATEMENT OF MICHAEL E. PARMLY

        the treatment of religious minorities in western europe
    Chairman Smith and Members of the European Affairs Subcommittee, it 
is my privilege to appear before you today to testify on the status of 
religious freedom and the treatment of religious minorities in Western 
Europe. Let me first express our deep appreciation for your strong 
interest and contributions to our goal of promoting religious freedom.
    It is important to note that it is not our differences with 
European democracies regarding religious freedom that we wish to 
highlight in this report but what we share: a demonstrated commitment 
to protecting the dignity of all human beings. However, it is true that 
our respective historical and cultural backgrounds have produced 
different pathways to the goal of freedom of conscience and religion. 
We must keep these differences in mind as we review the status of 
religious freedom in Western Europe.
    Let me be clear: it must be said that religious minorities are 
treated better in Western Europe than in most other regions of the 
world. In relative terms, the citizens of Western Europe enjoy a 
measure of freedom that is the envy of aspiring democracies around the 
globe. Persecution on the basis of religion, in the form of brutal 
activities by governments--such as prolonged detentions without charge, 
torture, and slavery--simply do not exist there as they tragically do 
elsewhere in the world.
    Rather, our differences can be seen at both the institutional and 
societal levels. Pluralism within our culture and diversity within 
religions has marked American society since its origin. The search for 
religious liberty compelled the very first migrant groups to America 
from a Europe whose religious history was often dominated by the 
monopoly of one faith in each national context.
    The United States is now a land of old and new religions, each 
providing a means of seeking ultimate truth about human purpose and 
destiny, developing systems of worship and codes of morality. As such 
American religions have become widely accepted vehicles for 
establishing personal identity and for mobilizing people through 
associations. The United States is arguably the most religiously 
practicing country of the Western World: 90% of the population pray 
daily or weekly, 70% are members of a congregation, 40% attend a 
services on a weekly basis. Religious expression is part of the 
landscape of American liberty, enriching the discourse over public 
policy.\1\
---------------------------------------------------------------------------
    \1\ Warner (R. Stephen), ``Work in Progress Toward a New Paradigm 
for the Sociological Study of Religion in the United States,'' American 
Journal of Sociology Volume 98, Issue 5, March 1993, pp 1044-1093, p 
1076.
---------------------------------------------------------------------------
    Less mobile societies, with far more homogeneous traditions and 
cultures, have influenced the evolution of the attitudes of European 
countries toward religion. There are distinctly different attitudes 
among European countries to religion: some almost non-practicing, 
others deeply religious, while others are deeply divided. In most 
European countries of modern times, neither religious expression nor 
minority religions have played the same positive role in civil society 
as they have in the United States. The relatively recent increase of 
minority religions in Europe and their emergence into the public arena 
has been viewed as a source of disruption and a cause for alarm. All 
too often, the initial reaction of public officials, which is generally 
supported by most European populations, is that minority religions need 
to be regulated and controlled rather than welcomed and encouraged.
    The recognition of religious communities by the state as 
demonstrated in, for example, Belgium, Germany, Spain and Italy means 
that the State determines what is officially a religion. If the 
criteria set by the State are met, legal recognition of the new 
religion is granted and its relationship with society at large is 
regulated. This regulation may evidence itself in such areas as prayer 
permits, tax benefits, right to perform marriages, and Chaplains in the 
military.
    As I will argue shortly, we are concerned that in some European 
countries the regulatory tradition is being expanded, and is 
increasingly subject to abuse. Whether the Western European countries 
have ``state religions'' as in Denmark and the United Kingdom or 
alternatively have a strict separation of church and state as in France 
and the Netherlands, this same basic approach is taken. It appears to 
reflect a belief that religious expression should either be compatible 
with commonly accepted social traditions or remain in the private 
sphere of the believer. As Europe's population becomes more culturally 
and religiously diverse, this ``privatization'' of belief is coming 
under challenge--not only from the new religions, but from traditional 
religions as well.
    With this background in mind, I want to call your attention to 
pending legislation in France that we believe has the potential to 
adversely affect religious freedom. The About-Picard bill provides for 
the dissolution of associations (including religious associations) 
whose leaders have two or more convictions on any of a variety of 
offenses. Some applicable offences are already elaborated under current 
French law, including fraudulent abuse as a result of a state of 
ignorance or of a situation of weakness--for example abuse of a minor. 
Although the proposed bill does not apply exclusively to religious 
groups, it is clearly intended to target the new and less familiar 
religions in France. We are concerned that the language in this context 
is dangerously ambiguous and could be used against legitimate religious 
endeavors, such as religious schools, seminaries, monasteries or 
retreats.
    It is important to note here that many in France have spoken out 
against the About-Picard bill, including leaders of the recognized 
religions, as well as a number of senior French political leaders. We 
understand that the bill will be considered on May 3, by the French 
Senate, and that there is still an opportunity for substantial 
alterations. We will be watching closely. We understand that the 
Council of Europe issued a declaration on April 26 calling on the 
French Senate to delay its May 3 vote and citing its concern that the 
legislation could be discriminatory and violate human rights standards.
    Unfortunately, Mr. Chairman, this French legislation is not an 
isolated phenomenon. We are equally concerned about policies regarding 
religious ``sects'' in Austria and Belgium as well as France. Poland, 
the Czech Republic, Romania and Hungary are considering similar 
legislation. In some cases, French officials are actively promoting the 
``French model'' of regulating religious activity.
    Typically, these policies involve the creation of a government 
agency to protect citizens against dangerous cults. Definitions of 
``dangerous'' extend to ambiguous categories such as mental subjection 
under the proposed French legislation. Few, if any, religions could 
withstand prosecution under such a charge. The French Interministerial 
Commission to Battle Sects investigates suspected cults after receiving 
public complaints. While a few dangerous organizations (such as the 
Solar Temple) have been identified, other main stream religious groups 
such as the Jehovah's Witnesses have learned that they, too, are 
included on the list.
    At the direction of the Belgian Parliament, the Belgian government 
established a ``Center for Information and Advice on Harmful Sectarian 
Organizations'' in October 2000. The Center collects and disseminates 
information on so-called ``harmful'' sectarian groups, including some 
mainstream religious groups and lay organizations. It also devises 
evaluative criteria for the groups in order to assess the risk for 
activities such as brainwashing, financial exploitation, and isolation 
from family. A separate ``Coordination Cell,'' in which various law 
enforcement agencies are represented, has been established.
    We understand that a representative of the Information Center will 
normally attend Coordination Cell meetings, but will not necessarily 
share information with law enforcement officials if that would violate 
the Center's independence or the privacy of its informants. The Center 
uses as its starting point a list of 189 ``sects'' that came out of a 
1997 Parliamentary inquiry into the harmful effects of organizations 
such as the ``Solar Temple.'' Solar Temple has been involved in the 
deaths of 74 people (including one leader who was Belgian and a number 
of other Belgian citizens) in Europe and Canada since 1994. The list 
also includes the Southern Baptists, Mormons, Seventh Day Adventists, 
the Catholic prelature of Opus Dei, and the Young Women's Christian 
Association (YWCA).
    The very existence of a government-mandated agency to provide 
information on ``harmful'' organizations strongly suggests an official 
judgment that the groups on which it maintains data are in fact 
``harmful.'' The Center will also maintain background information on 
the six officially recognized religions. The operation of such agencies 
in France and Austria has produced reports of societal discrimination 
against members of groups on the list.
    We are concerned that such policies are becoming institutionalized 
in some parts of Europe and may have the effect of appearing to justify 
restrictive laws elsewhere, such as Russia, Central Asia and even 
China. You are doubtless aware that in late September the House passed 
unanimously Resolution 588 which expresses ``grave concern'' about 
these developments and called upon the President and the Ambassador-at-
Large for International Religious Freedom to press the issue with 
Organization for Security and Cooperation in Europe (OSCE) countries.
    In response, the head of the U.S. delegation to the OSCE Human 
Dimension Implementation Review Meeting in Warsaw, in October 2000, 
detailed U.S. concerns regarding religious freedom in Austria, France, 
Belgium and called upon those governments to close their ``Sect 
Offices.'' In addition, the Director of the State Department's Office 
of International Religious Freedom has traveled to Europe to express 
U.S. concerns directly to the Governments concerned. Senators Smith and 
Hatch also conducted a fact-finding trip to France in January, and 
raised their concerns about religious minorities with the French 
government.
    We have additional concerns regarding a more targeted 
discrimination in Germany toward the Church of Scientology. In Germany 
``sect filters'' are still widely used in employment applications, 
although German courts have made recent rulings critical of this 
practice. Many German citizens who are Scientologists have been denied 
employment and lost their positions when their association with the 
Church of Scientology was made public. This discrimination against 
Scientologists by the German government is not limited to its citizens 
but has spread to the international community.
    This was graphically evidenced by Germany's investigation of 
Microsoft Windows 2000 solely on the basis that one component of the 
software was developed by Mr. Craig Jensen, who is a member of the 
Church of Scientology in Glendale, California. Fortunately, the more 
egregious aspects of the German government's sect filter for government 
procurement have been removed because of our persistent efforts to 
underscore the potential conflict of this sect filter with 
international trade agreements.
    Mr. Chairman, we believe that a government that fails to honor 
religious freedom and freedom of conscience is a government in danger 
of not fully recognizing the priority of the individual over the state, 
and that the state exists to serve society not vice versa. However let 
me close as I began. The United States and the countries of Western 
Europe share a strong commitment to universal human rights, including 
religious liberty. We have a relationship of cooperation in many areas, 
including defense and trade. While we have disagreements, we have 
developed over recent decades a habit of cooperation, which has stood 
us in good stead, and has enabled us to overcome our differences.
    Last week I participated in a symposium of European and American 
experts on religion sponsored by the Institute on Religion and Public 
Policy, and supported by the Department of State's Office of 
International Religious Freedom. The purpose of that symposium was to 
``place on the table'' our differences with respect to religious 
freedom, and to begin a Transatlantic dialogue that can lead to better 
understanding and, in due course, the same ``habit of cooperation'' 
that has characterized our association in other areas. I hope that my 
testimony today will serve the same purpose. At the end of the day it 
is not differences with European democracies, but our deep respect for 
them and their traditions, that leads us to express our concerns.
    In closing, thank you again, Mr. Chairman, for your commitment to 
the cause of religious freedom. I would be happy to take your 
questions.

    Senator Smith. Well, thank you, Michael. It's my pleasure 
and my duty I think as a U.S. Senator, to ensure as we pursue 
our national interests, that we not forget our national values. 
I am reminded in history that part of what was so objectionable 
to the European monarchies in 1776 was--or actually when we 
established the constitution a few years later was the 
separation of church and state, and that there was no state 
religion. I think all of Europe took note of that and was 
alarmed by that revolutionary sentiment.
    But the larger issue for me, if I can call you Michael, is 
Europe and America I think will always be bound in one way or 
another, but we seem to be pulling out the stitching on so many 
issues on so many fronts, on trade. We're just loaded with 
conflicts right now. On military matters these two continents 
seem to be drifting apart, and Europe wants to go a different 
way with its own army.
    And then if we get to the issue of what values to underpin 
organizations like the NATO Alliance, if we no longer share, 
those values then we start really undoing the fabric of what 
creates this transatlantic alliance which has done so much good 
to foster peace and human rights and democracy in the world.
    When Senator Hatch and I traveled to France we had been 
told they would not discuss this issue with us. We found the 
opposite when we got there. They were very forthcoming and 
frankly in private--and his name will not be on the record, but 
one told me that he believed that the law on the books was in 
fact a violation--could be a violation of the Helsinki 
Agreement on Human Rights, and that ultimately should it pass 
the French process it would be ruled out of bounds.
    Do you think that's possible? Do you see it as inconsistent 
with the Helsinki Accord on Human Rights?
    Mr. Parmly. The law when it goes on the books, if it goes 
on the books as it currently stands, gets awfully close to what 
I see as violation certainly of the spirit of the Helsinki 
Final Act if not the letter of the Helsinki Final Act, and I 
think here we do draw upon civil society in France. I think the 
reaction in a number of these European countries has been 
sharing that concern. It's the government getting into really 
the private beliefs of people.
    And that may be a reaction to a mass suicide on the side of 
a mountain, but don't throw the baby out with the bath water, 
and there is that sentiment which has started to come to the 
fore.
    I don't know how the vote in the Senate is going to turn 
out. It didn't look good when I was there. I've been back for a 
year, but it didn't look good when I was there. I've been 
intrigued to see that it has lasted as long as it has, and I 
think that is a reflection of the disquiet within France, 
within French society. I'd like to believe it's the result of 
that, but it could still go through.
    Would that be in violation of the Helsinki Final Act? I'm 
not sure. It certainly in our view would be in violation of the 
spirit of the Helsinki Final Act.
    Senator Smith. Different French officials also expressed a 
concern and observation that France was becoming so secular, so 
atheistic that it was increasingly becoming hostile to 
religion. When you were there did you find that was the case, 
and is this borne out of--this law, is it borne out of that 
kind of hostility?
    Mr. Parmly. No. I think if I could opine, Senator, I think 
the origin of the law was horror over scenes of mass suicides 
on the sides of mountains in Switzerland, in Belgium. I think 
that's the origin.
    There are the different traditions in France just like 
there are different traditions in the United States. There is 
very much a lay tradition which says government should have 
absolutely nothing to do with religion whatsoever. That's one 
of the strings that is actually trying to pull back a bit on 
some of this legislation.
    I think some of the reaction of people may be a reaction to 
personal experiences that they had, either a child or a 
relative who got into one of these groups that they find 
dangerous, and so they go broad brush. And the tradition of 
response to a problem in Europe is to regulate it.
    Senator Smith. Isn't it possible that these legitimate 
concerns that these countries have for what our--and I think 
you and all here would agree are not religious things but 
actually criminal things.
    Mr. Parmly. Right.
    Senator Smith. Aren't there criminal laws to deal with 
suicide cults that don't impinge upon the right of conscience 
to believe as one will?
    Mr. Parmly. One of the points that I made when I was in 
France--and I would raise this repeatedly with interlocutors 
within the government, Prime Minister's office, the Foreign 
Ministry, in Parliament, with the organized religions--is that 
you've got all the laws you need if that's your concern, the 
mass suicide. Why do you need additional laws? That was a point 
that I made, and it's a point that our embassy continues to 
make to the French authorities. Why do you need an additional 
law?
    Senator Smith. In Germany, if you can talk to me about 
Scientology for example, in what way could Germany's 
surveillance of Scientologists have a broader impact on 
religious liberty in Germany? Is there sensitivity to that, how 
this could spread?
    Mr. Parmly. Spread to other groups within Germany, in other 
words, that it----
    Senator Smith. For example--well, what does it say about 
religious liberty in Germany if they're putting this church or 
tradition under surveillance like that?
    Mr. Parmly. Thereto, it's hard to say what's behind people 
who introduce legislation or measures--administrative measures 
in Germany. I think a lot of it is a fear of--there's a lot of 
finger pointing. They're accusing us of being Nazis so we're 
accusing them of being Nazis, and terms like this get thrown 
around perhaps more freely than they should be.
    Senator, to answer your question I'd like to think that 
there is not a danger that it could spread, but I'd rather not 
take that chance, which is why if the administrative measures 
that one sees in Germany stay in place and are not rolled back 
as we are seeing them being rolled back by German courts and 
the Laender, that could then take hold the next time there is a 
religious group that people feel uncomfortable about. It's 
precisely because of that demonstration effect.
    And then beyond that--and this is a deep concern, because 
I've spent a good part of my career in Eastern Europe in some 
of the countries that are applying to join, that's a 
demonstration value that--they want to get into Europe, and 
well, we'll just model our laws entirely on the laws in 
European countries and then we'll show our bona fides. And 
that's why the Europeans--Western Europeans, the EU members, 
have a special responsibility toward those countries that are 
applying.
    Senator Smith. And frankly why it's so dangerous for 
countries of the stature of France who are symbolically and 
actually the standards of fraternity and liberty and----
    Mr. Parmly. Equality.
    Senator Smith [continuing]. Equality. That's why frankly 
that's so alarming.
    But let's talk about remedies, what we can do about it. 
Obviously we're talking to each other now and trying to put a 
spotlight on an area of concern. Not alarm, but concern.
    In trade we have institutions to work out these 
differences. In military matters we work them out in the Pact 
of the North Atlantic Treaty Organization, and we come to 
resolution with our European friends.
    What do we do in--if you have American citizens with 
missionary or religious responsibilities assignment to a 
European country where they're prohibited from entering even to 
pursue their free exercise of religion? What recourse should 
the United States take toward those countries who would deny 
our citizens the right of free exercise of religion in their 
countries? What do we do about it?
    Mr. Parmly. At the risk of sounding like a career State 
Department officer, sir, we start by keeping doing what we're 
doing. I think--I'm not being sycophantic--I really think 
you've had an impact. I think we have had an impact. I think we 
have raised the level of consciousness in European governments 
to the dangers.
    Now then, we need to follow through, maintain that course, 
maintain the level--the decibel level. I would argue strongly 
from experience that to raise the decibel level too high 
produces the opposite effect of that which we desire. Show that 
we are concerned because we are allies. Show that we are 
concerned because we are friends. Yes, we're always going to 
have trade disputes, and that's almost a sign of health.
    Hopefully we won't get into splits on military issues. I 
spent a number of years working on that as well at our mission 
to the European Union. Highlight for them the dangers at all 
levels through NGO's, through our legislative branch. I'd like 
to see this happen--it's one of the things that we tried to set 
up when we were there. It's hard to do it--more dialog between 
and among legislators because ultimately they're the ones who 
pass the laws.
    We do raise it. I know Secretary Albright raised it when 
she went to Paris, and I was present in those conversations. I 
know that Secretary Powell has raised it since he has been in 
office, and that's important. Stay on the current course.
    If the legislation goes through, if they actually start--am 
I interrupting something?
    Senator Smith. Between this panel and the next I'm going to 
have to go vote----
    Mr. Parmly. OK.
    Senator Smith [continuing]. So we'll finish up and then 
we'll impanel the next group and I'll be right back.
    Mr. Parmly. If they go through with actual implementation 
of some of this legislation--there were things on the books in 
some of the countries where we've seen hesitation in actually 
applying them. I think if we should keep up the decibel level--
don't raise it, don't lower it--we continue to address our 
concern. When Congressman Gilman--when he was chairman of the 
House International Relations Committee and he came to Paris he 
raised these issues and you kept up the contact.
    Senator Smith. Yes.
    Mr. Parmly. And that's what you have to keep doing. And if 
they pass bad legislation you tell them, we think it's bad 
legislation--and we have and we will--but then you stay 
engaged.
    All too often there's the reaction on the other side of, 
well, we're just going to break off and we're not going to talk 
to you about this. No. We're Americans. We care about these 
issues.
    We especially care about these issues with friends. We're 
talking to you as a friend and hope that in the implementation 
that will have an effect.
    Senator Smith. I will admit to having intentionally been 
the provocateur at Secretary Powell's confirmation testimony 
when I raised this whole issue with him and posed a 
hypothetical of reciprocity. If visas are denied to American 
citizens to European countries, the practice of a first 
amendment right, then we would deny visas to their citizens who 
wish to come here to exercise any first amendment right of 
press or association or the like.
    I'm not seriously proposing that. I want to make that 
clear, that if more of my colleagues even knew about these 
lists of dangerous churches, most of which are American faiths 
of long standing, there would be a lot of outrage. Most of them 
aren't--it's not on their radar screen. There would be pressure 
for some sort of sanction, and so I think your counsel to stay 
at the table and talking in a friendly tone is wise and frankly 
fruitful in my experience.
    But I don't want to suggest that this could not be a 
regrettable lever to create differences between Europe and the 
United States, and it shouldn't be, but it could be.
    Mr. Parmly. There's some very good European investors here 
in Washington, and that would be a place to start. You wouldn't 
have to get on an airplane and you wouldn't have to rely on a 
good phone line. Delivering that message to senior diplomatic 
representatives here is one way to convey.
    Senator Smith. Michael, you've been very helpful and your 
testimony has been very appreciated. We'll admit all of it into 
the record and be thankful you brought it to us.
    I will go and vote and come right back. I should not be 
more than 10 minutes, but we will stand in recess until then.
    [Whereupon, a short recess was taken.]
    Senator Smith. Ladies and gentlemen, we'll reconvene this 
hearing and we will invite our next panel, Ms. Clark and Rabbi 
Baker, to come forward.
    Elizabeth A. Clark, as mentioned before, is the associate 
director of the BYU International Center for Law and Religion 
Studies. She will be followed by Rabbi Andrew Baker, director 
of International Jewish Affairs of the American Jewish 
Committee.
    Elizabeth, we'll start with you, and thank you for coming 
this many miles to share this testimony with us.

   STATEMENT OF ELIZABETH A. CLARK, ASSOCIATE DIRECTOR, BYU 
  INTERNATIONAL CENTER FOR LAW AND RELIGION STUDIES, BRIGHAM 
                  YOUNG UNIVERSITY, PROVO, UT

    Ms. Clark. Well, thank you. It's a pleasure to be here.
    Senator Smith. You can pull that mike closer to you.
    Ms. Clark. Does that help?
    Senator Smith. Perfect.
    Ms. Clark. Great.
    Chairman Smith, distinguished guests, it's an honor to be 
here today, and I wanted to pass on the regrets of Professor 
Durham, who is not able to be here because of the change in 
scheduling of the hearing.
    We would like to express our appreciation to address this 
extremely important topic and our gratitude for the work that 
you've done and the work that the State Department does in 
promoting religious liberty particularly in Western Europe. And 
at the outset we'd also like to emphasize, as Mr. Parmly did, 
that our testimony is being submitted in the spirit of 
contributing to constructive dialog with our European allies 
about how our shared Euro-American ideals of religious freedom 
could be better implemented on both sides of the Atlantic.
    I will only touch on some of the issues in the written 
testimony which I would like to submit for the record.
    Senator Smith. We'll receive that without objection.
    Ms. Clark. Thank you.
    We believe it's vital to speak candidly concerning certain 
recurring problems in Europe. These problems are important to 
address not because they're the most serious problems in the 
world but because in light of the strong traditions of 
religious freedom in the region the European problems are the 
ones that are most likely to be resolved.
    And this is important not only to alleviate the suffering 
of the--real suffering of the members of smaller religious 
groups in Western Europe, but because what happens in Western 
Europe will have ripple effects elsewhere.
    There's growing evidence that anti-cult attitudes in 
Western Europe are being actively spread to China and other 
countries of the former socialist bloc. Lawmakers and 
administrators there use Western Europe anti-cult initiatives 
as a justification for even harsher measures that have adverse 
effects on a wide range of small and legitimate religious 
groups. For example, there's been recent press reports in the 
past weeks that the Chinese are watching very carefully what's 
happening in France with this legislation and discussion, and 
have possible intentions of following suit with similar 
legislation.
    These hearings are significant not only for the possible 
impact they can have on Western Europe, but for the wider 
impact they can have in other countries that look to the West 
for models of how to implement religious freedom norms.
    So with those considerations in mind we'd like to focus 
particular attention on two matters of great concern that 
you've already touched on today. These have been a matter of 
great concern to believers affected, human rights groups, 
religious organizations of all sizes and statures, both in 
Europe and the United States.
    The first one, as you, Mr. Parmly mentioned, is the pending 
legislation in the French Senate. There are two primary 
elements of this legislation. They're both extremely 
problematic. First is the crime of so-called mental 
manipulation; mind control.
    The proposal of this crime in the National Assembly last 
summer evoked substantial negative reaction resulting in delay 
of the passage of the legislation, but the changes that have 
been made are purely cosmetic. The title's been changed, but 
the problematic vague language has been retained virtually 
verbatim. The crime carries substantial fines and penalties and 
is vague enough to be applied to as you mentioned, Sunday 
School teachers, people posing any belief of religious doctrine 
that might be found by a third party to be harmfully.
    One violation of this is punishable with up to 3 years 
imprisonment, a fine of nearly $400,000, and repeat offenses 
can lead to even stiffer sanctions.
    The other primary element of this French law is that it 
allows dissolution of religious organizations that have the 
goal of creating or maintaining a state of physical or 
psychological subjugation. That's the language of the draft 
law, which as Mr. Parmly mentioned, no one knows quite 
precisely how to define. Because it's so vague and because the 
predicate offenses can be so minor this provision gives 
authorities vast discretion to persecute unpopular religious 
groups and to violate the religious freedom rights of 
organizational members not guilty of any wrongdoing whatsoever.
    A second matter of concern in Europe is the disturbing 
trend to draw up official government lists of so-called cults 
and to establish governmental bias with the exclusive purpose 
of investigating newer and smaller religious organizations 
called sect observation centers commoly. Unreviewable sect 
lists have been created. France listed 172 so-called sects. 
Belgium has listed 189, including the Southern Baptists, Opus 
Dei, Seventh Day Adventist, as you mentioned, many others, many 
that have a long tradition both in Europe and in the United 
States.
    These lists have had the effect of legitimating and 
encouraging discriminatory behavior both by the governments of 
these countries and by private individuals. This has 
substantial impact on individuals in those countries: loss of 
child custody, loss of employment, forbid them to participate 
in political parties, or in some cases even to be civil 
servants because of their religious beliefs.
    There's not time here to expand on the range of problems 
these two major developments represent, but I'd like to 
conclude my brief remarks by listing a set of concrete 
recommendations concerning helpful steps that Congress might be 
able to take. The list is also at the conclusion of our written 
testimony in more detail. Let me just highlight a few of them.
    First as has been mentioned by Mr. Parmly as well, the need 
to promote dialog--Congress should encourage the administration 
to facilitate dialog not only with governments but also to 
promote cooperation among non-governmental organizations to 
reach the public misconceptions that often underlie some of 
this problematic legislation. Dialog can also be encouraged 
through existing multilateral organizations. Congress can 
provide financial and moral support such as Helsinki Commission 
of Congress or the OSCE's Advisory Panel of Experts on Freedom 
of Religion and Belief.
    Congress could also work to appropriate funds and give 
moral support for channels through the State Department, the 
Ambassador-at-Large's office to promote dialog and bring 
leaders and representatives of European countries here to 
discuss these issues.
    Second main point would be to use existing resources more 
thoroughly, to request the State Department to gather 
additional information, to watch these sect observatories 
closely to see what effect they're having, as Mr. Parmly said, 
on the ground.
    Congress could also request the U.S. Commission for 
International Religious Freedom to study events in Western 
Europe. Clearly they're starting to focus on that and they do 
have a mandate to consider and recommend options for Congress 
with respect to each country, the government of which is 
engaged in or tolerated violations of religious freedom. 
Certainly that includes some of our Western allies, much as we 
respect them.
    And finally, I'd recommend that Congress make sure the 
administration is aware of your concerns and of the concerns of 
the American public. To highlight this, during the confirmation 
hearings for the newly nominated Ambassador to France, Mr. 
Howard Leach, during the hearings of the new Assistant 
Secretary of State for European Affairs. This will be an 
important way to express and underline the concern that we have 
and to make sure that effective steps are being taken.
    Finally we would just like to sum up and say that firm but 
sensitive congressional action can contribute to the building 
of better relations in this area and the ability to ameliorate 
the very real plight of individual suffering from violations of 
religious freedom in Western Europe. Such actions are most 
likely to be effective if they open up opportunities for 
constructive dialog on how shared European American ideas of 
religious freedom can be better implemented on both sides of 
the Atlantic.
    We are confident that long-term engagement and serious 
dialog on the implementation of religious freedom in Western 
Europe will help alleviate the current concerns. Thank you very 
much.
    [The prepared statement of Professor Durham and Ms. Clark 
follows:]

Prepared Statement of Prof. W. Cole Durham, Jr. and Elizabeth A. Clark 
                                   *
---------------------------------------------------------------------------

    * This statement is submitted by Professor Durham and Ms. Clark in 
their personal capacities, and is not made on behalf of any 
organizations or institutions with which they are affiliated.
---------------------------------------------------------------------------

                               BACKGROUND

    The countries of Western Europe have long been our strongest allies 
not only in matters of military security, but also in terms of a shared 
commitment to the heritage of democracy and human rights. These are not 
only countries with which we have much to share but from which we have 
much to learn. The countries of Western Europe have all ratified the 
International Covenant on Civil and Political Rights which provides key 
protections of freedom of religion and belief.\1\ They have also all 
ratified the European Convention for the Protection of Human Rights and 
Fundamental Freedoms \2\ and are all subject to the jurisdiction of the 
European Court of Human Rights in Strasbourg, which has developed an 
extensive and growing body of case law that is committed to the highest 
standards of freedom of religion.\3\ Particularly since the 
restructuring and streamlining of the Strasbourg Court since Protocol 
No. 11 went into effect on November 1, 1998,\4\ an increasing body of 
case law can be expected that will continue to provide strong 
protections in the field of freedom of religion or belief for the 
800,000,000 people subject to the jurisdiction of the Court. West 
European countries are all also members of the Organization for 
Security and Cooperation in Europe, and accordingly have accepted the 
various detailed commitments to ensure freedom of religion and belief 
in that multilateral context.\5\ Given the distinctive historical 
traditions of the various West European countries, it is not surprising 
that they have differing systems for dealing with the interactions of 
religion and the state,\6\ and while no country has a perfect record, 
all are committed to religious tolerance and respect for religious 
freedom.\7\
---------------------------------------------------------------------------
    \1\ International Covenant on Civil and Political Rights, G.A. Res. 
2200A, U.N. GAOR, 21st Sess., Supp. No. 16, at 52, 55, U.N. Doc. A/6316 
(1966), reprinted in 999 U.N.T.S. 171, 178 (1976) [hereinafter 
``ICCPR'']. The main provision of the ICCPR dealing with freedom of 
religion or belief is Article 18. But several other provisions also 
extend relevant protections. Notable among these are Article 2 
(obligating State Parties to protect the rights guaranteed by the ICCPR 
``without distinction of any kind, such as race, colour, sex, language, 
religion, political or other opinion, national or social origin, 
property, birth or other status); Article 3 (equal rights); Article 4 
(providing that no derogation is permissible from the right to freedom 
of religion or belief even in time of public emergency); Article 19 
(freedom of expression); Article 21 (peaceable assembly); Article 22 
(freedom of association); Article 24 (children's rights); Article 26 
(equal protection); and Article 27 (protections for ethnic, religious 
or linguistic minorities). The U.N. Human Rights Committee, the body 
charged with interpreting the ICCPR under the terms thereof, has 
promulgated its General Comment No. 22(48) concerning Article 18 (U.N. 
Doc. CCPR/C/21/Rev. 1/Add. 4, 27 September 1993, reprinted in U.N. Doc. 
HRI/GEN/I/Rev.1 at 35 (1994)) [hereinafter ``General Comment No. 
22(48)''], which provides an important and detailed interpretation of 
the meaning of Article 18.
    \2\ [European] Convention for the Protection of Human Rights and 
Fundamental Freedoms, Nov. 4, 1950, 213 U.N.T.S. 222 (entered into 
force Sept. 3, 1953) [hereinafter ``ECHR'']. The key provision 
addressing freedom of religion or belief is Article 9, but like the 
ICCPR, the ECHR contains many additional provisions that buttress and 
reinforce freedom of religion or belief.
    \3\ See, e.g., Kokkinakis v. Greece, 17 E.H.R.R. 397 (1994) (ECtHR, 
May 25, 1993) (proselyting); Hoffmann v. Austria, 17 E.H.R.R. (1994) 
(ECtHR, June 23, 1993) (depriving Jehovah's Witness of custody of child 
violated right to respect of family life); Manoussakis and Others v. 
Greece, 23 E.H.R.R. 387 (1997) (ECtHR, Sept. 26, 1996); Valsamis v. 
Greece, 24 E.H.R.R. 294 (1997) (ECtHR, Dec. 18, 1996) (coerced 
participation in parade contrary to pacifist beliefs); Tsirlis and 
Kouloumpas v. Greece, 25 E.H.R.R. 198 (1998) (ECtHR, May 29, 1997) 
(detention pending application for ministerial deferment from military 
held arbitrary); Canea Catholic Church v. Greece, 27 E.H.R.R. 521 
(1999) (ECtHR, Dec. 16, 1997) (legal personality of Roman Catholic 
church protected); Larissis and Others v. Greece, 27 E.H.R.R. 329 
(1999) (ECtHR, Feb. 24, 1998) (proselyting); Buscarmni and Others v. 
San Marino (ECtHR, Feb. 18, 1999) (non-believers not required to take 
religious oath); Serif v. Greece (ECtHR, Dec. 14, 1999) (state 
intervention in selection of Mufti violates religious freedom); 
Thlimmenos v. Greece (ECtHR. April 6, 2000) (conviction for violation 
of draft laws prompted by conscientious objection could not be used as 
ground to deny professional license); Jewish Liturgical Ass'n Cha-are 
Shalom Ve Tsedek v. France (ECtHR, June 27, 2000) (ultra Orthodo Jewish 
group denied special authorization for certifying food preparation); 
Hasan and Chaush v. Bulgaria (ECtHR, Oct. 26, 2000) (interference with 
internal organization of Muslim community and managing its affairs 
violates religious freedom).
    \4\ Information Document Issued by the Registrar of the European 
Court of Human Rights, Historical Background, Organisation and 
Procedure, <http://www.echr.coe.intfEngledocs/
infodocrevised2.htm#Transitional%20period, last visited April 28, 
2001>.
    \5\ For a summary of the detailed commitments that have been made 
through OSCE processes, see [[[ The Library of Congress in the United 
States has recently completed a study of religious freedom in a number 
of the major OSCE countries. Law Library, Library of Congress, 
Religious Liberty: The Legal Framework in Selected OSCE Countries 
(2000).
    \6\ See e.g., Gerhard Robbers (ed.), State and Church in the 
European Union (1996).
    \7\ See generally Kevin Boyle & Juliet Sheen (eds.), Freedom of 
Religion and Belief: A World Report 259-413 (1997).
---------------------------------------------------------------------------
    Given that the legal systems of Western Europe display a profound 
commitment to freedom, including religious freedom, we want to 
emphasize at the outset that our testimony today is being submitted in 
the spirit of contributing to constructive dialogue concerning how 
shared Euro-American ideals of religious freedom can be better 
implemented on both sides of the Atlantic. In this hearing, our 
testimony focuses on problematic issues in Western Europe, but we do 
not want to be understood as suggesting that there are no problems in 
the United States, or that the problems we identify are the most 
serious in the world. Clearly, as the report of the International 
Commission on Religious Freedom indicated in the report it promulgated 
yesterday,\8\ there are much more severe problems elsewhere.
---------------------------------------------------------------------------
    \8\ Report of the United States Commission on International 
Religious Freedom (May 1, 2001), <http://www.uscirf.org/reports/
01May01Report Index.php3>, (last visited May 1, 2001).
---------------------------------------------------------------------------
    Nonetheless, we believe it is vital to draw attention to certain 
recurring problems in Europe. We hope that doing so will lead to 
constructive dialogue that can lead to better understanding of the 
problems and hopefully, we hope, to measures that will help resolve 
them. The European problems are important to address not because they 
are necessarily the most serious problems in the world, but because 
European countries should be our natural allies for protecting freedom 
of conscience, freedom of religion, and freedom of belief.
    This is important not only to alleviate the very real suffering of 
the members of smaller religious groups that are being seriously and 
adversely affected in a small number of Western European countries. 
Events and actions in these few Western European counties will have 
ripple effects elsewhere. There is growing evidence that anti-cult 
attitudes in France, for example, are being spread to countries of the 
former socialist bloc as well as to China. Lawmakers and administrators 
in such countries use anti-cult initiatives of the minority Western 
European states that advocate so-called ``anti-sect'' actions as 
justification for even harsher measures that have adverse impacts on a 
wide range of smaller but legitimate religious groups. These hearings 
are significant both for the possible impact they can have in Western 
Europe, and for the wider impact they can have in other countries that 
look to the West as models of how religious freedom norms should be 
implemented.
    With these considerations in mind, we want to draw particular 
attention to two matters of great concern to affected believers, human 
rights workers, and religious organizations, both in Europe and in the 
United States, and then to alert the Congress to a number of other 
problematic developments.
    First, there is pending legislation in the French Senate that 
targets minority religions and is widely expected to be adopted only 
two days from now. Despite criticism from French religious leaders,\9\ 
European human rights groups and activists,\10\ and scholars,\11\ the 
U.S. State Department,\12\ and then-Chairman of the House International 
Relations Committee,\13\ it now appears likely that this problematic 
legislation will pass.
---------------------------------------------------------------------------
    \9\ See, e.g., Xavier Ternisien, A Separate Crime of ``Mental 
Manipulation Disappears From the Draft AntiCult Law, But The Substance 
of the Law Remains Unaltered,'' Le Monde, (Jan. 12, 2001) (citing the 
president of the French Protestant Federation and representatives of 
larger religious as criticizing the law as ``dangerous'' and capable of 
generating ``uncontrolled excesses.'').
    \10\ See, e.g., The reaction of the European-wide Helsinki 
Federation, which has been very critical of French actions; the OSCE 
News Release (June 8, 1999) <http://www.csce.gov/press--
csce.cfm?press--id=118> (last visited April 28, 2001) (describing 
criticism of French law by Dr. Willy Fautre of Human Rights Without 
Frontiers; the experience of the Rev. Louis DeMeo of Grace Church, 
Nimes, France; and speeches and other writings of Alain Garay, a French 
human rights attorney).
    \11\ See Discrimination on the Basis of Religion and Belief in 
Western Europe: Testimony Before the House Comm. on Int'l Relations, 
106th Cong., (visited April 28, 2001) <http://www.house.gov/
international--relations/full/relminor/gunn.htm> (statement of Dr. T. 
Jeremy Gunn) [hereinafter Gunn Testimony].
    \12\ U.S. State Department, 2000 Annual Report on International 
Religious Freedom: France, (available online at <http://www.state.gov/
www/globalhuman--rights/irf/irf--rpt/irf--france.html>) (Sept. 5, 2000) 
(hereinafter ``2000 France Report''); Testimony of Letter of Secretary 
of State Madeleine K. Albright to Joseph Griebowski (Jan. 2, 2001); 
U.S. House International Relations Press Release (June 14, 2001) 
(visited April 28, 2001) <http://www.house.gov/international--
relations/press/106sec/62prjun14b.html> (noting criticisms in letter by 
U.S. Ambassador to France Rohatyn).
    \13\ See, e.g., Testimony of Congressman Benjamin A. Gilman before 
the House International Relations Committee (June 14, 2000).
---------------------------------------------------------------------------
    Second, two European parliaments (Belgium and France) have 
prepared, on a unilateral basis and without any input of objective 
scholars or the groups themselves, lists of so-called ``dangerous 
sects.'' These parliamentary lists have, in turn, been used by 
government officials (both local and national) to discriminate against 
the groups.\14\ Government offices have since been established in 
Austria, Belgium, and France with the exclusive purpose of 
investigating newer and smaller religious organizations. This trend has 
been encouraged by the Parliamentary Assembly of the Council of Europe, 
which passed its Recommendation 1412 regarding ``illegal Activities of 
Sects'' on June 22, 1999 \15\--although countries such as France have 
failed to heed the cautions articulated in Recommendation 1412. This 
Recommendation urged, among other things, that European governments 
should ``set up or support independent national or regional information 
centres on groups of a religious, esoteric or spiritual nature.'' \16\ 
The Recommendation as ultimately adopted, nevertheless stressed that 
states should ``encourage an approach to religious groups that will 
bring about understanding, tolerance, dialogue and resolution of 
conflicts.'' \17\ If the information centers that are emerging operate 
in this spirit, and function in a neutral and objective manner, they 
can contribute in positive ways to a climate of tolerance and 
understanding. The worry is that at least some may function more in the 
spirit of a number of the parliamentary inquiry commissions of recent 
years, which have often been far from neutral, objective and fair, and 
whose unreviewable ``sect lists'' have had the effect in fact of 
legitimating and encouraging discriminatory behavior.
---------------------------------------------------------------------------
    \14\ The Swedish Parliament, which also issued a report, criticized 
the other reports for having shown a lack of objectivity in their 
analysis.
    \15\ Illegal Activities of Sects, Eur. Consult. Ass., 18th Sess., 
Recommendation No. 1412 (1999) (visited Mar. 16, 2000) <http://
stars.coe.fr/ta/ta99/erec1412.htm> [hereinafter Recommendation No. 
1412].
    \16\ Id. More specifically, Recommendation No. 1412 called on COE 
member states to take the following actions:

      (i) where necessary, to set up or support independent 
      national or regional information centres on groups of a 
      religious, esoteric or spiritual nature; (ii) to include 
      information on the history and philosophy of important 
      schools of thought and of religion in general school 
      curricula; (iii) to use the normal procedures of criminal 
      and civil law against illegal practices carried out in the 
      name of groups of a religious, esoteric or spiritual 
      nature; (iv) to ensure that legislation on the obligation 
      to enroll children at school is rigorously applied, and 
      that appropriate authorities intervene in the event of non-
      compliance; (v) where necessary, to encourage the setting-
      up of non-governmental organisations for the victims, or 
      the families of victims, of religious, esoteric or 
      spiritual groups, particularly in eastern and central 
      European countries; (vi) to encourage an approach to 
      religious groups which will bring about understanding, 
      tolerance, dialogue and resolution of conflicts; (vii) to 
      take firm steps against any action which is discriminatory 
      or which marginalises [sic] religious or spiritual minority 
---------------------------------------------------------------------------
      groups.

  The Assembly then recommended that the Committee of Ministers:

      (i) . . . provide for specific action to set up information 
      centres on groups of a religious, esoteric or spiritual 
      nature in the countries of central and eastern Europe in 
      its aid programmes for those countries; [and] (ii) set up a 
      European observatory on groups of a religious, esoteric or 
      spiritual nature to make it easier for national centres to 
      exchange information.
---------------------------------------------------------------------------
    \17\ Id.
---------------------------------------------------------------------------
                               I. FRANCE

A. Pending Legislation
    The most pressing concern to religious freedom in Western Europe is 
legislation currently pending in the French Senate.\18\ Last June, the 
National Assembly unanimously adopted a bill that would (1) criminalize 
so-called ``mental manipulation'' by so-called ``sects'' or ``cults''; 
(2) authorize dissolution of religious groups if one of their leaders 
committed two or more serious crimes; and (3) penalize attempts to 
reconstitute dissolved ``sects'' or ``cults'' under a different name.
---------------------------------------------------------------------------
    \18\ Senat, Proposed Law No. 131, Dec. 14, 1999, ``Proposition de 
loi tendant a renforcer le dispositif penal a l'encontre des 
associations ou groupements constituant, par leurs agissements 
delictueux, un trouble a l'ordre public ou un peril majeur pour la 
personne humaine'' [``A Law Proposal Aimed at Reinforcing the Criminal 
System Against Associations or Groups that Constitute, by their 
Criminal Schemes, a Threat to the Public Order or a Major Danger to 
Human Dignity''] [hereinafter Senate Proposed Law] (visited April 28, 
2001) <http://www.senat.fr/leg/tas99-52.html>. For an in-depth analysis 
of the provisions of the law, see Hannah Clayson Smith, Comment, 
Liberte, Egalite. et Fraternite at Risk for New Religious Movements in 
France, 2001 BYU L.Rev. 1099.
---------------------------------------------------------------------------
    There was a considerable outcry from human rights groups and 
religious organizations, which resulted in Senate action being put on 
hold to give the matter further consideration. This legislation has 
been revised slightly during the past few months and is scheduled for a 
vote two days from today, on May 3. It is currently expected to be 
adopted--though the opposition to it continues to grow. The revisions 
in the proposed law are primarily cosmetic, such as changing the title 
of the crime of ``mental manipulation'' to ``abuse of a person's state 
of weakness'' \19\ and reclassifying the offense within the overall 
structure of the French criminal code. The vague wording of the 
substantive offense is essentially unchanged, and remains a serious 
threat to religious liberty in France. As recently as last week, 50 
members of the parliament of the Council of Europe wrote to the French 
Senate, urging it to stop the vote on this draft law, because of its 
potential to create religious discrimination in France.\20\
---------------------------------------------------------------------------
    \19\ Senate Proposed Law , ch. 5. See also, e.g., Xavier Ternisien, 
A Separate Crime of ``Mental Manipulation'' Disappears From the Draft 
Anti-Cult Law, But The Substance of the Law Remains Unaltered, Le 
Monde, (Jan 12, 2001).
    \20\ Council of Europe: France Accused of ``Religious 
Discrimination,'' La Croix, April 27, 2001.
---------------------------------------------------------------------------
            1. Provisions Permitting Civil Dissolution of Religious 
                    Groups
    A key element of the law is a vague provision that describes which 
groups can be legally dissolved. All that is necessary is that an 
organization meet two criteria:

          (1) it pursues activities having the goal or result of 
        creating, maintaining, or exploiting a state of physical or 
        psychological subjugation, and any of various listed penal 
        sanctions have been imposed more than once against the entity 
        or its actual or de facto leaders.\21\
---------------------------------------------------------------------------
    \21\ Senate Proposed Law, ch. 1.

    The fundamental problems with this provision are its inherent 
vagueness, which ultimately give prosecutors wide latitude to pursue 
disfavored groups, and that it imposes sanctions on the innocent. 
Innocent members of a group will be denied the ability to worship 
according to their own conscience, just because a leading member of the 
group did something wrong. This is inconsistent with all our normal 
axioms about ascribing blame for conduct to the individuals actually at 
fault, a notion as deeply ingrained in French legal tradition as in our 
own.
    Further, the list of predicate acts casts an extremely broad net. 
This would technically allow a religious group to be dissolved if a 
leading figure were convicted of two or more of the following acts:

  <bullet> being at fault in a traffic accident that causes bodily 
        injury;

  <bullet> violating a data privacy law by having a file on a member 
        without adequate disclosure;

  <bullet> failing to provide immunizations or blood transfusions, 
        constituting child neglect;

  <bullet> soliciting funds on grounds of religiously based beliefs 
        that others might deem fraudulent;

  <bullet> malicious telephone calls or verbal assaults repeated with 
        the intent to disturb the tranquility of another; or

  <bullet> recommending vitamin therapy, if this were construed as 
        illegal practice of medicine.\22\
---------------------------------------------------------------------------
    \22\ Senate Proposed Law ch. 1 (listing predicate offenses).

    While this could theoretically apply to any religious group, given 
the fact that this was legislation explicitly aimed at ``sects'' or 
``cults'' it is likely to be applied in a discriminatory manner to 
newer and smaller religious groups.
    The law not only allows civil dissolution, but also extends 
criminal liability to corporations that meet the conditions for 
dissolution.\23\ One possible penalty is the permanent prohibition of 
specific minority religious activities. In addition, the draft law 
would impose criminal sanctions on individuals who seek to recreate or 
reorganize a dissolved religious group. Attempts at reorganizing are 
punishable by up to a three-year jail sentence and a 300,000 FF 
(approximately $40,000) fine for the first offense and a five-year jail 
sentence and a 500,000 FF (approximately $70,000) fine for repeat 
offenses.\24\
---------------------------------------------------------------------------
    \23\ Senate Proposed Law ch. 2.
    \24\ Senate Proposed Law ch. 2.
---------------------------------------------------------------------------
    The draft law's vague and harsh provisions for civil dissolution 
violate a variety of international standards. Freedom to manifest one's 
religion or belief in community with others,\25\ which is guaranteed by 
all the major international instruments, is substantially diminished if 
reasonable access to a legal entity is impossible.\26\ The violation is 
particularly egregious in this case, as government elimination of a 
religious entity would be unrelated to the actions of the group itself. 
The law penalizes the group for its beliefs, taken together with the 
actions of one individual leader. The law is also inconsistent with 
recent European Court decisions on freedom of association, which 
recognize that the right to have a legal entity as an integral part of 
the right to freedom of association.\27\ The fact that a leader may 
have done something illegal--regardless of the religion--does not 
deprive the rest of the group of the right to associate. The successful 
prosecution of a Catholic priest or a Protestant pastor for an offense 
should not lead to the dissolution of their churches. Nor should it for 
groups that the government disparagingly (and often ignorantly) calls 
``sects'' or ``cults.''
---------------------------------------------------------------------------
    \25\ See, e.g., 1981 Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, arts. 6 
(a) and (b); ICCPR, art. 18; European Convention on Human Rights art. 
9.
    \26\ See Cole Durham, OSCE/ODIHR Background Paper 1999/4, Freedom 
of Religion or Belief.: Laws Affecting the Structuring of Religious 
Communities, (Sept. 1999) (available on-line at http://www.osce.org/
odihr/docs/i4 index.htm) (last visited April 28, 2001).
    \27\ United Communist Party of Turkey v. Turkey (European Court of 
Human Rights, Decision of 30 January 1998); Sidiropoulos & Others v. 
Greece (European Court of Human Rights, Decision of 10 July 1998. In 
Sidiropoulos the Court stated categorically that ``the right to form an 
association is an inherent part'' of the right to freedom of 
association and that

      citizens should be able to form a legal entity in order to 
      act collectively in a field of mutual interest is one of 
      the most important aspects of the right to freedom of 
      association, without which the right would be deprived of 
      any meaning. The way in which national legislation 
      enshrines this freedom and its practical application by the 
      authorities reveal the state of democracy in the country 
      concerned. Certainly States have a right to satisfy 
      themselves that an association's aim and activities are in 
      conformity with the rules laid down in legislation, but 
      they must do so in a manner compatible with their 
      obligations under the Convention and subject to review by 
---------------------------------------------------------------------------
      the Convention institutions.

  Religious organizations constitute a special form of association, 
entitled if anything to heightened associational protections. The mere 
fact that an individual--even a prominent member of a group--has been 
guilty of criminal offenses does not constitute adequate grounds to 
deprive the rest of the members of the group of the right to associate. 
There is no question that the individual in question may be subject to 
criminal sanctions, but visiting sanctions on the group as a whole is 
not proportionate.
    By establishing and penalizing a separate class of religions, based 
on the activities of one of their members and the group's belief, the 
draft law also violates the nondiscrimination principles of the 1981 
U.N. Declaration on the Elimination of All Forms of Intolerance and of 
Discrimination Based on Religion or Belief,\28\ the ICCPR,\29\ the 
ECHR,\30\ and the Vienna Concluding Document.\31\ These guarantees are 
designed to ensure an ``effective equality'' \32\ and prohibit 
discriminatory purpose or effect based on religious preference. This 
law does precisely what Article 18 of the ICCPR was designed to 
prevent--government establishment of a separate category of religious 
organizations based on their beliefs.\33\
---------------------------------------------------------------------------
    \28\ 1981 Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, art. 2.
    \29\ ICCPR art. 18.
    \30\ ECHR, art. 9.
    \31\ Vienna Concluding Document art. 16(a).
    \32\ Vienna Concluding Document.
    \33\ ICCPR Art. 18.
---------------------------------------------------------------------------
    Additional violations of international norms and legal principles 
could be noted.\34\
---------------------------------------------------------------------------
    \34\ See Smith, supra note, at 1130-1136.
---------------------------------------------------------------------------
            2. ``Mental Manipulation'' Provisions
    Many, even among traditional faiths, are deeply concerned about the 
pending legislation's attempt to criminalize ``mental manipulation'' 
because of its inherent vagueness. Although the description ``mental 
manipulation'' has been changed to the seemingly more neutral ``abuse 
of a person's state of weakness,'' the text of the crime is 
unchanged.\35\ The law essentially allows the government to prosecute 
any group who creates a state of physical or psychological dependency 
such that the follower engages in an act or abstains from an act--
against his will or not--that results in significant detriment to the 
follower. The Catholics have even expressed concern that the Catholic 
Church will be prosecuted for the strict conditions under which 
Carmelite nuns live. Clearly leaders of Jehovah's Witnesses, who 
encourage their members to reject blood transfusions, and Christian 
Scientists, who teach a reliance on faith healing, could easily fall 
under the ambit of the law.
---------------------------------------------------------------------------
    \35\ Senate Proposed Law ch. 5; see also e.g., Xavier Ternisien, A 
Separate Crime of ``Mental Manipulation'' Disappears From the Draft 
Anti-Cult Law, But The Substance of the Law Remains Unaltered, Le 
Monde, (Jan. 12, 2001).
---------------------------------------------------------------------------
    Furthermore, the crime of ``abuse of a person's state of 
weakness,'' is vague enough to potentially cover any religious activity 
such as proselyting or religious education. After all, most education 
and persuasion, whether secular or religious, could be described as 
``techniques designed to alter someone's judgment.'' \36\
---------------------------------------------------------------------------
    \36\ Senate Proposed Law ch. 5.
---------------------------------------------------------------------------
    The penalties associated with this crime are stiff. One violation 
is punishable with up to three years imprisonment and a fine of up to 
2,500,000 FF (nearly $400,000). The law explicitly states that 
religious associations themselves can be penalized under this 
provision.\37\ Heightened punishment is provided for leaders of 
religious groups, who can incur fines of up to 5,000,000 FF (nearly 
$800,000) and serve up to 5 years in prison.\38\ Any natural person 
convicted of this crime can, in addition, be subject to supplemental 
penalties, including (1) the denial of civic, civil, and family rights, 
(2) denial of the right to exercise a public function or engage in 
professional or social activity that led to the infraction for up to 5 
years; (3) the closure for a period of 5 years or more of the entity's 
establishments used in committing the offense; and (4) the confiscation 
of property used to commit the offense.\39\
---------------------------------------------------------------------------
    \37\ Senate Proposed Law ch. 5.
    \38\ Id.
    \39\ Id.
---------------------------------------------------------------------------
    Given the combination of available penalties, this vaguely worded 
offense could easily be used to bankrupt religious organizations and 
individuals, imprison believers and their leaders, and deny individuals 
rights such as child custody merely for persuading other believers to 
follow practices that a state judge determines to be harmful to that 
individual--even if the practices were freely accepted.
    Criminalizing religious persuasion as ``mental manipulation,'' or 
``abuse of a person's state of weakness'' directly attacks the 
religious rights protected under international norms. Most directly, 
this would endanger rights of teaching and dissemination of religious 
information, protected in the 1981 Declaration.\40\ Using criminal 
norms to harsh punish controversial religious practices also violates 
Article 18.2 of the ICCPR, which prohibits government coercion in the 
religious marketplace. The theory behind the crime, that religious 
leaders can engage in mental control, or ``brainwashing,'' has been 
discredited by the American Psychological Association and international 
scholars.\41\
---------------------------------------------------------------------------
    \40\ 1981 U.N. Declaration, arts. 6 (d) and (e).
    \41\ See Religious Liberty in Western Europe: Deterioration of 
Religious Liberty in Europe Briefing Before the Comm'n on Sec. and 
Cooperation in Europe of the United States Congress, 105th Cong. (1998) 
(statement of Dr. Massimo Introvigne, Managing Director, Center for 
Studies of New Religions (``CESNUR'')); James T. Richardson, 
``Brainwashing'' Claims and Minority Religions Outside the United 
States: Cultural Diffusion of a Questionable Concept in the Legal 
Arena, 1996 BYU L. Rev. 873.
---------------------------------------------------------------------------
    Governments clearly have a legitimate interest in protecting 
against fraud or abuse. It is important to remember, however, that 
those interests are already embodied in existing criminal codes. As the 
Council of Europe determined, existing criminal law should be 
sufficient to deal with any harmful activities associated with new 
religious movements.\42\ Creating additional, vaguely worded crimes 
geared specifically towards unpopular religious movements is nothing 
more than religious discrimination. Not only is it discrimination, but 
it is the sort of discrimination explicitly forbidden by Article 18 of 
the ICCPR. As the United Nations Human Rights Committee explained in 
its authoritative interpretation of Article 18, discrimination is 
particularly suspect when its targets ``are newly established, or 
represent religious minorities that may be the subject of hostility by 
a predominant religious community.'' \43\
---------------------------------------------------------------------------
    \42\ See supra note.
    \43\ U.N. Hum. Rts. Comm. General Comment No. 22.
---------------------------------------------------------------------------
    Another troubling sign, however, is that French lawmakers are 
seeking to export their peculiar and discriminatory anti-sect stance, 
particularly to Eastern Europe and China.\44\ \45\ In fact, there are 
already reports that Hong Kong's Chief Executive is looking to the 
French legislation as a model for a law to ban the Falun Gong 
movement.\46\
---------------------------------------------------------------------------
    \44\ Gunn Testimony (reporting that the Interministerial Mission 
Against Cults is spending one-third of its time promoting the anti-sect 
message outside of France); Fautre et al, supra note____. See Innocents 
Abroad: French Anti-Cultists, Mission Support China's Anti-Cult 
Campaign, (visited April 30, 2001) <http://www.cesnur.org/2001/
jan30.htm>.
    \45\ 1998 McCabe Statement.
    \46\ Carmen Cheung, French law basis for likely move to outlaw 
sect, Hong Kong Imail (Apr. 27, 2001); Cliff Biddle, SAR eyes outcome 
of French bill, South China Morning Post (Apr. 6, 2001).
---------------------------------------------------------------------------
Other Recent French Government Initiatives
    The current draft law is the result of a long-running self-
proclaimed ``fight against cults'' led by some members of the French 
parliament. In recent years, the French parliament and government have 
issued a number of reports \47\ that scholars of religion have 
criticized as failing to meet even minimum standards of objectivity or 
scholarship.\48\ In the 1980s, two reports on sects were issued, which 
essentially concluded that normal criminal laws were sufficient to 
address problems posed by sects.\49\ Most experts see this as the 
appropriate result; laws that specifically target religious groups are 
inherently discriminatory, dangerous, and tend to violate both 
international human rights standards and fundamental canons of criminal 
justice.
---------------------------------------------------------------------------
    \47\ Assemblee Nationale, Report No. 1687, June 10, 1999, ``Rapport 
fait au nom de la commission d'enquete sur la situation financiere, 
patrimoniale et fiscale des sectes, ainsi que sur leurs activites 
economiques et leurs relations avec les milieux economiques et 
financiers'' [``Report by the Inquiry Commission on the Financial 
Situation of Sects, as well as their Economic Activities and their 
Relations with the Economic and Financial Realms''] [hereinafter 
Finances of Sects Report] (visited Sept. 20, 2000) <http://
www.assemblee-nationale.fr/2/2dossiers.html>; Assemblee Nationale, 
Report No. 2468, Dec. 22, 1995, ``Rapport fait au nom de la commission 
d'enquete sur les sectes'' [``Report by the Inquiry Commission on 
Sects''] [hereinafter Sects in France Report] (visited Sept. 20, 2000) 
<http://www.assemblee-nationale.fr/2/2dossiers.html>.
    \48\ See Willy Fautre et al., The Sect Issue in the European 
Francophone Sphere, in Facilitating Freedom of Religion or Belief: A 
Deskbook (Kiuwer Publishing, forthcoming 2001); Jean Bauberot, Le 
rapport de la commission parlementaire sur les sectes, in Pour en finir 
avec les sectes. Le Debat sur le rapport de commissions parlementaires 
(Massimo Introvigne & J. Gordon Melton, eds., Paris and Milan: Cesnur-
DiGiovanni 1996).
    \49\ For a description of these reports and a more thorough general 
background, see 2000 France Report, supra note__; Smith, supra 
note____, at 1112, 1099-1117; Fautre, supra note____.
---------------------------------------------------------------------------
    In the 1990's, following the Solar Temple suicides in Switzerland 
and France, a new wave of anti-cult reaction occurred. In 1995, a 
Parliamentary Inquiry Commission published a report that listed 172 
groups as cults, without explaining the criteria for inclusion or 
giving the groups an opportunity to respond.\50\ Members of these 
groups and other groups that are perceived as sects, regardless of 
whether they are actually on the list, have reported an increase in 
official and unofficial discrimination, including police surveillance, 
loss of child custody or visitation rights, employment discrimination, 
and unwillingness of government officials and private landlords to rent 
property or provide zoning permits for new church buildings.\51\ 
According to the International Helsinki Federation.
---------------------------------------------------------------------------
    \50\ See Sects in France Report, supra note____.
    \51\ Extensive examples are given in Fautre, supra note____, nn. 
53-64; Jehovah's Witnesses in France: Deterioration of Religious 
Liberty in Europe Briefing Before the Comm'n on Sec. and Cooperation in 
Europe of the United States Congress, 105th Cong. (1998) (statement of 
James M. McCabe, Associate General Counsel, Watch Tower Bible & Tract 
Society of Pennsylvania) [hereinafter 1998 McCabe Statement]; Religious 
Freedom in Western Europe: Religious Minorities and Growing Government 
Intolerance Hearing Before the Comm'n on Sec. and Cooperation in Europe 
of the United States Congress, 106th Cong. (1999) (statement of Willy 
Fautre, Chairman, Human Rights Without Frontiers).

          Minority religions have been publicly marginalised and 
        stigmatised, and there have been attempts to hinder their 
        activities--for example, through denying them access to public 
        halls for their meetings or requiring them to pay higher rent. 
        Authorities have scrutinised their management, and children of 
        minority religious groups have been stigmatised as ``cult 
        members'' in their schools and neighbourhoods.\52\
---------------------------------------------------------------------------
    \52\ The International Helsinki Federation for Human Rights, 1999 
Annual Report, France. <http://www.ihfhr.org/reports/ar99/ar99fra.htm>.

    Specific examples are legion. For example, the International 
Society for Krishna Consciousness (ISKCON) runs a charitable food 
distribution program called Food for Life. When French ISKCON members 
applied to receive vegetables from Banque Alimentaire, a food bank 
organization that collects vegetables from the market and distributes 
them to approximately 100 other charities, they were denied based 
solely on the fact that ISKON was on the list of sects.\53\ The 
director of a prison in Bapaume denied his prisoners access to 
magazines published by the Jehovah's Witnesses, giving as a reason 
``the sectarian character of the congregation, recognized by the 
parliamentary commission.'' \54\ Jehovah's Witnesses, along with the 
Church of Scientology and the Institut Theologique de Nimes, a 
Protestant Bible college, have all been subjected to extensive and 
harassing audits, which have forced several churches of the Church of 
Scientology into bankruptcy.\55\
---------------------------------------------------------------------------
    \53\ Letter from ISKCON to authors, (May 27, 2001).
    \54\ Fautre et al., supra note____; see Alain Garay, Discrimination 
and Violations of Freedom of Conscience of Prisoners in France, 2 
Religion-Staat-Gesellschaft (2000).
    \55\ Testimony of Robert A. Seiple before the House International 
Relations Committee, U.S. House of Represenatatives (June 14. 2000).
---------------------------------------------------------------------------
    Being a member of a listed sect has had significant direct 
repercussions for individual members as well. A Scientologist engineer 
working in a French nuclear power plant, owned by the French national 
electric company, was refused a key position and transferred to a non-
nuclear department on the basis of an anonymous letter campaign. He was 
accused of being a tool of an alleged attempt by the Church of 
Scientology to infiltrate the nuclear plant.\56\ Similarly, when it 
became public that a principal of a school in Chomerac was a member of 
a listed sect, a number of parents withdrew their children from the 
school and requested an inquiry by the Ministry of Education. An 
official inquiry took place, but found no evidence of negligence or 
even of proselytism.\57\
---------------------------------------------------------------------------
    \56\ Gravelines: Malaise a la centrale nucleaire. Un scientologue 
devait piloter deux reacteurs. Ii sera mute, Le Parisien, Dec. 14, 
1998.
    \57\ Fautre et al., supra note
---------------------------------------------------------------------------
    Once an organization is listed, it becomes virtually impossible for 
it to regain its reputation. For example, psychotherapist Bernard 
Lempert was the founder a small group, L'arbre du milieu, which worked 
with physically and sexually abused children. After the group was 
listed by the French parliamentary committee, Bernard Lempert lost his 
patients, reputation, and funding. After two years, Mr. Lempert managed 
to prove in court that the source of the accusation leading to the 
listing of the group was an influential former patient who was merely 
trying to settle a personal score. Eventually, even the author of the 
parliamentary report recognized that Mr. Lempert's group was not a 
``dangerous sect,'' but no mechanism exists to remove sects from the 
list.\58\
---------------------------------------------------------------------------
    \58\ See Fautre et al., citing L'honneur perdu du psy de 
Landerneau, Liberation, April 1, 1996, and Deux ans pour eteindre le 
bucher. La justice a blanchi Bernard Lempert, accuse d'etre un gourou, 
Liberation, Oct. 25, 1998.
---------------------------------------------------------------------------
    In 1996, the French Prime Minister established an interministerial 
working group called the ``Observatory on Cults,'' which recommended 
anti-cult legislation. The Observatory was replaced by the 
Interministerial Commission to Fight Against Cults (``MILS'') in 1998, 
which has been issuing reports and coordinating a number of 
intergovernmental activities specifically targeting sects. A report on 
Finances of Cults was published by a Parliamentary Inquiry Commission 
in 1999.
    Sponsors of the bill that is currently under consideration in the 
French Senate also have been involved in active efforts to promote 
similar ``anti-cult'' legislation in Eastern Europe and China. Human 
rights advocates are especially concerned that the spread of this type 
of legislation to Eastern European countries, which lack France's 
traditions and protections of a trained judiciary, would be especially 
problematic and limiting of religious freedom.
    The U.S. State Department has repeatedly expressed concern over 
France's stigmatization of legitimate expressions of religious faith as 
``sects'' or ``cults,'' and has criticized the pending legislation as 
violating international and European norms of religious freedom.
    A recent positive sign that some French institutional protections 
may assist minority religions was the June 2000 decision of the French 
Conseil d'Etat, France's highest administrative court, determining that 
two congregations of Jehovah's Witnesses could be recognized as 
religious organizations and thus exempt from taxation as a 
business.\59\ But, on the other hand, other French tax authorities had 
retroactively imposed a tax of 60% on all donations received during the 
period from January 1, 1993 to August 31, 1996, even though they 
determined that the Jehovah's Witnesses had engaged in no commercial 
activity.\60\ Including penalties and interest, the Jehovah's Witnesses 
were accused of owing over 300 million French francs (approximately $50 
million).\61\
---------------------------------------------------------------------------
    \59\ 1998 McCabe Statement.
    \60\ Jehovah's Witnesses in France Hit with 50 Million Dollar Tax 
Bill, Agence France Presse, June 29, 1998 (reporting that this was the 
first time that the fiscal reform of 1992 had been applied to a 
religious organization.
    \61\ 1998 McCabe Statement.
---------------------------------------------------------------------------

                              II. BELGIUM

    Much like France, Belgium has experienced a wave of anti-cult 
sentiment after the Solar Temple suicides. In 1997, a parliamentary 
commission issued a report listing 189 ``sects,'' including Southern 
Baptists, Opus Dei, Jehovah's Witnesses, Quakers, the YWCA, (but 
interestingly enough, not the YMCA), a Hasidic Jewish community, and 
Seventh-Day Adventists.\62\ The Belgian parliament adopted the 
commission's recommendations and published the report, although they 
did not formally adopt the list. The methodology and results of the 
parliamentary commission have been criticized by leading academics.\63\
---------------------------------------------------------------------------
    \62\ Enquete parlementaire visant a elaborer une politique en vue 
de lutter contre les pratiques illegales des sectes et le danger 
qu'elles representent pour Ia societe et pour les personnes, 
particulierement les mineurs d'age. Rapport fait au nom de Ia 
commission d'enquete par mm. Duquesne et Willems, Documents 
parlementaires Chambre 1996-97, nos 313/7 (partie I) et 313/8 (partie 
II).
    \63\ See, e.g., Rik Torfs, Church Autonomy in Belgium, in Church 
Autonomy (Gerhard Robbers, ed., forthcoming 2001); Fautre et al., supra 
note____; CSCE News Release (June 8, 1999) <hup://www.csce.gov/press--
csce.cfm?press--id=118> (last visited April 28, 2001) (describing 
criticism of Belgian commission); Massimo Introvigne. Le retour de 
jacobins, (visited April 28, 2001) <http://www.cesnur.org/testi/
Belgique.htm>.
---------------------------------------------------------------------------
    In 1998, following up on the parliamentary commission's 
recommendations, parliament passed legislation creating a ``Center for 
Information and Advice on Harmful Sectarian Organizations.'' \64\ The 
Center, which became operational in the fall of 2000, was authorized to 
propose policy or legislation regarding sects and coordinate with the 
administrative agency that was also created to deal with sects in 1998. 
The Center is responsible to provide information to the public upon 
request, and is required by law to avoid presenting information in the 
form of lists or systematic statements about harmful sectarian 
organizations. The Center remains fairly new. It is hoped that it will 
carry out its informational activities in a neutral and objective way 
that among other things will allow criticized groups to have a right of 
hearing and reply. There are some very positive signs that the work of 
the commission will be carried out with some objectivity, but its 
existence continues to raise concerns.
---------------------------------------------------------------------------
    \64\ Loi 2 juin 1998 portant creation d'un Centre d'information et 
d'avis sur les organisations sectaires nuisibles et d'une Cellule 
administrative de coordination de la lutte contre les organisations 
sectaires nuisibles, Moniteur beige 25 November 1998; Arrete royal 8 
novembre 1998 fixant la composition, le fonctionnement et 
l'organisation de la Cellule administrative de coordination de Ia lutte 
contre les organisations sectaires nuisibles, Moniteur beige 9 December 
1998.
---------------------------------------------------------------------------
    Implementing another recommendation of the parliamentary report, 
some local communities have sponsored information campaigns to 
``educate'' the public about harmful sects. Although the publications 
refer to ``harmful sects,'' they in fact identify many groups about 
which there is no evidence that they have engaged in any harmful 
activities whatsoever. In March 1999, one division of the government 
launched a campaign, ``Gurus Beware!'' and targeted 20 of the groups 
listed in the 1997 commission report.\65\ In April 1999, the 
distribution of literature was enjoined by a court, based on one 
group's arguments that the brochure was defamatory.\66\ On appeal, 
however, the government was allowed to resume distribution of the 
brochure.\67\
---------------------------------------------------------------------------
    \65\ Fautre et al., supra note____; 2000 Annual State Department 
Report on Religious Freedom: Belgium (visited April 28, 2001) <http://
www.state.gov/www/global/human--rights/irf/irf--rpt/irf--belgium.html>.
    \66\ Summary Judgement Tribunal of Brussels 23 April 1999, Algemeen 
Juridisch Tijdschrift 1999-2000, 94. This judgement was reformed by the 
Court of Appeal: Brussels No. 1999/KR/175 R.No. 2000/290, 20 January 
2000, not published.
    \67\ Fautre et al., supra note
---------------------------------------------------------------------------
    The original list created by the parliamentary commission and 
published by parliament has also led to numerous reports of religious 
discrimination. Members of listed groups have experienced 
discrimination in employment and schools, police surveillance, 
inability to rent facilities for meetings, and loss of child custody 
and visitation rights.\68\
---------------------------------------------------------------------------
    \68\ See, e.g., Fautre et al., supra note____. Even individuals who 
are not members of listed groups have suffered discrimination as a 
result of unfounded accusations that they do belong to listed groups. 
See, e.g., Frederik Delepierre, Je ne suis pas membre de l'Opus Dei, Le 
Soir, October 31, 1998.
---------------------------------------------------------------------------
    Discrimination is official and often blatant. According to a member 
of the Belgian sect observatory, certain Belgian municipalities have 
required all civil servants to attest that they do not belong to a 
listed sect.\69\ The Belgian tax department has denied a house of 
worship of the group Sukhyo Mahikari an exemption from property taxes 
based solely on the fact that they are on the sect list.\70\ Without 
any warning, Belgian state security shut down and barricaded a public 
meeting and dance display put on at the Sahaja Yoga movement, and 
barred future meetings of any kind, claiming that the group was 
attempting to infiltrate the town's dance center and that their covert 
purpose was to talk about their ``guru.'' \71\
---------------------------------------------------------------------------
    \69\ Fature et al., supra note____, citing Louis-Leon Christians, 
Liberte d'opinion en droit euopeen: obervations belges (II)--Les 
limitations, 58 Conscience et Liberte 10 n.1 (1999).
    \70\ Fautre et al., supra note____(noting that the group is 
officially registered as a religious organization in Spain).
    \71\ Fautre et al., supra note____.
---------------------------------------------------------------------------
    The practical effects of such discrimination can be devastating to 
individuals. Some courts have denied sect members custody and 
visitation rights; \72\ others have stipulated in custody agreements 
that noncustodial Jehovah's Witness parents cannot expose their 
children to their religious teachings or lifestyle.\73\
---------------------------------------------------------------------------
    \72\ Fautre et al., supra note____(citing Ik wil en mijn kind en 
mijn geloofbehouden, De Standaard Aug. 14, 15, 16, 1998, at 31).
    \73\ U.S. State Department, 2000 Annual Report on International 
Religious Freedom: Belgium, (available online at <http://www.state.gov/
www/global/humanjights/irf/irf__rpt/irf__belgium.html>) (Sept. 5, 2000) 
(hereinafter ``2000 Belgium Report'').
---------------------------------------------------------------------------
    In December 1998, the Belgian parliament formally required Belgian 
State Security to monitor ``harmful sectarian organizations,'' defined 
as ``any religious or philosophical group that, through its 
organization or practices, engages in activities that are illegal, 
injurious, or harmful to individuals or society,'' as potential threats 
to the internal security of the country. While no government wants to 
have harmful groups operating in its midst, such vaguely worded 
provisions give a great deal of latitude to prosecutors and other 
officials to attack unpopular religions and groups.

                              III. AUSTRIA

    The Austrian government has also engaged in an information campaign 
against ``sects,'' and has established an independent Federal Office on 
the Sect Question.
    In September 1999, the Ministry for Social Security and Generations 
issued a brochure with hostile descriptions of non-recognized religions 
and the Jehovah's Witnesses, even though they have been recognized with 
the official status of a ``confessional community.'' This activity was 
condemned last year by the House International Relations Committee. The 
Ministry for Social Security and Generations has also announced plans 
to train ``specialists'' among teachers and youth leaders on the 
dangers of sects, and to create an interministerial working group to 
develop additional measure to protect citizens from ``the damaging 
influence of sects, cults, and esoteric movements.''
    Government and individual discrimination against minority and 
nonrecognized religious groups has been reported. For example, in 1999, 
the Austrian People's party, which became a member of the coalition 
government in 2000, announced that party membership is incompatible 
with being a member of a ``sect.''
    Austrian law also de facto discriminates against new religious 
movements. Although religious groups can receive legal entity status as 
a ``confessional community'' with a 6-month waiting period, a group 
must undergo a 10 years observation period in order to become an 
officially recognized religious society. Only officially recognized 
religious societies have the right to function in schools, prisons, the 
military and other public sectors, to register births and marriages, 
and to participate in the government state-collected taxation program. 
This model has recently been followed by the Czech Republic in its 
draft legislation on religious associations.
    More generally, legislation and the creation of information centers 
in Western Europe are significant in that they are used to legitimate 
parallel developments in Eastern Europe. In that context, they may have 
consequences that are substantially more harsh for smaller religious 
groups.

                              IV. GERMANY

    Germany, the remaining EU member state that has officially reacted 
against new religious movements, set up a parliamentary commission in 
1996 to investigate ``so-called sects and psychogroups.'' It published 
a report in 1998, but no lists were published and no permanent sect 
observatory was created. The report raised doubts on the validity of 
definitions of ``cults'' or ``sects,'' as well as the concept of 
``brainwashing,'' but did support continued surveillance of the Church 
of Scientology.
    Several German states have engaged in information campaigns against 
new religious movements. While some of these are factual and relatively 
unbiased, others make generalized and unsupported allegatiops against 
new religious movements as dangerous sects. In particular, these 
pamphlets have targeted Scientology, alleging dangers to the political 
and economic system and the health and well-being of individuals.
    The Church of Scientology has also been under governmental 
observation and it members have been subject to official governmental 
discrimination. Some local, state, and federal government agencies and 
business require job applicants and bidders on contracts to sign a 
declaration that they are not affiliated with the teachings of L. Ron 
Hubbard. Most major political parties also prohibit membership by 
Scientologists.
    Although the situation regarding the Federal Government in Germany 
has improved during the past two years, ongoing problems remain and it 
is appropriate for human rights groups and the U.S. government to 
continue to be sensitive to such problems if and when they are 
documented.

                    V. SPAIN/ITALY/AGREEMENT SYSTEMS

    Spain, Italy and several other European countries have what might 
be described as an ``agreement'' system for structuring relations with 
many of the religious groups in their respective countries. The idea, 
as implemented in Spain, Italy, and a number of other countries with 
substantial Roman Catholic populations, was to extend the notion of a 
concordat, which in an earlier day signaled privileged relations with 
the Roman Catholic Church, to other denominations. The notion was that 
in the process of moving from a ``confessional'' to a ``neutral'' model 
of the state, this approach was preferable because it allowed other 
denominations to be ``raised'' to the level of the Roman Catholic 
Church, rather than bringing the Catholic Church ``down'' to the level 
of other denominations. On the positive side, this approach thus has 
initial attractiveness as a mechanism for promoting equal treatment. It 
also has advantages in that it allows the state to be sensitive to 
significant distinctions between religious groups. Moreover, it is 
important to note that there have been significant efforts in both 
Spain and Italy to encourage inclusiveness in this model.
    As time goes on, however, an inevitable consequence of a well-
intended system that nevertheless differentiates religious groups is 
beginning to emerge. The difficulty is that once an agreement has been 
achieved with many of the dominant groups, the political will to enter 
agreements with smaller groups at some point runs out. Once agreements 
cover relations with religious communities constituting 90-95% of the 
population, there is little incentive to provide additional agreements 
with others. The result is that groups not brought within the umbrella 
often suffer discrimination in gaining access to tax exempt status and 
a variety of other benefits often linked to the status of being a group 
with an agreement. This approach is spreading to other countries such 
as Poland, Slovakia, Hungary, and Albania. Countries adopting agreement 
systems should be encouraged to include all religious and belief groups 
on the same terms, preferably by providing legislation that smaller 
groups can avail themselves of without difficulty. Perhaps a result can 
be encouraged such as that which prevails in Germany, according to 
which if a certain type of benefit is provided in an agreement with one 
denomination, similar benefits should be made available in agreements 
with others. It is vital to sound principles of religious freedom and 
non-discrimination that all religious groups should be treated on equal 
terms.

              VI. RECOMMENDATIONS FOR CONGRESSIONAL ACTION

    The United States government is limited in what it can do to help 
ameliorate the situation in Western Europe, whether in unilateral or 
multilateral action. Clearly, much remains to be done through education 
and non-political channels, but there are a number of steps that 
Congress can take that could have significant impact. We urge Congress 
to consider taking some of the following steps:

  <bullet> Congress should encourage the Administration to facilitate 
        dialogue not only with Western European governments, but should 
        actively promote cooperation with non-governmental 
        organizations that have opportunities to reach a wider public. 
        We believe that many of the problems described above reflect 
        government offices that have simply pressed their putative 
        mandates too far, and that an informed public will ultimately 
        help solve the problems.

  <bullet> Congress should encourage the Administration to provide 
        financial and moral support of existing multilateral 
        organizations that focus on religious freedom issues, such as 
        the OSCE's Advisory Panel of Experts on Freedom of Religion or 
        Belief.\74\
---------------------------------------------------------------------------
    \74\ For example, visits to France from members of the Advisory 
Panel together with members of Congress's Helsinki Commission in 1999 
helped focus attention on France's draft law and gained some 
concessions by the French government. Gunn Testimony.

  <bullet> Congress could appropriate funds, possibly to be channeled 
        through the congressional Commission on Security and 
        Cooperation in Europe, or through the Office of the Ambassador 
        at Large for International Religious Freedom in the State 
        Department, to bring representatives and experts from Western 
        European countries and their counterparts in the United States 
        and Canada together to develop concrete recommendations about 
---------------------------------------------------------------------------
        how to better implement freedom of religion norms.

  <bullet> Request the State Department to designate additional embassy 
        personnel in selected countries to more conscientiously gather 
        information regarding sect commissions, any Western European 
        governmental response or discrimination resulting from the 
        actions of sect commissions, and the practical effect the 
        commissions are having on religious minorities. The embassy 
        contact officers, could report monthly to the Office of the 
        Ambassador at Large for Religious Freedom, who could in turn 
        brief the European Subcommittee of the Senate Foreign Relations 
        Committee on a quarterly basis.

  <bullet> Request the U.S. Commission for International Religious 
        Freedom to study events in Western Europe and report back to 
        European Subcommittees in 6-8 months with specific policy 
        recommendations. The Commission should be urged to fulfill its 
        legal mandate to ``consider and recommend options for policies 
        of the United States Government with respect to each foreign 
        country the government of which has engaged in or tolerated 
        violations of religious freedom.
        . . .'' \75\ We welcome the broader coverage of this year's 
        report, but believe that even more can be done. The work of the 
        Commission can make significant contributions not only to 
        amelioration of the most serious religious freedom infractions 
        around the world, but may be able to spur significant progress 
        in improving the lesser (and less intractable) problems 
        elsewhere.

  <bullet> During confirmation hearings for the newly nominated 
        ambassador to France, Mr. Howard Leach, and for other West 
        European Ambassadors, stress the importance of religious 
        freedom issues, and assess their willingness to develop and 
        implement more effective measures to help address religious 
        freedom concerns in Europe.

  <bullet> During confirmation hearings for the new Assistant Secretary 
        of State for European Affairs, highlight the importance of 
        religious freedom issues, and thereafter periodically hold 
        hearings in which he or she is required to make an accounting 
        on Administration action in this arena.

    We believe that firm but sensitive Congressional action can 
contribute to the building of better relations in this area and to the 
ability to help ameliorate the plight of individuals suffering from 
violations of religious freedom in Western Europe. Such actions are 
likely to be most effective if they open up opportunities for 
constructive dialogue concerning how shared Euro-American ideals of 
religious freedom can be better implemented on both sides of the 
Atlantic. We believe that long-term engagement in serious dialogue over 
the implementation of religious freedom in Europe will help alleviate 
current concerns.

--------------
    \75\ International Religious Freedom Act of 1998, 22 U.S.C. 6432 
(note), sect. 202(b) (emphasis added).

    Senator Smith. Elizabeth, I wonder, before we hear from 
Rabbi Baker, if we could address just a number of thoughts 
about your testimony that occur to me. Do you think the French 
understand how many other countries are looking at this piece 
of legislation and may implement it albeit perhaps differently 
than the French may. Given the ambiguity of this legislation 
that you and many of us have tried to point out, does it not 
open up some really dangerous avenues for a government, less 
principled in the rule of law than France, to truly persecute 
people.
    Do you think the French have that sense?
    Ms. Clark. I think it's an excellent point. I think that a 
few French legislators who've been actively promoting this bill 
do. There's some evidence that they've been traveling to 
Eastern Europe, to China, to try and promote that. But I think 
on the whole there isn't a complete understanding of the 
effects this really could have in Eastern Europe and China 
where there is--there aren't the long-established protections 
that France does have, trained judiciary.
    Senator Smith. You did not list a possible action that I've 
contemplated that we could take in the Senate, maybe in 
Congress generally. How would a sense of the Senate resolution 
condemning the legislation might be perceived in France?
    Ms. Clark. I think it would be helpful. It would be a 
strong step. I think it needs to be done with open 
communication with French leaders because there's a tendency to 
ascribe this to anti-French feeling to only increase the 
hostility that they feel sometimes, the anti-Americanism. But I 
think that it is important that they know how strongly we feel 
on this and that we can't back off just because it might offend 
some people.
    Senator Smith. Since you were in Paris last with Professor 
Durham have you kept in contact with the French officials with 
whom we met and others. Do you sense any difference in the 
legislation? Is it being refined, narrowed, clarified in ways 
that we didn't perceive at the time?
    Ms. Clark. We have stayed in contact. Unfortunately there 
haven't been any changes in the legislation itself since that 
time.
    There is increasing awareness though of pressure from the 
outside and realization of how other members of the world 
community see this. There's been a letter that was just written 
last week I believe from members of the Council of Europe 
asking France to stop, and I think that combined with your 
involvement and the involvement of the Congress will make a 
difference.
    Senator Smith. The most chilling thing I've heard today is 
your inclusion of China as a country looking at this 
legislation as a model. Ever since I've been a U.S. Senator the 
relations with China have been tenuous but important. Part of 
the argument against more integration with China, more 
engagement with China has been the revulsion at China's 
treatment of religious minorities.
    I just find the possibility that a French law could become 
a model for a Communist dictatorship and an instrument of 
persecution under the banner of law--I find that development so 
chilling that I would plead with the French Government to step 
back from this abyss and find the way to implement criminal law 
without confusing the freedom of conscience.
    Ms. Clark. I think that's--you've hit the nail on the head. 
This is one of the most disturbing facts about this law is how 
it's going to be exported. That needs to be heightened. I think 
these hearings have an important role in bringing that to the 
forefront of attention.
    Senator Smith. Thank you so much, Elizabeth, for being here 
and for your testimony.
    Rabbi Baker, the mike is yours.

  STATEMENT OF RABBI ANDREW BAKER, DIRECTOR OF INTERNATIONAL 
 JEWISH AFFAIRS, THE AMERICAN JEWISH COMMITTEE, WASHINGTON, DC

    Rabbi Baker. Thank you, Senator. I thank you. I thank 
Senator Biden for the opportunity to be here and for the 
leadership role that you have taken on the issue of religious 
freedom and anti-Semitism. They're not unrelated topics.
    Our American Jewish Committee leadership is coming to 
Washington beginning this evening for its 95th annual meeting. 
Part of that gathering will also include some 150 Jewish 
leaders from around the world, including the leadership of the 
communities in France and Austria, Germany, and elsewhere in 
Europe, and they've appreciated the opportunities in the past 
to meet with you and I know a number of them look forward to 
seeing you again this year.
    Surely a hallmark of American society and a reason for the 
vitality and well being of the American Jewish community in 
American religious life in general have been the constitutional 
guarantees of the free exercise of religion and protection from 
state interference. Additionally, the social and cultural 
environment that has developed over the years here in the 
United States is one that is respectful, appreciative of the 
diverse and pluralist nature of the country's many religious 
groups.
    I had the opportunity in a somewhat different role 14 years 
ago to serve as president of the Interfaith Conference of 
Metropolitan Washington, an umbrella group of Protestant, 
Catholic, Mormon, Jewish, and Muslim religious leaders, so one 
could see very much on the ground the expression of these 
positions. Really as a result of the unique conditions here 
Americans of very different faiths have found no contradiction 
in the individual expression of their religious beliefs, and 
yet the collective place they all have in our society.
    We certainly believe that the special legal and social 
framework that has worked so well to foster religious freedom 
in America is a model worth emulating, but we also realize that 
it may not be the only means to ensure such conditions 
elsewhere. Many countries do mandate direct government 
involvement in religious affairs. This may include endorsements 
of official state religion, collection and distribution of tax 
funds to maintain institutions to pay the salary of clergy, and 
laws governing their activities.
    I served until the end of last year as the European 
director for the American Jewish Committee so I could see 
firsthand much of how this was implemented in those European 
countries, and I know that this involvement on the face looks 
troublesome to those accustomed to the American tradition, but 
it does not automatically in any case mean that religious life 
is unduly inhibited or religious freedom restricted.
    Nevertheless, there is surely a point where regulation 
leads to unfair restrictions, and where efforts to protect the 
population from the cult-like activities of a few, the criminal 
activities of a few, will genuinely inhibit the religious 
practice of many more, and certainly you have identified this 
here this morning.
    We need to be on guard to the problems that can be created 
in such situations, and our American roots naturally commend us 
to err on the side of granting more open religious liberties. 
It is sometimes the case that government efforts to regulate 
religious affairs will distinguish between traditional or 
established religions on the one hand and newer, and perhaps 
more missionary-oriented groups on the other.
    Now, as a rule, Judaism is usually afforded a place among 
those traditional or established religions, but that by no 
means assures even Jewish groups that they are automatically 
immune from some of these problems. Depending on the country, 
depending on the legislation, we have heard voiced 
uncertainties, and concerns on the part of both liberal and 
progressive Jewish groups on one end of the spectrum and 
Orthodox Hasidic sects on the other end. Both of them have at 
times worried that their credentials, too, could be challenged.
    While others at this hearing, as Dr. Clark has done, may 
have voiced more specific attention to the matter in their 
presentation and in their research, we want to be clear that we 
share those concerns as well. At the same time the degree of 
religious freedom and openness that Jewish communities in 
Europe enjoy in their religious life and practice is also a 
function of the larger social environment and the general 
political conditions.
    In the 1970's and 1980's international terrorist groups 
pursuing an anti-Israel agenda frequently targeted synagogues 
and other Jewish institutions throughout Western Europe, and 
many were the scenes of bloody physical attacks. The question 
of religious freedom was as basic as the worshipers's physical 
safety to congregate. Today if you walk along the Avenue de la 
Paix in Strasbourg, the Seitensettengasse in Vienna, or 
Oranianbergerstrasse in Berlin, you will find one thing in 
common: the presence of heavily armed police standing guard in 
front of synagogues.
    With the signing of the Oslo Accords, the development of an 
active Middle East peace process, and the general reduction of 
political tensions, there was a gradual easing of anxiety, a 
feeling that such strict security measures, though perhaps 
still a wise precaution, could be relaxed. But this view has 
proven premature as of last autumn, with Yasir Arafat's turn 
toward violence and the advent of a new Palestinian Intifadah. 
Now the sounds of the Middle East conflict are again echoing in 
Europe.
    We've not yet seen a renewal of organized terrorist 
attacks, though no one is ruling it out, but there has already 
been sufficient cause for alarm. In France alone, home to about 
750,000 Jews, the largest Jewish community in Europe, there's 
been a marked increase in the number of individual attacks. In 
the first month after the new Palestinian Intifadah in October 
there were 15 Molotov cocktails thrown at synagogues, three of 
which were burnt to the ground. There were reports of over 90 
cases of vandalism, of arson, of verbal aggression.
    Now, the vast majority of the perpetrators were immigrants 
from Arab countries who were really intent on venting their 
anger, their emotional frustration at the conflict in the 
Middle East, by doing so on nearby targets. A massive increase 
in police protection has helped to stem the tide of these 
attacks, and they were condemned by political and religious 
leaders in the country as well, but there's a continued 
uneasiness in light of the fact that the country is home to 
several million immigrants from--or descendants of immigrants 
from--Arab countries among whom anti-Israel sentiment runs 
high.
    And that uneasiness is present in other Western European 
countries too, which have also seen similar attacks, and where 
the Middle East conflict has clearly heightened the general 
tension.
    Central and Eastern European countries, some of them new 
allies of America under the NATO umbrella, present a somewhat 
different picture. Decimated by the Holocaust, most of the 
Jewish survivors from these countries found refuge after the 
war here in America or in Israel. Those who remained were few 
in number and they quickly fell under the numbing tyranny of 
Communist repression, victims of both state sponsored anti-
Semitism and the official hostility toward all religious 
expression that was a hallmark of communism.
    When communism fell, many observers still doubted the 
possibility of any real restoration of Jewish life considering 
the damages that had been inflicted. Much to everyone's 
surprise, these past 10 years have seen the rebuilding of 
Jewish schools, synagogues, and other essential elements of 
Jewish communal life, but this does not mean that there is an 
absence of problems or that the revival of Jewish religious 
life is assured.
    Some of the most vicious crimes of the Holocaust were 
committed by local collaborators in these countries, sometimes 
acting individually in organized local battalions or as 
enlistees in the Waffen-SS. They willingly participated in the 
persecution, in the murder of their Jewish neighbors. In the 
immediate aftermath of the war Soviet authorities exacted a 
measure of justice on some of these criminals, even as they 
imposed their own harsh punishment on many, many innocent 
victims.
    For decades there has been no open, no objective 
examination of these events akin to what is taking place in the 
West. Only in the last 10 years has this even been 
theoretically possible, but the attention that has been given 
to the belated tracing of looted Holocaust assets, in large 
measure because of the support of the U.S. Congress of the 
American Government, has also forced the beginning of an 
objective evaluation of the history of this period. It has not 
been easy and there's much to overcome.
    In many cases people who were themselves victims of Soviet 
oppression could not accept the fact that their brethren also 
played the role of persecutors. Their selective view of 
history, clouded by the passing decades, aided by the Communist 
policy of removing all references to the particular Jewish 
tragedy under the Nazi crime has even allowed some to seek 
patriotic models in the autocratic leaders of the Nazi era. 
Nationalist parties in Slovakia have tried to rehabilitate the 
war time Nazi puppet leader, Joseph Tiso. Right-wing parties in 
Romania, some of them allied with the government today, 
continue to erect statues of the fascist Ion Antonescu. Efforts 
have begun in Hungary to restore the reputation of pro-Nazi 
World War II Prime Minister Laszlo Bardossy, someone who was 
responsible on his own for the enactment of anti-Jewish laws in 
Hungary.
    In the Baltic states, where incorporation into the Soviet 
Union in 1944 led to mass deportations and the forced transfer 
of peoples, there were those who viewed the period of Nazi 
control as a benign experience.
    It may be no surprise that in 1941 there were many citizens 
who welcomed German soldiers as liberators following the first 
Soviet occupation, but it should be cause for alarm when more 
than 50 years later significant numbers still hold to such 
views.
    Not long ago Latvian Legionnaires and Waffen-SS veterans 
found sympathetic government officials willing to join their 
parades. Only last year a plurality of the Lithuanian 
Parliament passed initial legislation, quickly rescinded after 
an international outcry, that declared the date of the Nazi 
invasion as the country's official day of independence. Many of 
the same elements, when confronted with the facts that local 
collaborators were involved in the murders of 75,000 Jews in 
Latvia, and 225,000 Jews in Lithuania, respond with the 
argument that they were in some way seeking ``revenge'' against 
the Communists, whose leadership they claimed was dominated by 
Jews. It is telling that one of the first papers written for 
the National Historical Commission in Lithuania is intended to 
dispel the myth of Jewish prominence in the NKVD and the 
Communist Party as though Communists of Jewish background were 
somehow pursuing a Jewish agenda in the first place.
    During these last several weeks we've also witnessed a wide 
public discussion in Poland engendered by the publication of a 
slim book detailing the account of a pogrom in the town of 
Jedwabne in 1941. This book, ``Neighbors,'' describes how the 
Polish citizens of one town turned on their fellow Jewish 
residents in a killing rampage that ended with a mass burning 
of perhaps as many as 1,000 to 1,600 people, innocent men, 
women, and children.
    Senior political leaders in Poland have responded in a 
fitting and appropriate manner with an acknowledgment of shame 
and apology, a commitment to seek out the truth factually and 
accurately. The memorial plaque in Jedwabne, which had 
attributed this crime--solely to German troops has been removed 
and a new one will be dedicated this summer with the 
participation of President Kwasniewski.
    Poland, which suffered greatly under the Nazis, has always 
viewed itself as a wholly innocent victim of the war. This one 
account, a commonplace occurrence perhaps elsewhere in Eastern 
Europe, has now challenged the self image of those in Poland. 
With the process of self reflection it has released really a 
largely positive response, but not entirely so.
    There are those in Poland, some political leaders, and some 
leaders of the Catholic clergy who see a dark side to this, a 
Jewish conspiracy behind the book's publication. They speak of 
an international campaign designed to embarrass Poland to 
demand new Jewish property claims.
    The architectural design of the new memorial plaque at 
Jedwabne has already been presented, but the written text 
itself has not yet been determined. There are fears that if the 
wording is too critical of Poles it will likely be defaced.
    Now, there are today by the most liberal estimates no more 
than 30,000 Jews in Poland. The number of Jews in the Baltic 
states combined perhaps does not even equal that. Throughout 
the entire region the numbers of Jews in these countries is 
rather small, yet in each of them there are active, organized 
Jewish communities which continue to develop in an almost 
pioneering spirit.
    But their future cannot be separated from that larger 
environment. Their religious freedom is directly dependent on 
the freedom and willingness of their non-Jewish neighbors to 
confront, to examine, to come to terms with their shared and at 
times tragic history. Only then--and much of this is being 
accomplished with the act of support and encouragement of this 
Government and of this body--only then do we really stand a 
chance that they and we will share a common and I hope a bright 
future.
    Thank you for this opportunity, Senator.
    [The prepared statement of Rabbi Baker follows:]

                PREPARED STATEMENT OF RABBI ANDREW BAKER

    I greatly appreciate the opportunity to testify before this 
Committee on the subject of religious freedom in Europe with particular 
reference to the state of the Jewish communities there. Surely, a 
hallmark of American society and a reason for the vitality and well 
being of the American Jewish community and American religious life in 
general have been the constitutional guarantees of the free exercise of 
religion and protection from state interference. Additionally, the 
social and cultural environment that has developed over the years here 
in the United States is one that is respectful of the diverse and 
pluralist nature of the country's many religious groups. As a result of 
these unique conditions, Americans of different faiths have found no 
contradiction in the individual expressions of their religious beliefs 
and their collective place in this society.
    We certainly believe that the special legal and social framework 
that has worked so well to foster religious freedom and life in America 
is a model worth emulating. But, we also realize that it may not be the 
only means to insure such conditions elsewhere. Many countries do 
mandate direct government involvement in religious affairs, which may 
include endorsements of an official state religion, the collection and 
distribution of tax funds to maintain religious institutions and 
provide salaries for clergy, and laws governing their activities. Such 
involvement may look troublesome to those accustomed to the American 
tradition, but it does not necessarily mean that religious life is 
inhibited or religious freedom is restricted.
    Nevertheless, there is also a point where regulation will lead to 
unfair restriction, and where efforts to protect a population from the 
cult-like activities of a few will genuinely inhibit the religious 
practice of many more. We should be on guard for the problems that can 
be created in such situations, and our American roots naturally commend 
us to err on the side of granting more religious liberties. It is 
sometimes the case that government efforts to regulate religious 
affairs will distinguish between traditional or established religions, 
on the one hand, and newer and perhaps more missionary-oriented groups, 
on the other. As a rule, Judaism is usually accorded a place among 
those established religions. But that does not mean Jewish groups are 
automatically immune from these problems, too. Depending on the 
country, uncertainties and ambiguities in the language have caused both 
liberal Jewish congregations and certain Orthodox Hasidic sects to 
worry at times that their credentials could also be challenged. While 
others at this hearing may devote more attention to this problem, we do 
share in their concern and want to be clear in saying so.
    At the same time, the degree of freedom and openness that Jewish 
communities in Europe enjoy in their religious life and practice is 
also a function of the larger, social environment and general political 
conditions. In the 1970s and 1980s, international terrorist groups 
pursuing an anti-Israel agenda frequently targeted synagogues and other 
Jewish institutions throughout Western Europe, and many were the scenes 
of bloody attacks. The question of religious freedom was as basic as 
the worshippers' physical safety to congregate. Today, if you walk 
along Avenue de la Paix in Strasbourg, Seitensettengasse in Vienna, or 
Oranianbergerstrasse in Berlin, you will find one thing in common--the 
presence of heavily armed police standing guard in front of synagogues.
    With the signing of the Oslo Accords, the development of an active 
Middle East peace process and the general reduction of political 
tensions, there was a gradual easing of anxiety, a feeling that such 
strict security measures, while still a wise precaution, could be 
relaxed. But, this view has proven premature as of last autumn, with 
Arafat's turn toward violence and the advent of a new Palestinian 
Intifadah. The sounds of the Middle East conflict are echoing again in 
Europe. We have not yet seen a renewal of organized terrorist attacks 
on Jewish targets--though no one is ruling it out--but there has 
already been sufficient cause for alarm.
    In France alone, home to about 750,000 Jews and the largest 
community in Europe, there has been a marked increase in the number of 
individual attacks. In the month of October there were fifteen Molotov 
cocktails thrown at synagogues, three of which burnt down, and reports 
of over 90 cases of vandalism, arson and verbal aggression. The vast 
majority of perpetrators were immigrants from Arab countries, who were 
intent on venting their anger over the Middle East conflict on 
convenient targets nearby. A massive increase in police protection 
helped to stem the tide of these attacks, which were condemned by 
political and religious leaders alike. But there is a continued 
uneasiness, in light of the fact that the country is home to several 
million immigrants, and descendants of immigrants, from Arab countries, 
among whom anti-Israel sentiment runs high. That uneasiness is present 
in other Western European countries, too, which have also seen similar 
attacks and where the Middle East conflict has heightened tensions.
    Central and Eastern European countries present a somewhat different 
picture. Decimated by the Holocaust, many Jewish survivors found refuge 
after the war in Israel or America. Those who remained were few in 
number and quickly fell under the numbing tyranny of Communist 
repression, victims of both state-sponsored anti-Semitism and an 
official hostility toward all religious expression. When Communism 
fell, many observers still doubted the possibility of any real 
restoration of Jewish life, considering the damages that had been 
inflicted. Much to everyone's surprise, these past ten years have seen 
the rebuilding of Jewish schools and synagogues and the other essential 
elements of Jewish communal life. But, this does not mean that there is 
an absence of problems or that the revival of Jewish religious life is 
assured.
    Some of the most vicious crimes of the Holocaust were committed by 
local collaborators in these countries. Sometimes acting individually, 
in organized local battalions, or as enlistees in the Waffen-SS, they 
willingly participated in the persecution and murder of their Jewish 
neighbors. In the immediate aftermath of the war, Soviet authorities 
exacted a measure of justice on some of these criminals even as they 
imposed their own harsh punishment on many other innocent victims. For 
decades there has been no open, objective examination of these events 
akin to what has taken place in the West. Only in the last ten years 
has this been even theoretically possible. But, the attention that has 
been given to the belated tracing of looted, Holocaust assets--in large 
measure because of the support of the United States Congress and the 
American Government--has also forced the beginnings of an objective 
evaluation of the history of this period. It has not been easy, and 
there is much to overcome.
    In many cases, people who were themselves victims of Soviet 
oppression could not accept that their brethren, too, played the role 
of persecutors. Their selective view of history, clouded by the passing 
decades and aided by Communist policy of removing all references to the 
particular Jewish tragedy from the Nazi crime, has even allowed some to 
seek patriotic models in the autocratic leaders of the Nazi era. 
Nationalist parties in Slovakia have tried to rehabilitate the wartime 
puppet leader, Josef Tiso; right wing parties in Romania--some even in 
government coalition--continue to erect statues of the fascist, Ion 
Antonescu; and efforts have begun in Hungary to restore the reputation 
of the pro-Nazi, World War II Prime Minister Laszlo Bardossy, who was 
responsible for enacting the country's own anti-Jewish measures.
    In the Baltic States, where incorporation into the Soviet Union in 
1944 led to mass deportations and the forced transfer of peoples, there 
were those who viewed the period of Nazi control as a benign 
experience. It may be no surprise that in 1941 there were many citizens 
who welcomed German soldiers as liberators following the first Soviet 
occupation. But, it should be cause for alarm when, more than fifty 
years later, significant numbers still hold to such views. Not long ago 
Latvian Legionnaires and Waffen-SS veterans found sympathetic 
government officials willing to join their parades in Riga. And only 
last year a plurality of the Lithuanian Parliament passed initial 
legislation--quickly rescinded after an international outcry--declaring 
the date of the Nazi invasion as the country's official ``day of 
independence.'' Many of the same elements, when confronted with the 
facts of local collaboration in the murder of 75,00 Latvian and 225,000 
Lithuanian Jews, respond with the argument that people were only 
seeking ``revenge'' against the Communists whose leadership, they 
claim, was dominated by Jews. It is telling that one of the first 
papers written for the National Historical Commission in Lithuania is 
intended to dispel the myth of Jewish prominence in the NKVD and the 
Communist Party, as though Communists of Jewish background were 
pursuing a Jewish agenda in the first place.
    During these last several weeks we have also witnessed a wide 
public discussion in Poland engendered by the publication of a slim 
book, detailing the account of a pogrom in the town of Jedwabne in 
1941. Neighbors describes how the Polish citizens of this one town 
turned on their fellow Jewish residents in a killing rampage that ended 
with the mass burning of perhaps as many as 1,600 men, women and 
children. Senior political leaders responded in a fitting and 
appropriate manner, with an acknowledgement of shame and apology and a 
commitment to seek out the truth factually and accurately. The memorial 
plaque in Jedwabne, which had attributed the atrocities to German 
troops, has been removed, and a new one will be dedicated this summer 
with the participation of the President. Poland, which suffered greatly 
under the Nazis, had always viewed itself as a wholly innocent victim 
of the war. This one account--a commonplace occurrence in other Eastern 
European countries--has now challenged the country's self-image. While 
the process of self-reflection it has released is largely positive, it 
is not entirely so. There are also those in Poland--some political 
figures and some Catholic clergy--who see a Jewish conspiracy behind 
the book's publication. They speak darkly of an international campaign 
designed to embarrass Poland and demand new Jewish property claims. The 
architectural design of the new memorial plaque at Jedwabne has already 
been presented, but the written text itself has not yet been 
determined. There are fears that, if the wording is ``too critical'' of 
Poles, it will likely be defaced.
    There are today, by even the most liberal estimates, no more than 
30,000 Jews in Poland. And that number is probably greater than the 
total number of Jews living in the three Baltic States. Throughout the 
entire region the numbers are small. Yet, in each of these countries 
there are active and organized Jewish communities, which continue to 
develop in an almost pioneering spirit. But, their future cannot be 
separated from their environment. Their religious freedom is directly 
dependent on the freedom and willingness of their non-Jewish neighbors 
to confront and examine and come to terms with their shared and, at 
times, tragic history. Only then do we stand a chance that they and we 
will share a common and, I hope, a bright future.
    In closing, I would like to thank the esteemed members of this 
Committee for allowing me the opportunity to share these remarks. In 
doing so I also want to call attention to the testimony presented to 
the Committee on Foreign Relations last year by the American Jewish 
Committee's Executive Director, David Harris, which addressed the broad 
subject of anti-Semitism in Europe and which continues to serve as 
invaluable background material to the issues discussed today.

    Senator Smith. Thank you, Rabbi, for a very profound 
testimony.
    I remember many things that you said, but the obvious 
conclusion I draw is that a dictatorship of the right or the 
left tends to beat up on the children of Israel. That's why 
it's so important that democracy does not give way to these 
basest of human malignancies of religious discrimination and 
hatreds.
    I recently accompanied Prime Minster Kostov of Bulgaria to 
the Holocaust Museum, and it was a privilege to be asked to go 
with him and to witness a display where--Bulgaria's record in 
the Holocaust certainly was not perfect. At least there was a 
point at which the Bulgarians refused to export the Bulgarian 
Jews to the extermination camps, and it was a proud moment for 
that Prime Minister and certainly the kind of spirit we hope 
flourishes.
    I would note, Rabbi, that when Russia recently passed a law 
supposedly on religious freedom--it was grossly misnamed. It 
was designed to restrict freedom--the Jewish faith was 
specifically included and exempted from the regulation. To the 
credit of the Jewish leaders it didn't buy off on the law and 
saw the discrimination aimed at other religious minorities and 
spoke out about it critically, and I salute them for that.
    I wonder if you could tell me where in the last decade the 
Jewish faith has flourished in Central and Eastern Europe? 
Where--have they done--who's reaching out? Who's helping? Who's 
trying to stop some of this stuff that seems to be spreading 
again?
    Rabbi Baker. We sometimes ascribe the situation facing 
these Jewish communities as having exchanged old problems for 
new problems. In the Soviet days anti-Semitism was often a 
state sponsored vehicle. Jewish involvement was limited, 
restricted, under police surveillance. If we were successful in 
easing the rights for Jews to emigrate or to liberalize in some 
measure their local conditions it really had to do with just 
dealing with the government leadership itself.
    Today there's an openness in this part of the world as 
we've seen. It's allowed for the possibility of these Jewish 
communities really to revive. As I said, their numbers are 
small in Central and Eastern Europe ranging from perhaps no 
more than a thousand or several hundred Jews in Estonia to the 
largest community in Hungary, maybe 120,000 or more, in no case 
anything but a small shadow of what existed there before the 
war.
    But I say there are new problems. The problems now are 
really not ones of government sponsored anti-Semitism, but 
rather a kind of open environment in which all manner of anti-
Semitic literature can now be published and extremist parties 
can now advocate even openly anti-Jewish or anti-Semitic 
themes. I would have to say that if there's a concern it's to 
try and see what one can draw from our experience here in 
positive ways and apply it there.
    One of the arguments we have made to government and 
political leaders throughout the region is to say that the 
issue is not necessarily one of the number of anti-Semites, of 
the number of racists or extremists in a community, in a 
society. The question really is how many anti anti-Semites are 
there? How many people are there that are willing, starting 
with senior government leaders, to speak out at the 
manifestations of these things? That's what we really need to 
work on.
    Senator Smith. Absolutely, and I think your testimony 
underscores in my mind the value of and importance of this 
hearing. While it's not focused on anti-Semitism, the Jewish 
people are really the barometer of how we're doing as the human 
species. They usually take the first punch, and we have to be 
extremely vigilant, and it is disappointing. We're talking 
about Western European countries for the most part here today, 
and the potential exists that laws could be enacted innocent in 
their motive but ultimately malignant in their application, and 
you can't be too careful.
    Rabbi Baker. I think the point that you had made and that 
Dr. Clark has made that many of the newer democracies in 
Central and Eastern Europe and the countries of the former 
Soviet Union, who have looked to European Union countries, to 
Western Europe, for guidance from everything from voting at the 
United Nations to economic and trade concerns will also see in 
this a model that is perhaps too unfairly thought of as benign 
and apply it in their societies as well.
    It may be that the Jewish communities in Western Europe, 
well established, and insular in any case, do not directly feel 
the impact of such laws, though as I said that's not 
necessarily always the case. But, surely the issues of how 
religion is regulated and controlled will have an impact, 
particularly in parts of the former Soviet Union where you 
still have large numbers of Jews only beginning the process of 
formal reorganization of communal life.
    Senator Smith. Rabbi, you are probably aware that some of 
the stereotypical depictions of Jewish people found in Nazi 
literature are now being published openly in newspapers in the 
Middle East, specifically in Egypt. Are you aware of that?
    Rabbi Baker. Yes, we are.
    Senator Smith. Has there been any response by the European 
community, the European Union, to such things? Is there any 
outcry at all?
    Rabbi Baker. It's an issue that was raised. One of our 
activities had been some months back, before the breakdown of 
the peace process, to evaluate textbooks that are being used in 
the Palestinian schools, textbooks that really have been 
produced with funding from the European Union, and there's 
clearly a double standard.
    In other words, where there have been issues about 
textbooks published in central Eastern European countries that 
have tended to gloss over important aspects of World War II 
history--Slovakia was one example--the European Union countries 
were very forceful in their criticism, but with regard to what 
is going on in the Middle East we have not seen that sort of 
response. Instead we typically would hear expressions that 
said, well, the peace process is moving along. These things 
will somehow resolve themselves or take care of themselves once 
that process is in place.
    Ironically now we've seen that the process has broken down 
probably in some measure due to the fact that people in the 
society at large have viewed these very anti-Semitic cartoons 
and these textbook messages that have virtually denied the 
existence of Israel. The fact is that we've seen how these 
things really have not been able to bring to the population at 
large a sense of cooperation and co-existence with the Jewish 
state.
    So I hope that perhaps now these issues will receive more 
attention in Europe, even though it in many ways is already a 
lost opportunity.
    Senator Smith. I can tell you there won't be peace in the 
Middle East if we're fostering this old fashioned, ancient 
anti-Semitism with Western money, and if children of the Middle 
East are taught to hate the Jewish people they'll hate the 
Jewish people as adults. We should not be financing that. We 
ought to be figuring out how to get beyond that, and that's the 
purpose of this hearing.
    So thank you, Rabbi. Thank you Dr. Clark, and the State 
Department, Mr. Parmly, for participating in this hearing. I 
think it's been fruitful.
    I hope some observe it in the national assembly and that 
vote is the right of that country to take, and--but its 
influence because of the stature of France and Belgium, other 
countries who contemplate such things, Germany, Austria, the 
Czech Republic. The influence of Western countries extends 
beyond borders, and I think we ought to appeal to the best 
instincts of European history, not its worst, and such laws 
potentially foster a future that repeats our worst history.
    With that, I thank you, and we're adjourned.
    [Whereupon, at 12:02 p.m., the hearing was adjourned.]


ANNUAL REPORT OF THE U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM

                              ----------                              


                         TUESDAY, JUNE 5, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:12 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback, presiding.
    Present: Senators Brownback, Sarbanes, Wellstone, and Bill 
Nelson.
    Senator Brownback. The hearing will come to order. Thank 
you all for joining us today. I thank Senator Wellstone for 
being here as well.
    This is the last hearing that I will be chairing for a 
little while, hopefully not for too long, although I suppose 
there would be a dispute on that. Senator Wellstone and I have 
worked well together, but this is the day, at the end of 
business today, that the Senate switches over.
    There has been some discussion about just continuing this 
day on, Paul--that we not adjourn this day and see if there is 
some legal fiction that we could create to extend. But I do not 
know if that will work.
    I am very touched. This is going to be my last hearing 
addressing the issue of international religious liberty, which 
has been a subject of great personal commitment and interest on 
my part during my time in the Senate.
    I would also like to express my deep gratitude to Senator 
Helms for his continuous and unfailing generosity in having 
allowed us to hold hearings like this over the past several 
years. I hope that these hearings have shed some light on the 
darkness of religious oppression and, hopefully and in some 
small way, have helped serve this great cause of expanded 
religious freedom throughout the world.
    I can say in my personal experience, that has indeed taken 
place. I just returned from Central Asia and the issues of 
religious freedom and religious oppression are very much on the 
leaders minds. I think it has to do, frankly, with a fair 
amount of the work that this Commission has done that has 
elevated and continued the focus on this very important topic.
    I would like to make this statement on the record today. I 
will certainly not be forsaking the topic of religious liberty. 
Also you, the Commission, can count on my continued support, 
and I believe as well all the members of this committee, 
certainly Senator Wellstone and others, for your noble efforts 
in promoting this most fundamental right of rights.
    Therefore, it is my pleasure to chair this hearing to 
examine the most recent religious liberty report \1\ issued by 
the U.S. Commission on International Religious Freedom on May 
1. This is the second annual report of the Commission and it 
covers extensive territory.
---------------------------------------------------------------------------
    \1\ The report can be accessed on the Commission's Website at 
www.uscirf.gov
---------------------------------------------------------------------------
    First, it broadly examines over two dozen countries, while 
specifically focusing on approximately half of those countries, 
which will be addressed today by the first three witnesses. The 
report also discusses issues important to religious liberty 
advocacy generally, including the extent to which capital 
market sanctions should be used as a diplomatic tool to promote 
religious freedom abroad. This topic, among other broad 
concerns, will be addressed by our last witness, Michael Young.
    Since the passage of the International Religious Freedom 
Act 3 years ago, increased focus has been given to religious 
persecution as never before, from the grassroots across America 
to the halls of Congress. This, in turn, has helped to insert 
the issue of religious liberty into the foreign policy debate, 
which before this legislation was a forgotten part of foreign 
policy debate.
    Ultimately, this has helped expand freedoms for embattled 
believers worldwide, as well as sparking individual campaigns 
of awareness in places such as the Sudan.
    Last and most importantly, I want to acknowledge the people 
who inspired these hearings and reports in the first place. 
They are the peaceful people of faith who stand against 
daunting odds in hostile countries. Many are forced to wage 
individual battles for this precious personal freedom, and 
individually stand alone with great courage against entire 
nation-states. I know this is true as I have met with many of 
them personally through my visits worldwide and sometimes when 
some have had the opportunity to travel here. It has been some 
of the most heartening and enjoyable meetings that I have had 
to witness and to see and to talk with such people of courage 
and character.
    This hearing is one more stone in the path to establishing 
religious freedom as a universal right for all peaceful but 
embattled believers wherever they may be. As a Nation blessed 
with incredible freedom, I consider this to be our reasonable 
duty. So, do not stop, dear friends. We just might win one of 
these days and have this well established as a human right of 
first order and magnitude in every country around the world.
    Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. We have been 
able to do some really good work together and we will continue 
to do some really good work together. I am not sure there will 
be much difference. The party control will switch, but in terms 
of our subcommittee, I do not think there will be any 
difference. I think it will just be a partnership, Sam.
    For me, human rights work is first priority. I care about 
this work as much as any work that I do as a Senator, and the 
work that you all did in passing the International Religious 
Freedom Act was so important.
    I do not want to take a lot of time because I just heard 
that there was an education meeting I have to go to in a while. 
I want to hear from the panelists. I would like to thank each 
of you for being here. This is a very important hearing, and so 
I will not go forward with any lengthy statement right now.
    Senator Brownback. Thank you.
    Now I would like to introduce our distinguished panel of 
speakers, all of whom have served as commissioners on the U.S. 
Commission on International Religious Freedom. Our first of 
four witnesses is Dr. Firuz Kazemzadeh, also the senior advisor 
to the National Spiritual Assembly of the Baha'is of the U.S. 
Our second speaker is Ms. Nina Shea, who is director of the 
Center for Religious Freedom at Freedom House. I also note that 
I consider Nina to be a great comrade, and I am glad she is on 
my side, if you know what I mean by that. Our third speaker is 
Rabbi David Saperstein, who is the director of the Religious 
Action Center of Reform Judaism. All three of these witnesses 
will talk about individual countries, including China, 
Indonesia, Iran, Sudan, North Korea, among others. Our fourth 
and last speaker is Mr. Michael K. Young who serves as the dean 
of the George Washington Law School. He will talk about broader 
topics related to religious liberty advocacy generally.
    Witnesses, I want to thank all of you for joining us today. 
Dr. Kazemzadeh, please enlighten us. We look forward to your 
testimony.

 STATEMENT OF DR. FIRUZ KAZEMZADEH, FORMER VICE CHAIRMAN, U.S. 
   COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM, AND SENIOR 
ADVISOR, NATIONAL SPIRITUAL ASSEMBLY OF THE BAHA'IS, ALTA LOMA, 
 CA; NINA SHEA, COMMISSIONER, U.S. COMMISSION ON INTERNATIONAL 
RELIGIOUS FREEDOM, AND DIRECTOR, CENTER FOR RELIGIOUS FREEDOM, 
 FREEDOM HOUSE, WASHINGTON, DC; RABBI DAVID SAPERSTEIN, FORMER 
   COMMISSIONER, U.S. COMMISSION ON INTERNATIONAL RELIGIOUS 
   FREEDOM, AND DIRECTOR, RELIGIOUS ACTION CENTER FOR REFORM 
 JUDAISM, WASHINGTON, DC; AND MICHAEL K. YOUNG, COMMISSIONER, 
 U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM, AND DEAN, 
   GEORGE WASHINGTON UNIVERSITY SCHOOL OF LAW, WASHINGTON, DC

    Dr. Kazemzadeh. Thank you and good morning, Mr. Chairman 
and Senator Wellstone. My name is Firuz Kazemzadeh, and it has 
been my honor to serve as the vice chairman of the U.S. 
Commission on International Religious Freedom over the last 
year.
    I would take the liberty of apologizing for my voice, which 
is a result of a cold I picked up last week in St. Petersburg.
    With me are past and current Commission members, Ms. Nina 
Shea and Dean Michael Young, as well as the former member and 
first chairman of the Commission, Rabbi David Saperstein. We 
shall jointly present the Commission's report.
    I wish to thank the committee for holding today's hearing 
on the Commission's second annual report that was issued on May 
1. Mr. Chairman, I respectfully request that the Commission's 
complete written statement and the executive summary of the 
Commission's report be entered into the record.
    Senator Brownback. Without objection, it will gladly be 
placed in the record.
    Dr. Kazemzadeh. The Commission's second annual report 
fulfills an important part of the Commission's statutory 
mandate to provide independent policy advice to the President, 
the Secretary of State, and Congress on ways to promote 
international religious freedom. Our job is to study the State 
Department's human rights and religious freedom reports and 
gather additional information through public hearings, meetings 
with nongovernmental and religious organizations, our own 
travel, and briefings by experts, and to make policy 
recommendations that the U.S. Government can implement to 
promote religious freedom abroad.
    Last year, we focused on three countries: China, Russia, 
and Sudan. This year, with a full year of work and the 
experience of our first report behind us, we were greatly able 
to expand our activities to cover more countries and some 
additional issues. This year's annual report touches on 
religious freedom issues in almost two dozen countries. Besides 
updating China, Russia, and Sudan, we have made specific 
recommendations on Egypt, India, Indonesia, Iran, North Korea, 
Nigeria, Pakistan, Saudi Arabia, and Vietnam. We have 
additionally explored the right to persuade another to change 
his or her religion and have made recommendations regarding 
U.S. capital markets and foreign assistance. Some of these 
reports and recommendations were issued during the past year 
and we have updated them for the inclusion in the annual 
report.
    I should note here that the countries included in the 
report are not the entire list of serious violators of 
religious freedom, nor are all of them equally bad. Russia, 
despite its problems, enjoys a much larger degree of religious 
freedom than many of the others. In Indonesia and Nigeria, the 
problem is not a central government that violates religious 
freedom, but a government that is not doing enough to prevent 
or punish violations by local or state officials and private 
citizens.
    There is no way I can adequately summarize an almost 200-
page report in these few remarks, so let me just hit a few of 
the highlights. These observations and recommendations 
represent the commissioners' consensus.
    The situation in China has grown worse over the past year 
as the government has intensified its crackdown on the Falun 
Gong spiritual movement, on unregistered Protestant and 
Catholic Christians, on Tibetan Buddhists, and on Uighur 
Muslims. The Commission believes that the U.S. Government must 
make religious freedom a high priority in bilateral relations. 
We reiterate last year's recommendations, including that the 
U.S. Government do all it can to ensure that Beijing is not 
selected as a site for the Olympic Games and we commend 
congressional efforts to that end.
    In India, a disturbing increase in violence against 
minority Christians and Muslims, committed mostly by Hindu 
nationalists, has coincided with the accession to power of the 
ruling BJP government, which relies on these nationalists for 
its core support. The U.S. Government must step up the human 
rights dialog with the Indian Government and bolster New 
Delhi's defense of religious minorities. U.S. foreign 
assistance funds should be used to support civic groups that 
teach and foster religious tolerance.
    As Indonesia struggles with centrifugal forces trying to 
tear the country asunder, the most serious religious violence 
has occurred in the Moluccan Islands where up to 8,000 
Christians and Muslims have died in sectarian violence. The 
violence reached new and more deadly levels when a self-
appointed militia of Muslim Laskar Jihad fighters arrived from 
outside the islands and stepped up attacks on Christians. The 
U.S. Government must press Indonesia to disarm and remove all 
outside forces from the Moluccas and step up efforts to promote 
reconciliation and secure justice.
    Like China, Iran has been named by the Secretary of State 
as a country of particular concern, one of the worst religious 
freedom violators. Baha'is, whom the government refuses to 
recognize as a religious minority, get the worst of it, but the 
situation is grim for Jews, Christians, Zoroastrians, and 
dissident Muslims as well. In its discussions with Iran, the 
United States must re-emphasize that improvements in religious 
freedom and other human rights are a prerequisite for 
normalization of the Iranian-American relations.
    The State Department notes that in North Korea genuine 
religious freedom does not exist. The government imprisons, 
tortures, and sometimes executes religious believers and 
suppresses all religious activity except that which serves 
state interests. The U.S. Government must insist on 
improvements in religious freedom and improved access for 
outside observers to monitor religious freedom conditions as a 
key part of any improvement in relations with Pyongyang.
    Ms. Shea. Thank you.
    Nigeria is, like Indonesia, a country returning to 
democracy, struggling to survive against forces that would 
strangle it in the cradle. The movement in several northern 
Nigerian states to expand the legal application of Shariah has 
sparked communal violence in which thousands have died and is a 
source of continuing volatility and tension between Muslims and 
Christians. The U.S. Government must bolster Nigeria's resolve 
to prevent communal violence and bring perpetrators to justice. 
U.S. foreign assistance should also be directed at building 
tolerance, and Washington should press the Nigerian Government 
to ensure equal treatment of all religious groups in the 
building and repairing of places of worship, in education, and 
in access to broadcast media.
    The Government of Pakistan is clearly not doing enough to 
protect religious freedom. Ahmadis are prevented by law from 
fully practicing their faith. Christians and other religious 
minorities are jailed or worse under the country's blasphemy 
law, and a system of separate electorates for religious 
minorities politically marginalizes them. In addition, a 
campaign of violence by Sunni radicals targets Shiite Muslims 
who then engage in reprisal attacks. The United States should 
press Pakistan to scrap the separate electorate system, 
eliminate abuses of the blasphemy law, and repeal laws that 
prevent discrimination targeting the Ahmadis.
    Freedom of religion in Russia remains threatened, with some 
1,500 religious groups facing liquidation for failing to meet a 
December 31, 2000 registration deadline. While the Putin 
government appears to be committed to the principle of 
religious freedom, it remains to be seen how vigorous it will 
be in addressing the nation's many religious freedom problems, 
which occur mainly at the local and regional levels. The 
Commission reaffirms the recommendations it made in last year's 
annual report regarding Russia, and recommends that the U.S. 
Government continue to monitor closely the conditions of 
religious freedom in Russia, including those mechanisms such as 
the Smith amendment to the Foreign Operations Appropriations 
bill, at this critical time.
    The Commission has found that the Government of Sudan is 
the world's most violent abuser of the right to freedom of 
religion and belief and that it is committing genocidal 
atrocities against the civilian population in the south and the 
Nuba Mountains. Tragically, the situation in Sudan has grown 
worse in the 12 months since release of last year's annual 
report. The Government of Sudan continues to commit egregious 
human rights abuses, including widespread bombing of civilian 
and humanitarian targets, abduction and enslavement of women 
and children by government-sponsored militias, manipulation of 
humanitarian assistance as a weapon of war, and severe 
restrictions on religious freedom. The relationship between oil 
and the government's actions has become clear.
    The U.S. Government should now step up humanitarian aid to 
southern Sudan and the National Democratic Alliance, the 
Sudanese opposition. Commissioner Al-Marayati has issued a 
concurring opinion in this regard. The President should appoint 
a prominent, high-level envoy to work for a just and peaceful 
settlement of the war, pursuant to the agreed Declaration of 
Principles, and to press for an end to the Sudanese 
Government's atrocities against civilians. But the United 
States should not appoint an ambassador to Khartoum at this 
time. That would only reward the regime for increased bad 
behavior.
    Foreign companies doing business in Sudan that want to 
offer securities in U.S. markets should be required to disclose 
the full extent of their dealings in that country. Mr. 
Chairman, Senator Wellstone, the Commission was pleased and 
heartened by the May 8 letter of Laura Unger of the SEC to 
Congressman Wolf that required such disclosures, and we urge 
that there be no attempt to dilute these requirements by the 
Director-designate Harvey Pitt. Because of the close 
relationship between oil and the Sudanese Government's human 
rights abuses, foreign companies involved in developing Sudan's 
oil and gas fields should be barred from issuing or listing 
securities in U.S. capital markets. And the United States 
should stop importing gum arabic from Sudan.
    The Commission commends the strong statements made in 
recent days by the President and the Secretary of State on the 
situation in Sudan and welcomes the President's appointment of 
a Special Humanitarian Coordinator for Sudan, which the 
President called a ``first step'' in addressing that situation, 
with ``more to follow.''
    Rabbi Saperstein. In Vietnam, Mr. Chairman, the government 
prohibits religious activity by those not affiliated with one 
of the six officially recognized religious organizations. 
Individuals have been detained, fined, imprisoned, and kept 
under surveillance for engaging in illegal--in other words, 
unauthorized--religious activities. In addition, the government 
uses the recognition process to monitor and control officially 
sanctioned religious groups. The U.S. Congress should ratify 
the pending Bilateral Trade Agreement with Vietnam only after 
it passes a sense of the Congress resolution calling for the 
Vietnamese Government to make substantial improvements in the 
protection of religious freedom or after the Vietnamese 
Government undertakes obligations to the United States to make 
such improvements. We have suggested a set of criteria for 
measuring religious freedom conditions. Until Hanoi makes 
progress in this regard, the U.S. Government should also 
withhold support for IMF and World Bank loans to Vietnam, 
except those for basic human needs. We note that the United 
States abstained from the recent IMF vote to approve loans to 
the Vietnamese Government.
    Due to the deadlines for printing of our annual report that 
we have submitted to you, we were not able to include our 
findings and recommendations with respect to countries that 
commissioners visited in late March: Saudi Arabia, Egypt, and 
Israel. On May 14, the Commission released an addendum to the 
second annual report.
    Freedom of religion does not exist in Saudi Arabia as, with 
few exceptions, the Saudi Government strictly prohibits the 
public practice of religion other than its interpretation and 
presentation of the Hanbali school of Sunni Islam. Although the 
government has taken a position that private worship is 
allowed, persons worshiping privately have at times been 
arrested, imprisoned, deported, harassed by the authorities and 
forced to go to great lengths to conceal private religious 
activity. The Commission reiterates the recommendation it made 
last July to former Secretary of State Albright, that Saudi 
Arabia be named a country of particular concern under the 
International Religious Freedom Act. The United States should 
also urge the Saudi Government to expand and safeguard the 
freedom to worship, to act to control abuses of the religious 
police, to allow human rights monitors access to the country, 
and to promote tolerance and inter-religious dialog.
    Although there have been some positive developments in the 
promotion of religious freedom in recent years in Egypt, the 
Commission finds that serious problems of discrimination 
against a number of religious groups still remain widespread. 
With respect to the Christian community, restrictions on church 
building and repair continue to exist and religiously based 
discrimination, particularly in government employment, the 
military and security services, remains a pervasive problem. 
Justice has still not been realized in the Al-Kosheh incident, 
and the underlying problems that contribute to the violence 
there have not been adequately resolved and addressed. Recently 
19 Baha'is were arrested on account of their religion and 8 are 
currently in prison. The Egyptian Government appears to cast 
too wide a net in its repression of those Muslims it deems to 
be a threat because they are fundamentalist, and religious 
activities such as wearing head scarves, growing beards, and 
attending religious study groups are at times considered by the 
government to be indicators of both the potential for violence 
and, more generally, a political threat to the existing order. 
The press continues to engage in virulent hate speech against 
certain groups such as Jews and Baha'is. In light of these 
problems, the U.S. Government should raise religious freedom 
issues at the highest levels with the Egyptian Government and 
urge them to accelerate progress in addressing those issues.
    The Commission sees its study of the situation in Israel 
and the Occupied Territories as a complex matter requiring 
additional work. The commissioners did not feel they were ready 
to make a formal report or recommendations. Commissioner Laila 
Al-Marayati issued a dissenting view.
    Mr. Young. Mr. Chairman, Senator Wellstone, in the course 
of examining the conditions of religious freedom and U.S. 
policy in several countries, the Commission has made 
recommendations regarding the specific areas in which religious 
freedom could be promoted through U.S. foreign assistance. 
These recommendations are in line with the provisions of the 
International Religious Freedom Act that explicitly endorse the 
use of foreign assistance funds to promote religious freedom. 
This can be done directly, through supporting legal advocacy, 
technical assistance, or human rights education, and indirectly 
through supporting programs such as democracy, civil society, 
rule of law, professional law enforcement, and judicial 
independence. At the same time, the Commission is concerned 
that U.S. assistance should not serve to undermine the 
protection of religious freedom or contribute to religious 
intolerance and recommends that U.S. foreign assistance is not 
used to support organizations that engage in violence that 
targets individuals on the basis of religion or that act as an 
instrument of official government policies of religious 
discrimination or to fund programs that discriminate against 
recipients or beneficiaries on the basis of religion.
    Further, on the question of access to U.S. capital markets, 
the Commission proposes that any American or foreign issuer of 
securities be required to disclose its business activities in 
any country designated by the Secretary of State under the 
International Religious Freedom Act as a country of particular 
concern. Such disclosure would inform institutional and private 
American investors of all the economic risks involved in 
purchasing shares of those companies. And the U.S. Government, 
including Congress, needs to study how foreign companies 
structure their securities offerings and manipulate corporate 
relationships to get around U.S. economic sanctions.
    But, in conclusion, before we take any questions you might 
have, I would like to make two final observations. First, the 
Commission was gravely disappointed to learn that the United 
States was not reelected as a voting member of the United 
Nations Commission on Human Rights this year. The mere fact 
that a country like Sudan, with its atrocious human rights 
record, can be and is a voting member of the commission while 
the United States is not is a symptom of a deeper problem 
growing within this international body. The United States has 
consistently spearheaded efforts to introduce resolutions that 
shine a spotlight on countries that violate human rights, 
particularly religious freedom. These resolutions often fail to 
gain needed support. Considering the human rights practices of 
some members of the U.N. Human Rights Commission, this is not 
surprising. However, what is even more disappointing is the 
conduct of traditional U.S. allies, such as members of the 
European Union, specifically their failure both to support such 
resolutions and earlier this month to support the membership of 
the United States on this important commission in which it has 
served since its creation in 1947. If the world cannot rely on 
an international body such as the U.N. Commission on Human 
Rights to condemn human rights violations when they occur, 
individual countries must take a stand. I think it is safe to 
predict that without the United States serving as a member of 
this commission, violations of religious freedom will be given 
far less attention and all too often ignored.
    Second, the terms of the present commissioners expired on 
May 14. These commissioners were a most politically, 
religiously, and professionally diverse group of people. Yet 
for 2 years, we worked harmoniously together to present to, 
first, the Clinton administration and now the Bush 
administration recommendations for promoting international 
religious freedom. I think that is testimony to my fellow 
commissioners' devotion to the cause of religious freedom, and 
I would like to thank them all personally for their commitment 
and their hard work and the privilege of serving with them.
    We would also like to thank Speaker Hastert and Senator 
Lott for having made timely reappointments to the Commission 
and urge that both the administration and the remaining 
senatorial and House appointments be made as soon as possible.
    Thank you, and my colleagues and I would now be happy to 
take any questions you might have.
    [The prepared statement of the Commission and the executive 
summary of the Commission's report follow:]

 PREPARED STATEMENT OF FIRUZ KAZEMZADEH, RABBI DAVID SAPERSTEIN, NINA 
                      SHEA, AND DEAN MICHAEL YOUNG

    Thank you and good morning, Mr. Chairman and members of the 
Committee. My name is Firuz Kazemzadeh and it has been my honor to 
serve as the Vice-Chairman of the U.S. Commission on International 
Religious Freedom over the last year. I wish to thank the Committee for 
holding today's hearing on the Commission's second Annual Report that 
was issued on April 30. Mr. Chairman, I respectfully request that the 
Commission's complete written statement and the executive summary of 
the Commission's report be entered into the record.
    The Commission's second Annual Report fulfills an important part of 
the Commission's statutory mandate to provide independent policy advice 
to the President, the Secretary of State, and Congress on ways to 
promote international religious freedom. Our job is to study the State 
Department's human rights and religious freedom reports and gather 
additional information--through public hearings, meetings with non-
governmental and religious organizations, our own travel, and briefings 
by experts--and to make policy recommendations that the U.S. Government 
can implement to promote religious freedom abroad.
    Last year, we focused on three countries--China, Russia, and Sudan. 
This year, with a full year of work and the experience of our first 
report behind us, we were able to greatly expand our activities to 
cover more countries and some additional issues. This year's Annual 
Report touches on religious-freedom issues in almost two dozen 
countries. Besides updating China, Russia, and Sudan, we have made 
specific recommendations on Egypt, India, Indonesia, Iran, North Korea, 
Nigeria, Pakistan, Saudi Arabia, and Vietnam. We have additionally 
explored the right to persuade another to change his or her religion 
and have made recommendations regarding U.S. capital markets and 
foreign assistance. Some of these reports and recommendations were 
issued during the past year, and we have updated them for inclusion in 
the Annual Report.
    I should note here that the countries included in the report are 
not the entire list of serious violators of religious freedom, nor are 
all of them equally bad. Russia, despite its problems, enjoys a much 
larger degree of religious freedom than many of the others. In 
Indonesia and Nigeria, the problem is not a central government that 
violates religious freedom, but a government that is not doing enough 
to prevent or punish violations by local or state officials and private 
citizens.
    There is no way I can adequately summarize an almost 200-page 
report in these few remarks this morning. So let me just hit a few of 
the highlights. These observations and recommendations represent the 
Commissioners' consensus.
    The situation in China has grown worse over the past year as the 
government has intensified its crackdown on the Falun Gong spiritual 
movement, on unregistered Protestant and Catholic Christians, on 
Tibetan Buddhists, and on Uighur Muslims. The Commission believes the 
U.S. Government must make religious freedom a higher priority in 
bilateral relations. We reiterate last year's recommendations, 
including that the U.S. Government do all it can to ensure that Beijing 
is not selected as a site for the Olympic Games, and we commend 
Congressional efforts to that end.
    In India, a disturbing increase in violence against minority 
Christians and Muslims, committed mostly by Hindu nationalists, has 
coincided with the accession to power of the ruling BJP government, 
which relies on these nationalists for its core support. The U.S. 
Government must step up the human-rights dialogue with the Indian 
government and bolster New Delhi's defense of religious minorities. 
U.S. foreign-assistance funds should be used to support civic groups 
that teach and foster religious tolerance.
    As Indonesia struggles with centrifugal forces trying to tear the 
country asunder, the most serious religious violence has occurred in 
the Moluccan Islands, where up to 8,000 Christians and Muslims have 
died in sectarian violence. The violence reached new and more-deadly 
levels when a self-appointed militia of Muslim Laskar Jihad fighters 
arrived from outside the islands and stepped up attacks on Christians. 
The U.S. Government must press Indonesia to disarm and remove all 
outside forces from the Moluccas and step up efforts to promote 
reconciliation and secure justice.
    Like China, Iran has been named by the Secretary of State as a 
``country of particular concern,'' one of the worst religious-freedom 
violators. Baha'is, whom the government refuses to recognize as a 
religious minority, get the worst of it, but the situation is grim for 
Jews, Christians, Zoroastrians, and dissident Muslims as well. In its 
discussions with Iran, the U.S. must re-emphasize that improvements in 
religious freedom and other human rights are a prerequisite for 
normalization of Iranian-American relations.
    The State Department notes that in North Korea, ``genuine religious 
freedom does not exist.'' The government imprisons, tortures, and 
sometimes executes religious believers and suppresses all religious 
activity except that which serves state interests. The U.S. Government 
must insist on improvements in religious freedom and improved access 
for outside observers to monitor religious-freedom conditions as a key 
part of any improvement in relations with Pyongyang.
    Nigeria is, like Indonesia, a country returning to democracy, 
struggling to survive against forces that would strangle it in the 
cradle. The movement in several northern Nigerian states to expand the 
legal application of Shariab has sparked communal violence in which 
thousands have died and is a source of continuing volatility and 
tension between Muslims and Christians. The U.S. Government must 
bolster Nigeria's resolve to prevent communal violence and bring 
perpetrators to justice. U.S. foreign assistance should also be 
directed at building tolerance, and Washington should press the 
Nigerian government to ensure equal treatment of all religious groups 
in the building and repairing of places of worship, in education, and 
in access to broadcast media.
    The government of Pakistan is clearly not doing enough to protect 
religious freedom. Ahmadis are prevented by law from fully practicing 
their faith; Christians and other religious minorities are jailed or 
worse under the country's blasphemy law; and a system of separate 
electorates for religious minorities politically marginalizes them. In 
addition, a campaign of violence by Sunni radicals targets Shiite 
Muslims, who then engage in reprisal attacks. The U.S. should press 
Pakistan to scrap the separate-electorate system, eliminate abuses of 
the blasphemy law, and repeal laws and prevent discrimination targeting 
the Ahmadis.
    Freedom of religion in Russia remains threatened, with some 1,500 
religious groups facing ``liquidation'' for failing to meet a December 
31, 2000, registration deadline. While the Putin government appears to 
be committed to the principle of religious freedom, it remains to be 
seen how vigorous it will be in addressing the nation's many religious-
freedom problems, which occur mainly at the local and regional levels. 
The Commission reaffirms the recommendations it made in last year's 
annual report regarding Russia, and recommends that the U.S. government 
continue to monitor closely the conditions of religious freedom in 
Russia, including through mechanisms such as the Smith Amendment to the 
Foreign Operations Appropriations bill, at this critical time.
    The Commission has found that the government of Sudan is the 
world's most violent abuser of the right to freedom of religion and 
belief and that it is committing genocidal atrocities against the 
civilian population in the south and the Nuba Mountains. Tragically, 
the situation in Sudan has grown worse in the 12 months since release 
of last year's Annual Report. The government of Sudan continues to 
commit egregious human rights abuses--including widespread bombing of 
civilian and humanitarian targets, abduction and enslavement of women 
and children by government-sponsored militias, manipulation of 
humanitarian assistance as a weapon of war, and severe restrictions on 
religious freedom. The relationship between oil and the government's 
actions has become clearer. The U.S. Government should now step up 
humanitarian aid to southern Sudan and the National Democratic 
Alliance, the Sudanese opposition. Commissioner Al-Marayati has issued 
a concurring opinion in this regard. The President should appoint a 
prominent, high-level envoy to work for a just and peaceful settlement 
of the war--pursuant to the agreed Declaration of Principles--and to 
press for an end to the Sudanese government's atrocities against 
civilians. But the United States should not appoint an ambassador to 
Khartoum at this time; that would only reward the regime for increased 
bad behavior.
    Foreign companies doing business in Sudan that want to offer 
securities in U.S. markets should be required to disclose the full 
extent of their dealings in that country. Because of the close 
relationship between oil and the Sudanese government's human rights 
abuses, foreign companies involved in developing Sudan's oil and gas 
fields should be barred from issuing or listing securities in U.S. 
capital markets. And the U.S. should stop importing gum arabic from 
Sudan.
    The Commission commends the strong statements made in recent days 
by the President and the Secretary of State on the situation in Sudan, 
and welcomes the President's appointment of a special humanitarian 
coordinator for Sudan, which the President called ``a first step'' in 
addressing that situation, with ``more to follow.''
    In Vietnam, the government prohibits religious activity by those 
not affiliated with one of the six officially recognized religious 
organizations. Individuals have been detained, fined, imprisoned, and 
kept under surveillance for engaging in ``illegal'' (in other words, 
unauthorized) religious activities. In addition, the government uses 
the recognition process to monitor and control officially sanctioned 
religious groups. The U.S. Congress should ratify the pending Bilateral 
Trade Agreement with Vietnam only after it passes a sense of the 
Congress resolution calling for the Vietnamese government to make 
substantial improvements in the protection of religious freedom, or 
after the Vietnamese government undertakes obligations to the United 
States to make such improvements. We've suggested a set of criteria for 
measuring religious-freedom conditions. Until Hanoi makes progress in 
this regard, the U.S. government should also withhold support for 
International Monetary Fund and World Bank loans to Vietnam, except 
those for basic human needs. We note that the U.S. abstained from the 
recent IMF vote to approve loans to the Vietnamese government.
    Due to the deadline for printing of the Annual Report, we were not 
able to include our findings and recommendations with respect to 
countries that commissioners visited in late March: Saudi Arabia, 
Egypt, and Israel. On May 14, the Commission released an addendum to 
the second Annual Report.
    Freedom of religion does not exist in Saudi Arabia, as, with few 
exceptions, the Saudi government strictly prohibits the public practice 
of religion other than its interpretation and presentation of the 
Hanbali school of Sunni Islam. Although the government has taken the 
position that private worship is allowed, persons worshipping privately 
have been arrested, imprisoned, deported, harassed by the authorities, 
and forced to go to great lengths to conceal private religious 
activity. The Commission reiterates the recommendation it made last 
July to former Secretary of State Albright that Saudi Arabia be named a 
country of particular concern under IRFA. The U.S. should also urge the 
Saudi government to expand and safeguard the freedom to worship; to act 
to control abuses of the religious police; to allow human rights 
monitors access to the country; and to promote tolerance and inter-
religious dialogue.
    Although there have been some positive developments in the 
promotion of religious freedom in recent years, the Commission finds 
serious problems of discrimination against a number of religious groups 
remain widespread in Egypt. With respect to the Christian community, 
restrictions on church building and repair continue to exist and 
religiously-based discrimination, particularly in government 
employment, the military and security services, remains a pervasive 
problem. Justice has still not been realized in the Al-Kosheh incident, 
and the underlying problems that contributed to the violence there have 
not been adequately addressed. Recently, 19 Baha'is were arrested on 
account of their religion and eight are currently in prison. The 
Egyptian government appears to cast too wide a net in its repression of 
those Muslims it deems to be a threat because they are 
``fundamentalist,'' and religious activities (such as wearing 
headscarves, growing beards, and attending religious study groups) are 
at times considered by the government to be indicators of both the 
potential for violence and, more generally, a political threat to the 
existing order. The press continues to engage in virulent hate speech 
against certain groups such as Jews and Baha'is. In light of these 
problems, the U.S. Government should raise religious freedom issues at 
the highest levels with the Egyptian government and urge them to 
accelerate progress in addressing those issues.
    The Commission sees its study of the situation in Israel and the 
Occupied Territories as a complex matter requiring additional work. 
Commissioners did not feel they were ready to make a formal report or 
recommendations. Commissioner Laila Al-Marayati issued a dissenting 
view.
    In the course of examining the conditions of religious freedom and 
U.S. policy in several countries the Commission has made 
recommendations regarding the specific areas in which religious freedom 
could be promoted through U.S. foreign assistance. These 
recommendations are in line with the provisions of IRFA that explicitly 
endorse the use of foreign assistance funds to promote religious 
freedom. This can be done directly, through supporting programs such as 
legal advocacy, technical assistance, or human rights education; and 
indirectly, by supporting democracy, civil society, rule of law, 
professional law enforcement, and judicial independence. At the same 
time, the Commission is concerned that U.S. assistance should not serve 
to undermine the protection of religious freedom or contribute to 
religious intolerance, and recommends that U.S. foreign assistance is 
not used to support organizations that engage in violence that targets 
individuals on the basis of religion or that act as an instrument of 
official government policies of religious discrimination, or to fund 
programs that discriminate against recipients or beneficiaries on the 
basis of religion.
    Further on the question of access to U.S. capital markets, the 
Commission proposes that any American or foreign issuer of securities 
be required to disclose its business activities in any country 
designated by the Secretary of State under IRFA as a country of 
particular concern. Such disclosure would inform institutional and 
private American investors of all the economic risks involved in 
purchasing those countries' securities. And the U.S. Government, 
including Congress, needs to study how foreign companies structure 
their securities offerings and manipulate corporate relationships to 
get around U.S. economic sanctions.
    Before we take any questions you might have, I'd like to make two 
observations. First, the Commission was gravely disappointed to learn 
that the United States was not reelected as a voting member of the 
United Nations Commission On Human Rights (UNCHR) this year. The mere 
fact that a country like Sudan, with its atrocious human rights record, 
can be and is a voting member on the UNCHR while the United States is 
not is a symptom of a deeper problem growing within this international 
body. The United States has consistently spearheaded efforts to 
introduce resolutions that shine a spotlight on countries that violate 
human rights, particularly religious freedom. These resolutions often 
fail to gain needed support. Considering the human rights practices of 
some of the members of the UNCHR, this is not surprising. However, what 
is even more disappointing is the conduct of traditional U.S. allies, 
such as members of the European Union--specifically, their failure both 
to support such resolutions and earlier this month to support the 
membership of the United States on this important commission in which 
it has served since its creation in 1947. If the world cannot rely on 
an international body such as the UNCHR to condemn human rights 
violations when they occur, individual countries must take a stand. I 
think it is safe to predict that without the United States serving as a 
member of the UNCHR, violations of religious freedom will be given far 
less attention and all too often ignored.
    Second, the terms of the present commissioners expired on May 14. 
These commissioners were a most politically, religiously, and 
professionally diverse group of people. Yet for two years, we worked 
harmoniously together to present to first the Clinton administration, 
and now the Bush administration, recommendations for promoting 
international religious freedom. I think that's testimony to my fellow 
commissioners' devotion to the cause of religious freedom. I'd like to 
personally thank them all for their commitment and hard work.
                                 ______
                                 

                           EXECUTIVE SUMMARY

                        I. COMMISSION ACTIVITIES

    The Commission considerably broadened its activities in its second 
full year, monitoring religious-freedom violations worldwide and 
increasing the number of countries it would study in depth. In July, 
the Commission wrote to the Secretary of State to recommend that Laos, 
Democratic People's Republic of Korea, Saudi Arabia, and Turkmenistan 
be added to the list of ``countries of particular concern'' [CPC] as 
provided for in the International Religious Freedom Act of 1998 (IRFA). 
It also recommended that Burma, China, Iran, Iraq, Sudan, the Milosevic 
regime in Serbia and the Taliban in Afghanistan remain on the list. In 
addition, it wrote that India, Pakistan, Uzbekistan, and Vietnam are 
serious violators of religious freedom deserving careful State 
Department monitoring; it also expressed concerns about sectarian 
violence in Indonesia and Nigeria.
    Commissioners testified several times before congressional 
committees; met with high-ranking State Department officials; held 
hearings on India, Pakistan, Vietnam, and Indonesia; traveled to 
several countries; met with foreign diplomats and officials (with State 
Department concurrence); interviewed numerous representatives of 
victims of religious-liberty violations; and received background 
briefings from U.S. diplomats, intelligence officials, and academic 
experts on the countries it studied for this report. Commissioners 
wrote several letters during the report period to Presidents Clinton 
and Bush; the Departments of State and the Treasury; the U.S. 
Securities and Exchange Commission; the Agency for International 
Development; the National Endowment for Democracy; and others making 
policy recommendations or requesting information on issues related to 
religious freedom discussed in this report.
    The Commission studied the freedoms to change religion and to 
engage in public religious expression and persuasion and found them 
often under restrictions that in some cases are egregious. In several 
countries the law prohibits a change in one's religion, and the 
violator is subject to criminal penalties, including death. The 
Commission explored several examples and degrees of restrictions on 
these freedoms and the difficult challenges they pose for U.S. 
policymakers. The Commission believes that these restrictions merit 
further investigation and careful consideration and will recommend to 
their successors that they continue substantial efforts to study and 
recommend policies to protect this important aspect of religious 
freedom.
    The Commission reported last year that it had not gained full 
access to cables to and from embassies because of the State 
Department's assertion of a legal position with which the Commission 
does not agree. The Department has since constructed a cumbersome and 
lengthy process whereby Commission staff are able to review cables 
after they have been redacted. The Commission has tried this system in 
good faith and concludes that it does not meet the Commission's needs. 
It can no longer acquiesce to this situation and will propose a more 
expeditious process to the State Department.
    The Commissioners' terms expire on May 14, 2001. They thank those 
who appointed them for the privilege of serving on this first 
Commission on International Religious Freedom and look forward to close 
cooperation with their successors.

                     II. PEOPLE'S REPUBLIC OF CHINA

    In the last year, the government of the People's Republic of China 
(PRC or China) has expanded its crackdown on unregistered religious 
communities and tightened its control on official religious 
organizations. The government has intensified its campaign against the 
Falun Gong movement and its followers. It apparently has also been 
involved in the confiscation and destruction of up to 3,000 
unregistered religious buildings and sites in southeastern China. 
Government control over the official Protestant and Catholic churches 
has increased. It continues to interfere in the training and selection 
of religious leaders and clergy. At the same time, the government 
continues to maintain tight control over Uighur Muslims and Tibetan 
Buddhists. Finally, cases of torture by government officials reportedly 
are on the rise.

Recommendations
          1. In its bilateral relations with China, the U.S. government 
        should persistently urge the Chinese government to take the 
        following steps to protect religious freedom:

                  1.1. Establish the freedom to engage in religious 
                activities (including the freedom for religious groups 
                to govern themselves and select their leaders without 
                interference, worship publicly, express and advocate 
                religious beliefs, and distribute religious literature) 
                outside state-controlled religious organizations and 
                eliminate controls on the activities of officially 
                registered organizations.

                  1.2. Permit unhindered access to religious persons 
                (including those imprisoned, detained, or under house 
                arrest and surveillance) by U.S. diplomatic personnel 
                and government officials, the U.S. Commission on 
                International Religious Freedom, and respected 
                international human rights organizations. Release 
                persons from imprisonment, detention, house arrest, or 
                intimidating surveillance who are so restricted on 
                account of their religious identities or activities.

                  1.3. Permit domestic Chinese religious organizations 
                and individuals to interact with foreign organizations 
                and individuals.

                  1.4. Cease discrimination against religious followers 
                in access to government benefits, including education, 
                employment, and health care.

                  1.5. Ratify the International Covenant on Civil and 
                Political Rights.

          2. The U.S. government should continue to work vigorously for 
        the resumption of a high-level unconditional human rights 
        dialogue with the PRC government when the Chinese government 
        demonstrates its commitment to protecting religious freedom, 
        for example, by addressing the items listed as 1.1 to 1.5 
        above.

          3. Until religious freedom significantly improves in China, 
        the U.S. government, led by the personal efforts of the 
        President of the United States, should initiate a resolution to 
        censure China at the annual meeting of the UN Commission on 
        Human Rights (UNCHR) and should support a sustained campaign to 
        convince other governments at the highest levels to support it.

          4. Companies that are doing business in China should be 
        required to disclose the nature and extent of that business in 
        connection with their access to U.S. capital markets.

          5. The U.S. government should raise the profile of conditions 
        of Uighur Muslims by addressing religious freedom and human 
        rights concerns in bilateral talks, by increasing the number of 
        educational opportunities available to Uighurs, and by 
        increasing radio broadcasts in the Uighur language.

          6. The U.S. government should use its diplomatic influence 
        with other governments to ensure that China is not selected as 
        a site for the International Olympic Games until it has made 
        significant and sustained improvements in religious freedom and 
        human rights.

          7. The State Department should identify specific individuals 
        and entities involved in violations of religious freedom in 
        China.

                               III. INDIA

    The U.S. Commission on International Religious Freedom has directed 
its attention to India in light of the disturbing increase in the past 
several years in severe violence against religious minorities in that 
country. The violence is especially troubling because it has coincided 
with the increase in political influence at the national and, in some 
places, the state level of the Sangh Parivar, a collection of 
exclusivist Hindu nationalist groups of which the current ruling party, 
the Bharatiya Janata Party, or BJP, is a part.
    India is religiously a very diverse country that generally respects 
religious freedom. India has a democratically elected government and is 
governed by the rule of law. However, although the BJP-led government 
may not be directly responsible for instigating the violence against 
religious minorities, there is concern that the government is not doing 
all that it could to pursue the perpetrators of the attacks and to 
counteract the prevailing climate of hostility, in some quarters in 
India, against these minority groups. Moreover, the increase of 
violence against persons and institutions based entirely on religious 
affiliation is an alarming development in India.

Recommendations
          1. The U.S. government should persistently press India to 
        pursue perpetrators of violent acts that target members of 
        religious groups.

          2. The U.S. government should make clear its concern to the 
        BJP-led government that virulent nationalist rhetoric is 
        fueling an atmosphere in which perpetrators believe they can 
        attack religious minorities with impunity. While fully 
        protecting freedom of expression, firm words and actions from 
        the government of India are required to counteract this belief.

          3. The U.S. government should support the stated policy of 
        the BJP to oppose any move toward the nationalization of any 
        religious institutions in India. The U.S. government should 
        also press the government of India to oppose any attempts to 
        interfere with or prohibit ties between religious communities 
        inside India and their co-religionists outside the country, and 
        any government efforts to regulate religious choice or 
        conversion.

          4. As the U.S. government pursues greater engagement with 
        India on a full range of issues, it should take advantage of 
        new opportunities for government-to-government cooperation and 
        communication on human rights, including religious freedom.

          5. The U.S. should press India to allow official visits from 
        government agencies concerned with human rights, including 
        religious freedom.

          6. The U.S. government should encourage and facilitate 
        private-sector communication and exchanges between Indian and 
        American religious groups and other non-governmental 
        organizations interested in religious freedom. The U.S. 
        government should also press India to allow visits from non-
        governmental human rights organizations and other groups 
        concerned with religious freedom.

          7. The U.S. government should allocate funds from its foreign 
        assistance programs for the promotion of education on religious 
        toleration and inclusiveness in India.

          8. In the course of working toward improvements in U.S.-
        Indian economic and trade relations, the U.S. government should 
        take into account the efforts of the Indian government to 
        protect religious freedom, prevent and punish violence against 
        religious minorities, and promote the rule of law. If progress 
        is made, the U.S. should seek ways in which it can respond 
        positively through enhanced economic ties.

                             IV. INDONESIA

    In recent years in Indonesia, numerous serious and tragic conflicts 
have emerged, including disputes in which religion or religious freedom 
is a factor. But only in the Moluccas did religion quickly become the 
defining factor behind the fighting that broke out in January 1999 
between the Muslim and Christian communities there. Since the fighting 
in the Moluccas began, from 5,000 to 8,000 people, Christians and 
Muslims, have been killed. Houses of worship of both communities have 
been destroyed. More than 500,000 people, both Christians and Muslims, 
have been forced to flee in fear of their lives. As this has 
transpired, there are numerous reports that elements from the 
Indonesian military and local police forces have done little to stop 
the fighting. Rather, it is alleged that they have contributed to and 
perhaps even initiated it. In addition, in the spring of 2000, 
thousands of fighters from an Indonesian Muslim group, called Laskar 
Jihad, arrived on the islands, raising the fighting there to new and 
more-deadly levels. The Indonesian government has also made little 
effort to halt the conflict; indeed, many observers contend it has not 
even given it serious attention.

Recommendations
          1. The U.S. government should put sustained pressure on the 
        Indonesian government and the Indonesian military to pay 
        serious attention to the brutal conflict in the Moluccas and to 
        make concerted efforts to pursue a reconciliation program that 
        ensures security for both sides and that perpetrators most 
        responsible for the killings are brought to justice.

          2. The U.S. government should press the government of 
        Indonesia to attend to the immediate removal of all outside 
        militia forces on the Moluccas, Muslim or Christian. The U.S. 
        government should also press Indonesia to see that these and 
        other groups are disarmed. Moreover, rogue elements in the 
        Indonesian security forces must be brought under control.

          3. The U.S. government should support the reconciliation 
        efforts of indigenous or international non-governmental 
        organizations (NGOs) in the Moluccas, including by increasing 
        its funding for such efforts through support for USAID's 
        democracy and good-governance programs, interreligious programs 
        in educational institutions, and other programs in Indonesia. 
        This should include working with respected Indonesian human 
        rights lawyers and academics to devise an emergency program for 
        restoring the rule of law in Indonesia, including in the 
        Moluccas. Within its assistance program to Indonesia, the U.S. 
        government should also increase assistance geared specifically 
        to both Christian and Muslim victims and refugees of the 
        conflict. The U.S. government should also press the government 
        of Indonesia to allow more access to the Moluccas for 
        humanitarian relief organizations, as well as for official 
        representatives or human rights monitors from such groups as 
        the Association of Southeast Asian Nations (ASEAN).

          4. The U.S. government should ensure that, if resumed, U.S.-
        Indonesian military ties be directed toward reform of the 
        Indonesian military.

          5. The U.S. government should earmark funds for the training 
        of Indonesian police and prosecutors in human rights, rule of 
        law, and crime investigation.

          6. The U.S. government should help support the safeguarding 
        of a free press in Ambon and other major areas in the Moluccas.

                                V. IRAN

    The conditions of religious freedom are very poor in Iran, 
particularly with respect to minority religious groups that are not 
officially recognized by the state and those perceived to be attempting 
to convert Muslims. The Constitution of the Islamic Republic of Iran 
provides that the official religion of Iran is Islam of the doctrine of 
the Twelver Jaafari School and stipulates that all laws and 
regulations, including the Constitution itself, must be based on 
Islamic criteria. Members of the Baha'i community suffer the worst 
forms of religious persecution at the hands of the state. The Iranian 
government does not recognize Baha'is as a religious minority; rather 
in its view, Baha'is constitute a political organization that was 
associated with the Shah's regime, is opposed to the Iranian 
Revolution, and engages in espionage activities on behalf of foreign 
countries, including Israel. Members of the officially-recognized non-
Muslim minorities Christians, Jews and Zoroastrians are subject to 
legal and other forms of official discrimination. Iranian Sunni leaders 
have alleged widespread abuses and restrictions on their religious 
practice. A number of senior Shiite religious leaders who have opposed 
various religious and/or political tenets and practices of the Iranian 
government have also reportedly been targets of state repression.

Recommendations

          1. The President or Secretary of State should reaffirm to the 
        government of Iran that improvement in religious freedom and 
        other human rights in that country is a prerequisite for the 
        complete relaxation of sanctions by and the normalization of 
        relations with the United States.

          2. The U.S. government should consistently, continuously and 
        vigorously press the government of Iran to improve conditions 
        of religious freedom, and should urge its European and other 
        allies to support advocacy for religious freedom in Iran. Voice 
        of America Farsi-language broadcasting into Iran should include 
        regular reporting on religious freedom in Iran and religious-
        freedom issues in general.

          3. The U.S. administration should continue to sponsor annual 
        resolutions of the United Nations Commission on Human Rights 
        condemning Iran's egregious and systematic violations of 
        religious freedom and should recruit the support of other 
        Commission member countries, until such violations cease.

          4. The United States should facilitate (through issuance of 
        visas) and remove barriers (such as the U.S. Department of 
        Justice policy of fingerprinting Iranians at ports of entry) to 
        unofficial cultural exchange e.g., academic, religious, 
        athletic, and scientific between the United States and Iran.

               VI. DEMOCRATIC PEOPLE'S REPUBLIC OF KOREA

    In the Democratic People's Republic of Korea (North Korea or the 
DPRK), despite the difficulty of obtaining reliable information on 
conditions in the country, it is apparent that religious freedom is 
non-existent. As the State Department Annual Report on International 
Religious Freedom--2000 states: ``Genuine religious freedom does not 
exist.'' The government has imprisoned religious believers and 
apparently suppresses all organized religious activity except that 
which serves the interests of the state. Since July 1999, there have 
been reports of torture and execution of religious believers, including 
between 12 and 23 Christians on account of their religion.

Recommendations
          1. In the course of further discussions with the North Korean 
        government, the U.S. government should strongly urge the DPRK 
        to reaffirm publicly its commitments under the International 
        Covenant on Civil and Political Rights.

          2. The U.S. government should press the DPRK to immediately 
        establish conditions whereby the status of religious freedom 
        can be assessed and progress be monitored.

          3. The U.S. government should ensure that any permanent peace 
        treaty between the parties to the Korean War include provisions 
        on religious freedom and nondiscrimination in the treatment of 
        religious minorities.

          4. The U.S. government should communicate to government of 
        the DPRK that substantial improvements in religious freedom and 
        other human rights in North Korea is a prerequisite for the 
        normalization of relations with and the complete relaxation of 
        sanctions by the United States.

          5. The U.S. government should communicate to the DPRK 
        government that when any U.S. diplomatic presence is opened in 
        North Korea, diplomatic personnel should have reasonable access 
        within the country to assess the state of religious freedom and 
        to monitor developments, and that a religious-freedom dialogue 
        should begin and take place at the highest policymaking levels.

          6. U.S. government officials should raise the issue of 
        religious freedom and the point that improvement of religious 
        freedom is a central component of the improvement of U.S.-DPRK 
        relations in all high-level diplomatic exchanges with the DPRK.

          7. The U.S. government should urge the Republic of Korea and 
        Japan, as part of trilateral coordination among the United 
        States and those two countries, to press human rights and 
        religious freedom in their talks with the DPRK as well.

                              VII. NIGERIA

    Religious life in Nigeria is public, vigorous, and diverse. 
Nevertheless, Nigeria continues to suffer outbursts of violent communal 
conflict along religious and ethnic lines, pervasive mistrust among 
religious and ethnic communities, and reportedly serious lapses in the 
protection of human rights generally. The threats to religious freedom, 
including reports of religious discrimination, are serious and ongoing. 
Moreover, recent events portend a possible deterioration in the 
conditions of religious freedom. Serious outbreaks of Muslim-Christian 
violence exacerbated by social, economic, and political conditions that 
foster religious and ethnic tensions threaten to divide further the 
populace along religious lines and undermine the foundations of 
religious freedom in Nigeria.
    The movement in several northern Nigerian states to expand the 
legal application of Shariah has sparked communal violence and is a 
source of continuing volatility and tension between Muslims and 
Christians at both the national and local levels. The manipulation of 
religious doctrines and religious sentiments for political ends by any 
party poses real dangers to religious freedom, as ethnic, tribal, or 
communal violence take on more explicitly religious overtones, and 
religious belief, identity, and practice become more of the target.

Recommendations
          1. The U.S. government should make the promotion of religious 
        freedom a high priority in its diplomatic discussions with the 
        Nigerian government and urge President Olusegun Obasanjo to 
        condemn publicly, forcefully, and consistently religious 
        intolerance and discrimination, and to promote religious 
        freedom and mutual understanding between Muslims and 
        Christians.

          2. The U.S. government should urge the Nigerian government to 
        counter religiously-based discrimination by doing the 
        following:

                  2.1. Investigate alleged discriminatory obstacles to 
                establishing and repairing places of worship and work 
                with state and local governments to remove such 
                obstacles where they exist;

                  2.2. Where offered in public schools, provide 
                religious instruction on a non-discriminatory basis and 
                without compelling any student with a religious 
                objection to attend; and

                  2.3. Ensure equal access to state-run radio and other 
                government media resources to all religious groups 
                without discrimination.

          3. The U.S. government should urge the Nigerian government to 
        monitor closely the implementation of Shariah-based criminal 
        law in northern states: (a) to ensure that it does not apply to 
        non-Muslims and respects the religious freedom rights of all 
        citizens, and (b) to prevent law enforcement activities in 
        northern states by any quasi-official or private corps of 
        Shariah enforcers.

          4. The U.S. government should urge the Nigerian government to 
        take effective steps to prevent and contain acts of communal 
        violence, prevent reprisal attacks, and bring those responsible 
        for such violence to justice.

          5. The U.S. government should, through its foreign assistance 
        programs:

                  5.1. Support programs aimed at preventing communal 
                conflict, defusing inter-religious tensions, and 
                promoting religious tolerance and respect for religious 
                freedom and the rule of law; and

                  5.2. Support programs that foster objective, non-
                inflammatory, and non-biased reporting by the Nigerian 
                media in a manner consistent with the right to free 
                expression.

          6. The U.S. government should make the promotion of religious 
        freedom a high priority and should strengthen its information-
        gathering efforts throughout Nigeria, particularly in northern 
        states and areas plagued by communal violence.

                             VIII. PAKISTAN

    Although the government of Pakistan does not appear to be engaged 
in a systematic effort to persecute religious minorities, it is clearly 
not doing enough to adequately protect the religious freedom of all of 
its citizens. Members of the Ahmadi religious community are prevented 
by law from engaging in the full practice of their faith. Religious 
minority groups (including Christians, Ahmadis, and Hindus) complain 
that they are politically marginalized by a system of separate 
electorates, and that this system exacerbates other religious-freedom 
problems. The criminal laws against blasphemy are abused, resulting in 
detention of and sometimes violence against religious minorities as 
well as the targeting of numerous Muslims on account of their religious 
beliefs. Finally, there is a substantial amount of sectarian violence, 
largely targeting Shia Muslims, committed by organized groups of 
religious extremists.

Recommendations
          1. The U.S. government should urge the Pakistani government 
        to sign and ratify the International Covenant on Civil and 
        Political Rights.

          2. The U.S. government in its bilateral relations with the 
        Pakistani government should take the position that the separate 
        electorate system for religious minorities is inconsistent with 
        democratic principles, the right to equal citizenship, and the 
        protection of political rights without discrimination on the 
        basis of religion as provided in the Universal Declaration of 
        Human Rights and the International Covenant on Civil and 
        Political Rights.

          3. The U.S. government in its bilateral relations with the 
        Pakistani government should take the position that the 
        existence and enforcement of laws targeting Ahmadis that 
        effectively criminalize the public practice of their faith 
        violates the right to freedom of religion guaranteed in the 
        Universal Declaration of Human Rights and the International 
        Covenant on Civil and Political Rights. The State Department 
        should closely monitor the application and enforcement of laws 
        targeting Ahmadis. The U.S. government should also urge the 
        Pakistani government to effectively prevent discrimination 
        against Ahmadis in government and military employment, and 
        education.

          4. The U.S. government should urge the Pakistani government 
        to implement procedural changes to the blasphemy laws that will 
        reduce and aim at ultimately eliminating their abuse. The State 
        Department should monitor the application and enforcement of 
        the blasphemy laws.

          5. The U.S. government should urge the Pakistani government 
        to take effective steps to prevent sectarian violence and 
        punish its perpetrators, including disarming militant groups 
        and any religious schools that provide weapons training. The 
        U.S. government should also urge the Pakistani government to 
        establish and support mechanisms of interfaith dialogue that 
        encompass all religious communities in Pakistan, and facilitate 
        widespread dissemination of the work and findings of this 
        dialogue.

          6. The U.S. government should urge the Pakistani government 
        to complete the denationalization of Christian schools and 
        colleges in Punjab province.

          7. The U.S. government should, through its own foreign 
        assistance and in conjunction with other donors, support the 
        following in Pakistan:

                  7.1. teacher training and other educational programs 
                in religious tolerance;

                  7.2. non-governmental organizations engaged in legal 
                advocacy to protect the right to freedom of religion, 
                in particular defense of persons charged under the 
                blasphemy and anti-Ahmadi laws;

                  7.3. judicial reform and law-enforcement training;

                  7.4. improvements in the public education system in 
                order to promote the availability and quality of 
                education for all Pakistanis.

                               IX. RUSSIA

    The future of religious freedom in Russia remains uncertain at a 
critical moment in that nation's history. The Russian federal 
government has yet to articulate a policy regarding the situation 
created by its decision not to extend once again the deadline for 
registration under a 1997 law that required religious organizations to 
register in order to operate as legal entities. Thus, some 1,500 
unregistered religious organizations are subject to ``liquidation'' by 
the state. In addition, the government of President Vladimir I. Putin 
has yet to establish an effective way to ensure that local and regional 
laws, policies, and practices do not abridge religious freedom.
    The Putin government appears to be committed to the principle of 
religious freedom, and, like the government of Boris Yeltsin before it, 
has taken several steps to mitigate religious freedom violations. 
Moreover, the Russian courts, led by the Russian Constitutional Court, 
have in some cases protected the right to religious freedom and 
provided remedies for the violation of that right, at times overturning 
local decisions and ameliorating some of the worst features of the 1997 
law. Nevertheless, it is uncertain how vigorous the Putin government 
will be in dealing with Russia's many religious-freedom problems.

Recommendations
          1. The U.S. government should continue to closely and 
        carefully monitor religious-freedom issues and raise them 
        forcefully with the Russian government at the highest levels. 
        The U.S. government should pay particular attention to the 
        Russian government's handling of:

                  1.1. unregistered religious organizations;

                  1.2. discriminatory laws, policies, and practices at 
                the local and provincial level;

                  1.3. anti-Semitic, anti-Muslim, and other extremist 
                activities targeting religious minorities;

                  1.4. visa, residence, and citizenship decisions 
                regarding foreign missionaries and other religious 
                workers;

                  1.5. internal disputes of religious communities; and

                  1.6. demands for a closer cooperation between any arm 
                of the state and the Russian Orthodox Church (ROC) that 
                would result in preferential treatment for the ROC or 
                official discrimination against other religious 
                communities.

          2. In light of the current conditions in Russia, the 
        Commission believes that all of its recommendations from May 
        2000 would still contribute to the promotion of religious 
        freedom there, and therefore reaffirms them. They include 
        supporting programs by Russians aimed at preventing religious 
        intolerance and discrimination and promoting exchanges between 
        U.S. and Russian religious leaders, as well as judges, lawyers, 
        and legal rights organizations. Moreover, the U.S. government 
        should make the humanitarian and human rights crisis in 
        Chechnya a high priority issue in its bilateral relations with 
        Russia.

          3. The Smith Amendment is an effective tool for promoting 
        religious freedom in Russia. The Commission recommends that in 
        weighing whether to make the certification required under that 
        law, the President should use the factors listed in 
        Recommendation 1, above.

                                X. SUDAN

    The situation in Sudan has grown worse since the release of the 
Commission's May 2000 report. The government of Sudan continues to 
commit egregious human rights abuses including widespread bombing of 
civilian and humanitarian targets, abduction and enslavement by 
government-sponsored militias, manipulation of humanitarian assistance 
as a weapon of war, and severe restrictions on religious freedom. The 
relationship between oil and the government's actions has become 
clearer. The Clinton administration did take some steps to address the 
situation, including successfully working to prevent Sudan from taking 
a seat at the UN Security Council and earmarking aid to communities in 
southern Sudan and to the political opposition (the National Democratic 
Alliance, or NDA). But the issue of Sudan for the most part remained on 
the back burner of U.S. policy, as the government's own interagency 
report acknowledged last year. Its actions fell well short of the 
comprehensive, sustained campaign that the Commission believes is 
commensurate with the Sudanese government's abuses. The Commission 
urges the Bush administration to mount such a campaign.

Recommendations
          1. The U.S. government should appoint a nationally prominent 
        individual who enjoys the trust and confidence of President 
        Bush and Secretary of State Colin L. Powell, and who has 
        appropriate authority and access whose sole responsibility is 
        directed to bringing about a peaceful and just settlement of 
        the war in Sudan and an end to the religious-freedom abuses and 
        humanitarian atrocities committed by the Sudanese government. 
        The United States should not appoint an ambassador to Sudan at 
        this time.

          2. The U.S. government should continue to increase the amount 
        of its humanitarian assistance that passes outside of Operation 
        Lifeline Sudan (OLS) and should press OLS to deliver aid 
        wherever it is needed, especially the Nuba Mountains, with or 
        without the approval of the Sudanese government.

          3. The U.S. government should increase its assistance to 
        southern Sudan and the NDA.

          4. The U.S. government should launch a major diplomatic 
        initiative aimed at enlisting international pressure to stop 
        the Sudanese government's bombing of civilian and humanitarian 
        targets; ground attacks on civilian villages, feeding centers, 
        and hospitals; slave raids; and instigation of tribal warfare.

          5. The U.S. government should strengthen economic sanctions 
        against Sudan and should urge other countries to adopt similar 
        policies. The U.S. should prohibit any foreign company from 
        raising capital or listing its securities in U.S. markets as 
        long as it is engaged in the development of oil and gas fields 
        in Sudan. The U.S. government should not issue licenses 
        permitting the import of gum arabic from Sudan to the United 
        States.

          6. Companies that are doing business in Sudan should be 
        required to disclose the nature and extent of that business in 
        connection with their access to U.S. capital markets.

          7. The U.S. government should intensify its support for peace 
        negotiations and for the Declaration of Principles, and make a 
        just and lasting peace a top priority of this administration's 
        global agenda.

          8. The U.S. government should work to increase human rights 
        and media reporting on abuses in Sudan, including supporting, 
        diplomatically and financially, the placement of human rights 
        monitors in southern Sudan and in surrounding countries where 
        refugee populations are present.

                              XI. VIETNAM

    Despite a marked increase in religious practice among the 
Vietnamese people in the last 10 years, the Vietnamese government 
continues to suppress organized religious activities forcefully and to 
monitor and control religious communities. The government prohibits 
religious activity by those not affiliated with one of the six 
officially recognized religious organizations. Individuals have been 
detained, fined, imprisoned, and kept under close surveillance by 
security forces for engaging in ``illegal'' religious activities. In 
addition, the government uses the recognition process to monitor and 
control officially sanctioned religious groups: restricting the 
procurement and distribution of religious literature, controlling 
religious training, and interfering with the selection of religious 
leaders.

Recommendations
          1. The U.S. Congress should ratify the U.S.-Vietnam Bilateral 
        Trade Agreement (BTA) only after it passes a sense of the 
        Congress resolution calling for the Vietnamese government to 
        make substantial improvements in the protection of religious 
        freedom or after the Vietnamese government undertakes 
        obligations to the United States to make such improvements. 
        Substantial improvements should be measured by the following 
        standards:

                  1.1. Release from imprisonment, detention, house 
                arrest, or intimidating surveillance persons who are so 
                restricted due to their religious identities or 
                activities.

                  1.2. Permit unhindered access to religious leaders by 
                U.S. diplomatic personnel and government officials, the 
                U.S. Commission on International Religious Freedom, and 
                respected international human rights organizations, 
                including, if requested, a return visit by the UN 
                Special Rapporteur on Religious Intolerance.

                  1.3. Establish the freedom to engage in religious 
                activities (including the freedom for religious groups 
                to govern themselves and select their leaders, worship 
                publicly, express and advocate religious beliefs, and 
                distribute religious literature) outside state-
                controlled religious organizations and eliminate 
                controls on the activities of officially registered 
                organizations. Allow indigenous religious communities 
                to conduct educational, charitable, and humanitarian 
                activities.

                  1.4. Permit religious groups to gather for annual 
                observances of primary religious holidays.

                  1.5. Return confiscated religious properties.

                  1.6. Permit domestic Vietnamese religious 
                organizations and individuals to interact with foreign 
                organizations and individuals.

          2. If Congress ratifies the BTA and approves conditional 
        Normal Trade Relations status for Vietnam, it should review 
        Vietnam's progress on the protection of religious freedom as 
        part of an annual review of that status.

          3. The United States should withhold its support for 
        International Monetary Fund (IMF) and World Bank loans to 
        Vietnam (except those providing for basic human needs) until 
        the government of Vietnam agrees to make substantial 
        improvements in the protection of religious freedom, as 
        measured by the standards itemized in 1.1 through 1.6 above.

          4. The U.S. government should make the protection of 
        religious freedom a high-priority issue in its bilateral 
        relations with Vietnam, including in the annual human rights 
        dialogue with the Vietnamese government and in future trade 
        negotiations, advocating substantial improvement in the 
        protection of religious freedom as measured by the standards 
        itemized as 1.1 through 1.6 above. The U.S. Department of State 
        should advise the office of the U.S. Trade Representative 
        (USTR) on the state of religious freedom and other human rights 
        in Vietnam, and should request that the USTR advance the U.S. 
        government's interests in human rights in and through the 
        negotiations and the provisions of any further trade agreement 
        or companion agreement between the two countries.

          5. The U.S. government should insist that the Vietnamese 
        government permit domestic Vietnamese religious and other non-
        governmental organizations to distribute their own and donated 
        aid.

          6. The U.S. government should, through its foreign assistance 
        and exchange programs, support individuals (and organizations, 
        if they exist) in Vietnam that are advocating human rights 
        (including religious freedom), the rule of law, and legal 
        reform. It should also support exchanges between Vietnamese 
        religious communities and U.S. religious and other non-
        governmental organizations concerned with religious freedom in 
        Vietnam.

          7. Until religious freedom significantly improves in Vietnam 
        (as measured by the standards itemized as 1.1 through 1.6, 
        above), the U.S. government should initiate or support a 
        resolution to censure Vietnam at the annual meeting of the UN 
        Commission on Human Rights and should engage in a sustained 
        campaign to persuade other governments to support it.

          8. The U.S. government should continue to support the 
        Association for Southeast Asian Nations (ASEAN) Human Rights 
        Working Group, and should encourage the Vietnamese government 
        to join the working group.

          9. The United States should continue to support Radio Free 
        Asia broadcasts into Vietnam as a vehicle for promoting 
        religious freedom and human rights in that

                       XII. U.S. CAPITAL MARKETS

    The Commission is concerned that significant and material 
information about companies doing business in Countries of Particular 
Concern (CPCs) is being withheld from the U.S. investing public. 
Foreign companies appear to be able to raise capital in U.S. markets 
without disclosing their business interests in CPCs, the risks 
associated therewith, and whether or not the proceeds from the sale of 
securities will be used to support its business in the CPC (and perhaps 
to support a foreign government that has been found to engage in or 
tolerate egregious religious-freedom violations). The problem is 
especially acute in the case of foreign companies because, unlike U.S. 
companies, foreign companies are generally permitted under U.S. law to 
do business in CPCs that are subject to comprehensive U.S. economic 
sanctions. Moreover, these companies can, in a wide range of 
circumstances, raise capital in U.S. markets without violating those 
sanctions. Thus, the issue of adequate disclosure is particularly 
important. Most important, however, is that reasonably prudent 
investors in U.S. financial markets may and should deem the information 
described above as material to their investment decisions.

Recommendations
          1. The United States should require any U.S. or foreign 
        issuer of securities that is doing business in a country that 
        has been designated as a CPC under the International Religious 
        Freedom Act of 1998 to disclose in any registration statement 
        filed with the Securities and Exchange Commission for any new 
        offering of securities the following information as to each 
        such country:

                  1.1. The nature and extent of the business that it 
                and its affiliates are conducting in the particular 
                CPC, (i) including any plans for expansion or 
                diversification and any business relationships with 
                agencies or instrumentalities of the government of the 
                CPC and (ii) specifying the identity of such agencies 
                or instrumentalities;

                  1.2. Whether it plans to use the proceeds of the sale 
                of the securities in connection with its business in 
                the CPC and, if so, how; and

                  1.3. All significant risk factors associated with 
                doing business in the CPC, including, but not limited 
                to: (i) the political, economic, and social conditions 
                inside the CPC, including the policies and practices of 
                the government of the CPC with respect to religious 
                freedom; (ii) the extent to which the business of the 
                issuer and its affiliates directly or indirectly 
                supports or facilitates those policies and practices; 
                and (iii) the potential for and likely impact of a 
                campaign by U.S. persons based on human rights concerns 
                to prevent the purchase or retention of securities of 
                the issuer, including a divestment campaign or 
                shareholder lawsuit.

          2. The United States should require any issuer that is doing 
        business in a CPC to disclose the information specified in 
        items 1.1 and 1.3 above in its filings with the SEC, including 
        its annual proxy statement or annual report, in the case of a 
        U.S. issuer, or its U.S. markets annual report, in the case of 
        a foreign issuer.

          3. The U.S. government, including Congress, should examine 
        how the structuring of securities transactions or the 
        manipulation of corporate relationships by non-U.S. issuers can 
        be used to circumvent U.S. economic sanctions.

                     XIII. U.S. FOREIGN ASSISTANCE

    In its first two years, the Commission has found significant 
religious-freedom violations in some countries that receive U.S. 
foreign assistance. Foreign aid can be an important tool to promote 
religious freedom either directly or indirectly. Foreign assistance can 
support programs directly concerned with promoting religious freedom, 
such as legal advocacy, technical assistance, or human rights 
education. It can also support religious freedom indirectly by 
supporting programs that promote, for example, democracy, civil 
society, rule of law, professional law enforcement, and judicial 
independence.

Recommendations
          1. No U.S. foreign assistance should be provided to any U.S. 
        or foreign person (governmental or non-governmental) who, in a 
        foreign country and at any time during the preceding 24-month 
        period, has (a) committed acts of violence targeting 
        individuals on account of their religious belief or practice, 
        or (b) served as an instrumentality of official government 
        policies of invidious religious discrimination. Furthermore, no 
        U.S. foreign assistance should be provided to any program that 
        discriminates against recipients or beneficiaries on the basis 
        of religion.

          2. The State Department, in its annual International 
        Religious Freedom Report (or in the classified addendum) should 
        identify (a) agencies or instrumentalities of foreign 
        governments engaged in violations of religious freedom, and (b) 
        nongovernmental entities engaged in violations of religious 
        freedom and describe the nature and extent of those violations.
xiv. the international religious freedom act and the state department's 
       ``annual report on international religious freedom--2000''
    Most of the mechanisms established by IRFA are now in their second 
year of existence, and in September 2000, four significant events 
occurred with respect to IRFA and U.S. foreign policy related to 
international religious freedom. First, the State Department issued its 
``Annual Report on International Religious Freedom--2000'' (2000 Annual 
Report), finding that: ``Much of the world's population lives in 
countries in which the right to religious freedom is restricted or 
prohibited.'' Second, then-Secretary of State Madeleine K. Albright 
announced those countries designated as ``countries of particular 
concern'' (CPC) the most egregious violators of religious freedom. 
Disappointingly, only those countries named as CPCs in 1999 were so 
designated in 2000, despite ample evidence that others had met the 
statutory threshold. Third, Secretary Albright announced the actions 
that she would take pursuant to IRFA to promote religious freedom in 
those countries designated as CPCs. Again disappointingly, no 
additional action was taken against any CPC. And fourth, Robert A. 
Seiple, the first Ambassador-at-Large for International Religious 
Freedom, stepped down from his office leaving his post vacant through 
the date this report went to print.
    The State Department has done a highly commendable job in its 
second annual report of telling the tragic story of religious 
persecution around the globe. This years report generally shows a more 
complete understanding of religious-freedom issues and extensive fact-
finding and verification. It reflects hard work on the ground.
    In other respects as well, this year's report is an improvement 
over last year, and the Commission is pleased that some of the 
recommendations made in its first annual report appear to have been 
adopted by the Department. The Commission's review of the Department's 
instruction cable sent to the embassies earlier this year also shows 
that the Department incorporated many of the Commission's suggestions 
in what information it solicited from embassy officials.
    However, problems remain. In some of the reports, the main thrust 
of what is happening and why is lost in detail and through omissions of 
important context. Another notable problem is that this year's report 
includes a section in the executive summary entitled ``Improvements in 
International Religious Freedom,'' the contents of which is also 
reported in the individual country chapters. The Commission believes 
that the reporting of such ``improvements'' must be carefully handled 
in order to avoid misrepresentation of the conditions of religious 
freedom.
    This report is the yardstick with which to measure the U.S. 
government's progress in meeting the goals of the statute. The 
Commission urges all those interested in promoting religious freedom to 
review carefully what the 2000 Annual Report says U.S. policy is toward 
violators of religious freedom and what the United States is doing to 
promote religious freedom. Unfortunately, the report shows that in 
several key countries--those in which significant religious-freedom 
violations occur--U.S. policies and actions do not reflect the gravity 
of the situation.
    The Commission is very disappointed that the Secretary did not name 
Laos, the Democratic People's Republic of Korea, Saudi Arabia, and 
Turkmenistan as CPCs. On July 28, 2000, the Commission wrote to the 
Secretary concluding that the governments of each of these four 
countries have engaged in particularly severe violations of religious 
freedom and thus meet the statutory threshold for designation as CPCs. 
The Commission's conclusion was based on the information that was 
available to it at that time. The information contained in the 2000 
Annual Report only confirms that these countries should be designated 
as CPCs.
    The Commission regrets the departure in September of Ambassador-at-
Large for International Religious Freedom Robert A. Seiple. The 
Ambassador-at-Large for International Religious Freedom is a very 
important part of U.S. policy initiatives to promote religious freedom 
abroad--the 2000 Annual Report calls his office ``the fulcrum of the 
effort to promote religious freedom.'' A prolonged vacancy in this 
crucial position threatens U.S. progress in promoting religious 
freedom. The Commission has urged President Bush to move quickly to 
fill this vacancy.
    The Commission reported last year that it had not gained full 
access to cables to and from embassies because of the Department's 
assertion of a legal position (executive privilege as to deliberative 
process within the administration) with which the Commission does not 
agree. The Department has since constructed a time-consuming, 
cumbersome, and lengthy process whereby Commission staff are able to 
review some cables after they have been redacted. This process means 
the Commission cannot see cables until months after they are sent, 
making it difficult for the Commission to formulate timely policy 
recommendations in fast-moving situations overseas. The Commission has 
tried this system in good faith and concludes that it does not meet the 
Commission's needs. It can no longer acquiesce to this situation and 
will propose a more-expeditious process to the State Department.
    International religious freedom has become an important foreign-
policy issue. The growing interest in the United States in the 
conditions of religious freedom around the globe and in the promotion 
of religious freedom through U.S. foreign policy is exemplified not 
only by the passage of IRFA but also by increasing public awareness of 
religious-freedom violations in countries such as China and Sudan. 
Secretary of State Powell has publicly stated that, in his view, the 
State Department has not been given adequate resources to perform its 
functions. The Commission believes that this is particularly true in 
the religious-freedom area. We further believe that in order to meet 
its obligations under IRFA and to ensure that the promotion of 
religious freedom remains a foreign-policy priority, adequate staff 
must be devoted to these tasks. The Commission urges the State 
Department to review its staffing of religious-freedom issues in U.S. 
embassies and in its regional and functional bureaus, particularly in 
the Office of International Religious Freedom, and provide an increase 
in staffing adequate to perform the important task of promoting 
international religious freedom.

    Senator Brownback. Thank you all very much.
    The report is an excellent report, very specific and with 
specific recommendations, which I think is all to its strength 
as well so that we can have those items in it. I really want to 
applaud you just in a general note at the outset of this. 
Having been working on this from the outset, what you folks 
have been able to do in a short period of time I think has been 
quite extraordinary, raising the visibility, raising the 
awareness, raising the issue repeatedly around the world and in 
a quality fashion. I think you have done an outstanding job and 
another report that is very, very good.
    Mr. Young, I want to start with you, if I could, on this 
disclosure of business activities that is taking place, which I 
think is a very positive step for people to have. What do you 
see continuing to take place? There have been initial steps 
that have been made to require disclosure. What additional 
steps do you feel need to take place on disclosure of business 
activity in countries of particular concern?
    Mr. Young. Mr. Chairman, as we read the SEC letter of May 
8, it requires disclosure on public offering documents, not 
necessarily all documents filed with the SEC, but public 
offering documents for business activities in countries that 
are under OFAC sanctions. We would expand that to include all 
public filings with the SEC, including annual reports, and 
would also expand it to also include, beyond just countries 
under OFAC sanctions, all countries that are designated as 
countries of particular concern under the International 
Religious Freedom Act. Now, there is some overlap between those 
two groups, obviously, but there are some countries that have 
been named countries of particular concern that are not 
necessarily under OFAC sanction right now.
    Senator Brownback. So, how many countries then would be 
designated under this current report that would have to be 
reporting on the activities?
    Mr. Young. Well, as we read the letter--I think the precise 
implementation remains to be seen--it would include countries 
for which there are OFAC sanctions like Burma and Sudan. It 
would also include, I believe, some countries that are under 
OFAC sanction for terrorism, not necessarily under sanction for 
international religious freedom. So, there would be some 
countries beyond those that would be named countries of 
particular concern and there would be some that would not be 
subject to it that would be named under the International 
Religious Freedom Act as countries of particular concern but 
are not under OFAC sanction right now.
    Senator Brownback. I think this is an important step 
forward so that investors will know this is what is happening 
in those countries where people are investing. They can have a 
feel and a sense for that, and that may be something that 
people will want to take into consideration in their investment 
decisions and they should have ready access to that 
information.
    Mr. Young. Well, we very much agree, Mr. Chairman. It also, 
we believe, would give the shareholders an opportunity to make 
their voice felt in terms of how they might prefer to see the 
business activities of that corporation conducted. It would 
also give the U.S. Government a chance to better monitor 
exactly what kind of business activities were engaged in in 
these countries, China, I think, being perhaps the principal 
example of one that would not be covered by the current SEC 
letter, as we understand it, but we think should be.
    Senator Brownback. Rabbi Saperstein, thank you for 
mentioning in this report Saudi Arabia. That has been a country 
that for some period of time we have more or less tried to say, 
well, we do not want to address this with the Saudis for 
whatever reasons, and there are a couple that come quickly to 
mind. But I think it is important for this report to be fair 
and be seen as objective, that it includes all the countries of 
concern. I appreciate that you have stepped up to address Saudi 
Arabia on that where we have not previously.
    Was that a particularly difficult decision by the 
Commission to address Saudi Arabia?
    Rabbi Saperstein. No. The Commission had been looking at 
the issue of Saudi Arabia for a while, and it actually, as long 
ago as last July in its letter to Secretary Albright, had made 
the recommendation that Saudi Arabia should be added as a 
country of particular concern. So, we were glad to have the 
opportunity to travel there, to meet with people firsthand, 
both from the government and the religious community. It helped 
fill in some of the blanks for us.
    After our studies on this issue over this past year and our 
visit to Saudi Arabia, we felt comfortable putting out the 
report that we did, which laid out the issues exactly. The 
Commission made, as we do with each of our reports, 
recommendations to the U.S. Government about how it can engage 
with the Saudi Government to begin to more effectively address 
both the deep-rooted issues of fundamental religious freedom 
and the pervasive limitations on it, and also recommendations 
of things that could be done around the edges that would make 
life a bit more palatable even within the restrictions that the 
Saudis have set. These include allowing clergy from outside the 
country to visit and to minister, even on private grounds, to 
the members of minority religious groups, as well as trying to 
encourage the government to check some of the abuses of the 
religious police who very often clearly step over the legal 
limits of what they are supposed to do by interfering with 
private worship and harassing people who are engaged in private 
worship in accordance with the government's rules. These are 
the kinds of interactions that we can do in the short run even 
while we are addressing some of the systematic long-term 
issues.
    Senator Brownback. Have you had any initial readout from 
the Saudi Government regarding these recommendations?
    Rabbi Saperstein. Not regarding the recommendations yet. We 
have not heard back from them. But in the concurrences that 
Cardinal McCarrick and I wrote--we each wrote concurrences to 
that part of the report--we pointed out that in our meetings in 
Saudi Arabia, there seemed to be some significant interest to 
engage in dialog with religious leaders from outside of Saudi 
Arabia about some of these issues and problems and, perhaps to 
address some of these issues we are talking about, in 
particular the issue of clergy being able to travel there. So, 
this kind of dialog--if what we heard is followed through--
would be a very positive sign. That is some indication that 
this whole process is having the kind of desired effect that we 
would want. Still, even if all of that is done, we have a long 
way to go until the criteria of the international treaties 
define as religious freedom--i.e., the criteria used under our 
International Religious Freedom Act--would be implemented in 
real life for the people of Saudi Arabia. This includes both 
the citizens and the foreign visitors and foreign workers who 
live there who are particularly restricted in their ability to 
practice their religion.
    Senator Brownback. I am glad you have started it because by 
us not addressing or ignoring it is just a glaring mistake on 
our part not to.
    Ms. Shea, the Sudan has been a focus that I have had and I 
know you have had for several years as well. It is just so 
lamentable that it continues to get worse. I had a staff 
member, Sharon Payt, who is here today, was there in December 
with a group that helped in the purchase back of 4,100 slaves. 
The stories that she brought back of individuals--these were, I 
think, all women and children who were redeemed slaves--were 
ghastly stories, women that had been enslaved for 5 to 7 years 
that had gone through mutilation, cuts on their neck, on their 
chest, gang rapes when they were taken, just the most 
horrifying circumstances and conditions that they had been 
through over a period of time. And it does not seem like any of 
this is abating any. There hopefully can be an increased global 
focus, and an increased U.S. focus maybe will bring more of 
that.
    I appreciate the specific recommendations that you are 
putting in here, and I am hopeful that we can continue to press 
these to where we could get some resolution.
    You talk about direct support to the south or to opposition 
groups. I would like for you to talk a little more in specifics 
about what the Commission would like to see us do on providing 
direct support to the opposition.
    Ms. Shea. Yes. We this year recommended that the United 
States should increase its assistance to southern Sudan and to 
the NDA in particular. We are urging this so that they can be 
prepared when peace talks do occur. We urge the United States 
to take the lead, to take a greater role now in developing a 
context for implementing the IGAD Declaration of Principles. We 
call for the appointment of a high-level special envoy who will 
lead this enterprise of trying to establish a just peace, a 
peace where religious freedom for the south, as well as the 
north, will be recognized.
    So, this is not lethal aid that we are recommending. We are 
also recommending that there be larger amounts of humanitarian 
aid going to the south in places that have not received aid 
under Operation Lifeline Sudan, and that there be greater aid 
channeled outside of Operation Lifeline Sudan. But, we are 
urging that there be aid for greater peace development.
    Senator Brownback. It seems to me in the reports I am 
receiving that there is getting to be an increased focus on the 
Sudan and there is a strong coalition coming together from all 
political spectrums. You have been around religious freedom 
work for a much longer period of time than I have. Does it seem 
we are finally getting to the critical mass of truly having 
this issue of religious freedom in the Sudan addressed?
    Ms. Shea. Well, thank you, Mr. Chairman, for that question. 
Yes, I think it does. I think we are getting to that point. We 
have had, as you say, a broad coalition that includes a number 
of human rights groups like Freedom House, my own group, the 
American Anti-slavery Association, Christian Solidarity 
International, and also religious groups from the Religious 
Action Center of Reform Judaism, which Rabbi Saperstein 
directs, to the U.S. Catholic Bishops Conference, to the 
Samaritan's Purse, and the Southern Baptist Convention, and the 
Episcopal Church's Justice and Peace Office.
    So, there are many, many groups involved in this 
enterprise, and we are all united in our belief that there 
should be a special envoy appointed, that peace should be a 
very high priority. This coalition is echoing what the 
Commission's recommendations are now and what they were last 
year as well, that there should be a tightening of sanctions on 
Sudan. Oil is a deep concern. It is directly related to the 
war. It has enabled the Sudanese Government to double its 
capacity to prosecute the war and its barbarism.
    This Commission determined that Sudan was the world's worst 
violator, the most violent persecutor of religious persecution, 
that its repression was at genocidal levels. And it has gotten 
even worse this year. So, the time for a grace period to see if 
the Government of Sudan is going to improve or get better is 
over. There needs to be a tightening of this oil loophole at 
this time to prevent it from carrying out these genocidal 
policies.
    We do not take lightly our recommendation for delisting 
from capital markets these foreign oil companies that are 
involved like PetroChina's parent company and, Talisman Energy 
from Canada. We do not make the suggestion lightly. We know 
that that is a major step, but this is an exceptional situation 
where there are genocidal policies involved and the oil is so 
directly linked to the persecution.
    Senator Brownback. Because they are clearing out areas 
where people are that are of different faiths or backgrounds, 
but that is also where the oil is.
    Ms. Shea. That is right. We see, in particular, the 
suffering of the Nuba people where there is a real, real 
concern and supporting facts that they are becoming extinct, if 
you will. These people are just being annihilated because the 
oil pipeline runs through their territory.
    Senator Brownback. I think this is going to be a 
particularly challenging country to the Bush administration, 
and they seem to be stepping up much more to it. I hope we can 
continue to offer specific items of what it is going to take 
for us to continue to press this issue on forward.
    Ms. Shea. Yes. If I may, again, underscore the importance 
of the statement by the Acting Director of SEC, Laura Unger, in 
her May 8 letter, in which she calls for further disclosure of 
the extent and relationship in Sudan of the oil companies' 
involvement in human rights atrocities. This same letter makes 
religious persecution a risk factor explicitly. So, that is 
very important. It is being treated very seriously by Wall 
Street, I have heard from good sources, it is seen as a major 
step.
    There is some concern now that the new Director of the SEC, 
Harvey Pitt, will be walking it back. I see Senator Sarbanes 
has joined us. Welcome, Senator. If you are to be the new 
chairman of the Banking Committee, I urge you to urge Harvey 
Pitt during his confirmation hearing as the new Chairman of the 
SEC not to walk back, not to dilute the brand new disclosure 
requirements for companies doing business in these sanctioned 
regimes.
    Thank you.
    Senator Brownback. Very good. Thank you.
    Dr. Kazemzadeh, what about Afghanistan? Did you look at 
Afghanistan and the lack of religious freedom there?
    Dr. Kazemzadeh. Yes, we did. Of course, in Afghanistan the 
situation is seemingly hopeless. The government is not fully in 
control of its own territory, and the government is the 
perpetrator too. There is oppression of all religious groups 
including Muslims. The Shiite Muslims suffer just as much as 
others. The latest news, of course, is that Hindus are supposed 
to wear distinctive clothing, which only a few weeks ago the 
Taliban Government denied.
    The Commission's recommendations on Afghanistan are 
essentially that it be proclaimed a country of particular 
concern, and we have written to Secretary Albright about this 
because Afghanistan is, perhaps next to Sudan, the greatest 
violator of religious freedom. I say next to Sudan not because 
of the intensity of the persecution of other groups but because 
in Afghanistan there are no such large minorities whom you 
could possibly exterminate. So, it is only a matter of degree 
and capacity.
    Senator Brownback. I wanted to ask you about an issue I 
raised last year when you issued your report. Are you having 
any problems regarding the disclosure of cable traffic by the 
State Department or others to the Commission? Are you having 
any difficulty getting the information you need?
    Rabbi Saperstein Mr. Chairman, I am glad that you asked 
that question. In general, we have had good cooperation between 
the State Department, both of the last administration and this 
administration, with our work.
    One of the nagging, bewildering, and counterproductive 
problems, of the few problems that we have had, has been on 
this issue of access to cables. Even those cables to which 
either the commissioners and/or the staff have full security 
clearance, the State Department's procedure has been to have 
them redacted. They are being redacted by people with the same 
security levels, and perhaps sometimes even lesser security 
levels, before we can see them. And that process takes a lot of 
time. It means the information we get is outdated and often not 
effective. We are seeing only what the particular staff person 
that did the redaction thought appropriate.
    We believe this is totally out of keeping with what the 
intent of Congress was in creating the Commission and in asking 
the government agencies to cooperate with the Commission in 
providing information to them. We have urged the State 
Department to change this procedure and we would be deeply 
appreciative of anything that you or this committee could do to 
be helpful in facilitating this frustrating and bewildering 
problem that we continue to face.
    Senator Brownback. Well, you should have access to that 
information, and we will attempt to provide additional support 
for you to be able to get that information as you need it.
    Rabbi Saperstein. Thank you, Mr. Chairman.
    Senator Brownback. Senator Sarbanes.
    Senator Sarbanes. Well, thank you very much, Mr. Chairman. 
First of all, I want to commend you for holding this hearing. I 
know this is a subject in which you have had a longstanding 
interest and have done considerable work. I am glad we had this 
chance to survey the situation under Senator Brownback's 
chairmanship here. I do not expect the committee's interest to 
lessen in any way with the changeover. Conceivably it might 
even intensify, although we have tried to follow this issue 
quite closely.
    I regard the International Religious Freedom Act, the one 
we passed in 1998, signed into law in October, as an extremely 
significant act, as I think the panel members know from at 
least the previous appearance of some of them before the 
committee. We assume that the new administration is working on 
getting an ambassador-at-large at the State Department in order 
to fill that position. Does the Commission know where they 
stand on that? Do you have any indications at all?
    Rabbi Saperstein. Not yet, Mr. Sarbanes.
    Senator Sarbanes. I am interested in exactly the status of 
the Commission. Did you touch upon that in your statements? I 
apologize. I was not able to be here right at the beginning. 
Was that touched upon?
    Rabbi Saperstein. We did not really address that issue and 
we would be delighted to discuss that.
    Senator Sarbanes. Well, am I correct? There are 10 members 
of the Commission: the ambassador, in a sense, ex officio, 
without a vote, and then nine other members. Is that correct?
    Rabbi Saperstein. That is correct.
    Senator Sarbanes. Are Ms. Shea and Dean Young the only two 
Commission members at the moment?
    Rabbi Saperstein. That is true.
    Senator Sarbanes. Well, that is not a very good state of 
affairs. Do you want to do that, Rabbi Saperstein? Who wants to 
outline that? You law school deans always want to talk about 
the legalities.
    Rabbi Saperstein. And law school professors like me give 
way to the deans.
    Mr. Young. Ms. Shea and I would be happy to run the 
Commission by ourselves.
    Unfortunately, as it turns out, with the legislation, we 
require a quorum of at least six members to take any action at 
all. So, we really are disabled from doing anything until the 
remaining appointments are made.
    The appointments that remain to be made are the three 
appointments from the White House and the two Democratic 
senatorial appointments and the two House Democratic 
appointments. So, we really do have seven left to be appointed. 
We hope that that will happen very, very soon because we really 
are basically unable to make any recommendations or take any 
official action on the part of the Commission until at least 
four more appointments are made.
    Senator Sarbanes. When did all these terms end?
    Mr. Young. They all expired on May 14.
    Senator Sarbanes. Now, I take it that you are recommending 
in a reauthorization we do staggered terms. Is that correct?
    Rabbi Saperstein. Staggered terms would obviously obviate 
this problem. So, that would be a helpful thing for the 
Congress to do here. It is a real problem. The Democratic 
appointments from the House and the Senate have not been made 
and the three White House appointments have not been made. And 
that, on top of the absence of the ambassador-at-large, is 
deeply frustrating. It is really grinding this important work 
to a halt. So, getting the ambassador appointed as soon as 
possible and these appointments made is vitally important. And 
to obviate the problem and mitigate it in the future, staggered 
terms would help significantly. That is part of several pieces 
of technical corrections that we have requested be made.
    Senator Sarbanes. Now, you have an authorization until 
when?
    Rabbi Saperstein. Through this fiscal year.
    Senator Sarbanes. Only this fiscal year?
    Rabbi Saperstein. Yes. The multi-year authorization that 
was in the original legislation was changed when another set of 
technical amendments were made. That was not our recommendation 
that that be changed. Keeping it would have made things a 
little bit easier.
    The other question is where the appropriations will be done 
out of. We have made some progress with the leadership of the 
House indicating that they will be recommending we be brought 
under the Commerce, Justice and State appropriations. We would 
hope that that would be something the Senate would do as well. 
Anything, again, this committee could do to see that that is 
taken care of would be of enormous help to us. Because of the 
idiosyncracy of the circumstances of how we got funded by 
supplemental legislation originally, we were not in anyone's 
home, and we need to have that done. So, that is another place 
that you can be of significant assistance to the work of the 
Commission.
    Senator Sarbanes. Now, what kind of authorization are you 
seeking?
    Rabbi Saperstein. This will be our third year. The budgets 
have been at the $3 million range.
    Senator Sarbanes. No. I want to do the authorization first. 
You are going to lose your authorization at the end of this 
fiscal year.
    Rabbi Saperstein. Correct.
    Senator Sarbanes. So, you want to be reauthorized for how 
long? What is your recommendation on reauthorization? Forever.
    Rabbi Saperstein. Obviously, ideally a kind of multi-year 
authorization--I believe in the original legislation it was a 
4-year authorization until the sunset of the Commission was 
supposed to kick in. We hope that that sunset provision will be 
lifted because we think that the value of this Commission has 
been clearly affirmed by its work. So, we hope, first, the 
sunset provision will be lifted, and again, some kind of multi-
year authorization that you regard as appropriate to the nature 
of this work would be enacted for the future.
    The level is still a $3 million authorization and 
appropriation for which we are looking for.
    Senator Sarbanes. Now, your appropriated for $3 million 
this year?
    Rabbi Saperstein. Permit me just 1 second on this. Because 
we began late the first year of operation, we ended up with $1 
million that had not been spent. We were given a $2 million 
appropriation last year to give us the $3 million that we are 
spending this year. We are asking for $2.9 million for this 
coming year. That consistently follows where we have been 
spending the resources allocated to us to do our work.
    Senator Sarbanes. You are asking for $2.9 million for the 
fiscal year beginning next October 1?
    Rabbi Saperstein. That is correct, for fiscal year 2002: 
$2,949,000.
    Senator Sarbanes. What do you have for this year?
    Rabbi Saperstein. For this year, it was a $2 million 
appropriation added to the $1 million appropriated the first 
year that we still had available. So, the effect was a $3 
million appropriation.
    Senator Sarbanes. Now, am I correct that the administration 
in its budget has provided $3 million?
    Rabbi Saperstein. That is correct.
    Senator Sarbanes. Well, I hope this is a matter we can pay 
attention to in short order, the authorizations and the 
appropriations.
    On the appropriation, at the moment you are just kind of 
floating around, getting your appropriation. You are not part 
of a particular----
    Rabbi Saperstein. That is correct. That is why if we can be 
part of the Commerce, Justice, and State appropriations, that 
is the natural home for us. As I said, some of the leadership 
over on the House side has indicated that would be their hope 
and will be their recommendation, and we hope this committee 
can be helpful to us formally or informally in achieving the 
same result here.
    Senator Sarbanes. Now, on the staggered terms, what is it 
you are providing for? Three-year terms and three of them each 
year or what? What is your recommendation on that score?
    Rabbi Saperstein. With your permission, I want to turn to 
the staff to see exactly. We talked about the concept and I am 
not sure exactly where the formulation is now. So, let me ask.
    The request is for this to be implemented in two stages. 
The first is a 2-year term with a 1-year possible 
reappointment, and then from that point on, the group will be 
split half and half. We are all off now. In other words, 
everyone would be reappointed to a 2-year term, with a 
possibility of a 1-year reappointment, but at that time then 
split the group into 2-year appointments for five and then 
stagger them. That is why the 1 year would apply, let us say, 
four of them, 2 years to five, and from that point on, it will 
be 2 years every other year for either four or five.
    Senator Sarbanes. What have you been getting?
    Rabbi Saperstein. It was all of us appointed for 2 years, 
the term ending on May 14. On May 14, we all went out of 
office, and for a period of time, there was no one who was a 
commissioner. Since that time, Mr. Hastert and Senator Lott 
have made appointments of Dean Young and Nina Shea to be their 
appointments. Those are single appointments.
    Senator Sarbanes. I often criticize their judgment, but 
certainly not in this case.
    Rabbi Saperstein. And appropriately so. These are wonderful 
appointments that carry forth the work.
    But the way it is set up, the White House has three 
appointments, and whichever party does not control the White 
House has two appointments in the House and the Senate. None of 
those seven has been made yet.
    Senator Sarbanes. Well, we will work on that.
    Rabbi Saperstein. Thank you, sir.
    Senator Sarbanes. Mr. Chairman, if my colleagues would 
indulge me, I have two other questions I would like to ask.
    Senator Brownback. Yes, please.
    Senator Sarbanes. Ms. Shea, I caught you at the tail end. 
Why do you not lay out for me what you want me to ask Harvey 
Pitt?
    Ms. Shea. Thank you, Mr. Sarbanes.
    Senator Sarbanes. I think I know, but why do you not give 
it to me.
    Ms. Shea. Well, as you know, Sudan has been a major focus 
of this Commission, and we are very concerned about the fact 
that a terrible, drastic situation has gotten worse in terms of 
religious persecution over the last year in Sudan. The main 
reason for this deterioration has been the increased revenues 
available to the Government of Sudan because of the oil 
extraction there by foreign companies. American companies are 
already under sanctions and are not allowed to engage in the 
oil ventures with Khartoum. However, foreign companies can do 
that, have done it, and come to U.S. markets to raise capital 
for those ventures.
    One of our recommendations was full disclosure by these 
foreign companies coming to U.S. capital markets about the 
extent and nature of their business in Sudan, their investments 
in Sudan, the facts regarding human rights and religious 
freedom. This recommendation in part, and especially as it 
applies to Sudan, was picked up by the acting Director of the 
SEC, Laura Unger, and she has written a letter of May 8 to 
Congressman Frank Wolf, in response to a letter he wrote, that 
the SEC would henceforth require this kind of disclosure for 
countries under OFAC sanctions. Sudan happens to fall under 
that. We saw this as a huge step forward, as meeting, at least 
in major part, one of our recommendations.
    There is a concern now and some indications that the 
incoming Director, Harvey Pitt, may either dilute or walk back 
this disclosure requirement. I was asking, when you walked in, 
if you would raise your concern that that not happen at his 
confirmation hearing.
    Senator Sarbanes. You have, of course, expanded your list 
this year, and I gather last year there was some criticism that 
it was too narrowly focused. But are there any success stories? 
Can you point to any countries that were really real problems 
where the situation has gotten better?
    Rabbi Saperstein. Senator Sarbanes, if I may respond to 
that. There are different ways of measuring that. In the most 
egregious countries, the ones that are the countries of 
particular concern, with one exception--and that is in Serbia--
there have really been no significant improvements. In other 
countries in which there are egregious problems and we made 
recommendations that they be on the CPC list, there has been 
very little real progress made.
    Where progress happens in those kinds of countries, it 
happens on a case-by-case basis and part of the work of the 
ambassador-at-large has been to travel to some of those 
countries and work in terms of the plight of particular 
individuals who are in trouble, particularly leaders, often 
symbolic leaders who symbolize the struggle for freedom more 
broadly. This happens in a broad range of countries, but where 
there is progress in the toughest countries or in many of the 
others, it happens in that way.
    So, for example, right now Ms. Shea, who follows this so 
well--and we all rely on her--pointed out to me that in Vietnam 
recently Father Ly, who is the Catholic priest who submitted 
testimony to us at our hearing and who has been an exemplary 
leader on these issues, was recently arrested. And the 
venerable Thich Quang Do was put into administrative detention 
simply for trying to get medical help to the patriarch of the 
independent Buddhist church. These are the kinds of issues 
where the State Department often will intervene and act and 
sometimes has made progress.
    There is another answer I think to your important question 
that is much broader than that. Something truly remarkable is 
happening for this cause as a result of the legislation that 
you have created. By mandating an annual report, it means that 
in every U.S. Embassy across the globe today there are Foreign 
Service officers who really know this issue. As we have 
traveled to other countries and met with the embassy staff 
there, we have been enormously encouraged that there are people 
who know the issue, who know now all the religious leaders, all 
of the groups that are in trouble, where before it was total 
idiosyncratic whether or not that would have occurred. They 
know the government officials and are working with them. They 
help avoid bad laws when bad laws are being proposed, and we 
can cite several instances where intervention by the U.S. 
Embassy, for example, in Romania and other places, helped raise 
their awareness that legislation that had been proposed would 
have been extraordinarily problematic.
    Wherever we go across the globe, we hear a consistent 
message from the members and leaders of the persecuted groups. 
What a difference it is that we have someone we can go to now, 
someone who knows us and knows this issue, and who is mandated 
to care about this issue. They feel the impact of that. That 
helps avoid many problems that we then do not have to resolve.
    The final thing I would point out is, as I have traveled 
during my year as chair to a number of the countries, I met 
with representatives of several countries in the democratic 
world who said we cannot afford to do this, but you ought to 
know we really make use of your annual report from the 
Commission and the annual report of the State Department on 
this issue. We send it out to all of our people in the field. 
We ask them to read it. We ask them to work with the American 
Embassy and to get involved. That also is a major impact and 
benefit that this process has had.
    So, while there are still millions of people who remain 
persecuted, imprisoned, tortured, harassed simply because they 
want to live out their religious lives in accordance with their 
conscience, there are also millions of people who have been 
helped by this legislation whose plight has been lessened and 
whose lives are better because of what you created here. And I 
hope you feel the same measure of pride that we feel in terms 
of having contributed to that.
    Senator Sarbanes. Well, thank you all very much.
    Mr. Chairman, I would be remiss if I did not thank the 
members of the Commission that are before us and their other 
colleagues for the contribution they are making. It is very, 
very important work and we are very anxious that the Commission 
be able to carry on in this very committed and independent 
manner in which it has been conducting its activities. We will 
try to work on these structural and organizational problems 
that we were talking about.
    Thank you very much.
    Senator Brownback. Thank you, Senator Sarbanes.
    Senator Nelson.
    Senator Nelson. When do you think the Commission will get 
around to looking at religious freedom in Cuba?
    Ms. Shea. Well, speaking as someone who is going to be 
going forward in this Commission in the next 2 years, I think 
that that is certainly a country that we will continue to 
monitor and will put on our radar screen. There have been 
recent statements of disappointment I know from the Vatican 
that they did not see the progress that they had hoped after 
the Pope's visit. Some evangelical churches have been 
dismantled and so forth. So, I think that that is a very good 
suggestion.
    Senator Nelson. Do you think that religious freedom should 
play a part in United States foreign policy, particularly with 
regard to appropriations, military aid, and foreign assistance?
    Mr. Young. Mr. Senator, we do. In fact, we have made some 
very specific recommendations regarding foreign aid, both 
positive and negative, in the sense that we believe our foreign 
aid, as provided in the International Religious Freedom Act, 
ought to be targeted to activities that would promote human 
rights generally and freedom of religion in particular. We have 
also suggested that the government monitor very carefully and 
not give aid to organizations that may facilitate policies of 
either religious discrimination or actual persecution or 
government instrumentalities that might do that. So, I think 
you are absolutely right about that. The Commission has looked 
at that and made some recommendations.
    We have looked a little less at military aid because at 
least the countries we have initially identified as among the 
most abusive do not have deep military ties with the United 
States, but that is also something we have referenced in our 
report as well, particularly as you begin to look at countries 
with which the United States has that kind of a relationship.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Nelson.
    I want to thank the Commission again. I just think this is 
outstanding work, and during my travels abroad, what I find in 
our embassies and amongst religious leaders as well, is an 
increased awareness and focus. It is really what you had 
stated, Rabbi Saperstein, that they know the issue now. They 
are aware of it. They advocate for it. And there has been a 
remarkable sea change in a very short period of time that that 
has taken place and it really has contributed to a substantial 
growth in human rights of the most fundamental nature, that 
being how you seek to worship in your own privacy and the way 
that you want to. So, I commend you. This is some of the best 
work I think that we do for other people around the world. 
Godspeed in continuing it.
    We will leave the record open the requisite period of time 
for additional questions that may be submitted. Thank you all 
for coming. The hearing is adjourned.
    Dr. Kazemzadeh. Mr. Chairman, if I may thank you personally 
and on behalf of the Commission for all of the support that you 
and your colleagues have given to this Commission.
    Senator Brownback. Well, thank you. And we will leave the 
record open for that statement.
    Thank you very much.
    [Whereupon, at 11:18 a.m., the committee was adjourned.]


</pre></body></html>
